<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:00 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Blunt, Daines, Moran, Hoeven, 
Durbin, Leahy, Tester, Udall, and Baldwin.

                         DEPARTMENT OF DEFENSE

                       National Guard and Reserve

STATEMENT OF GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL 
            GUARD BUREAU


             opening statement of senator richard c. shelby


    Senator Shelby. Good morning. This subcommittee will come 
to order.
    I am pleased this morning to welcome our distinguished 
panel to review the budget requests of the National Guard and 
the Reserve components.
    Today, the committee will hear from General Joseph Lengyel, 
Chief of the National Guard Bureau; Lieutenant General Charles 
Luckey, Chief of the Army Reserve; Lieutenant General Maryanne 
Miller, Chief of the Air Force Reserve; Vice Admiral Luke 
McCollum, Chief of the Navy Reserve; and Lieutenant General Rex 
McMillian, Commander of Marine Corps Forces Reserve.
    Our Nation's active duty and reserve component forces are 
more fully integrated today than at any time in the modern era. 
Guardsmen and Reservists have been regularly called upon since 
2001 to deploy in support of our Nation's contingency 
operations abroad and to protect our citizens at home. Through 
programs like the Guard's State Partnership Program, they 
participate in joint security cooperation activities with our 
international partners.
    In 2018 now, as in years past, we have seen our Guard and 
Reserve forces called upon to assist local communities 
devastated by natural disasters such as Hurricanes Harvey, 
Irma, and Maria. And most recently, the President has announced 
his decision to send up to 4,000 National Guard troops to the 
southwest border in support of the U.S. Border Patrol's 
mission.
    This level of integration and cooperation with active 
forces, domestic agencies, and international partners requires 
Guard and Reserve units to be sufficiently manned, trained, and 
equipped to handle their diverse mission sets.
    Today, we thank all of you for your service and look 
forward to your update on the border development, as well as 
any resource challenges that you foresee as this committee 
reviews the fiscal year 2019 budget request.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order. I am pleased to 
welcome our distinguished panel to review the budget requests of the 
National Guard and Reserve Components.
    Today the committee will hear from General Joseph Lengyel, Chief of 
the National Guard Bureau; Lieutenant General Charles Luckey, Chief of 
the Army Reserve; Lieutenant General Maryanne Miller, Chief of the Air 
Force Reserve; Vice Admiral Luke McCollum, Chief of the Navy Reserve; 
and Lieutenant General Rex McMillian, Commander of Marine Corps Forces 
Reserve.
    Our Nation's active duty and reserve component forces are more 
fully integrated today than at any time in the modern era. Guardsmen 
and Reservists have been regularly called upon since 2001 to deploy in 
support of our Nation's contingency operations abroad and to protect 
our citizens at home. Through programs like the Guard's State 
Partnership Program, they participate in joint security cooperation 
activities with our international partners.
    In 2018, as in years past, we have seen our Guard and Reserve 
forces called upon to assist local communities devastated by natural 
disasters such as Hurricanes Harvey, Irma, and Maria. And most 
recently, the President has announced his decision to send up to 4,000 
National Guard troops to the Southwest border in support of the U.S. 
Border Patrol's mission.
    This level of integration and cooperation with Active forces, 
domestic agencies, and international partners requires Guard and 
Reserve units to be sufficiently manned, trained, and equipped to 
handle their diverse mission sets. We thank you for your service and 
look forward to your update on the border development, as well as any 
resource challenges you foresee as this Committee reviews the fiscal 
year 2019 budget request.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks.
    Senator Shelby. At this point, I want to recognize the 
ranking member, the Vice Chairman, Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Mr. Chairman.
    I am pleased to join you in welcoming our witnesses to this 
hearing to discuss the issues and priorities of the National 
Guard and Reserve.
    Let me say at the outset, thank you to each and every one 
of you and to the men and women that you represent.
    This hearing is quite timely, given the President's recent 
decision to deploy the National Guard to the southwest border, 
and his intention to use Department of Defense funds to build a 
wall there.
    I ask unanimous consent, Mr. Chairman, to place into the 
record a letter that Senator Jack Reed of Rhode Island and I 
sent to Secretary Mattis earlier this month. We requested 
Secretary Mattis' legal review of the Department of Defense's 
authority to use funds appropriated in the fiscal year 2018 
defense bill to construct a wall.
    This letter lays out the case that the Department of 
Defense has no legal authority to build a border wall with or 
without reprogramming because the President did not ask for, 
and Congress did not provide, any funds that could be legally 
used for that purpose.
    Many of us were also taken aback when the President tweeted 
he was deploying the National Guard to the border. The 
President's claim that we face a crisis at our southwest border 
is simply not supported by any evidence. And it is particularly 
ironic when the President has said repeatedly that illegal 
border crossings are at an all-time low.
    I am concerned this Administration is diverting limited 
Department of Defense resources to the border to carry out a 
deportation agenda. Instead, the Administration should rethink 
its proposal to dramatically cut foreign aid to Central 
America, aid that would help address the violence driving 
women, children, and others to our border.
    It is evident that the Pentagon was also taken off guard by 
the President's tweet. Two weeks after the President's 
announcement, the Department of Defense still could not provide 
any estimate as to how much this deployment will cost or who is 
going to pay for it.
    Using past history as a guide, this deployment could easily 
cost hundreds of millions of dollars. Congress needs to know 
what is going to be cut from the Defense budget to pay for 
this. I hope that General Lengyel can provide some insight into 
the planning for this mission.
    I must tell you, I have serious concerns about what an 
open-ended deployment will mean to the National Guard's 
readiness and the Guard members' personal lives, their jobs, 
and their families.
    For 17 years now, our Nation has relied on the Guard and 
Reserve as an operational force, seamlessly working with the 
active duty force. It has been many years of high tempo. Under 
Secretary Mattis' leadership, each of you has made the 
readiness of your force your highest priority: renewing 
training efforts and modernizing equipment.
    This committee has repeatedly provided the Federal funding 
that you needed for support.
    I am eager for an update on your readiness levels and how 
we can further support you. I recognize that strengthening 
readiness has not been easy with continuing resolutions, 
threats of a shutdown, and sequestration looming. It has been 
start and stop, and still, you fulfilled your duties, and I 
thank you for this. That is not easy in any organization and 
not fair to our military and families who serve so selflessly.
    You can count on me to work with our new chairman of this 
subcommittee, and the full appropriations committee, Senator 
Shelby, to get the fiscal year 2019 budget process started as 
soon as we can.
    The three of us, who are sitting at this moment together, 
are old school. We remember the Senate Appropriations, and even 
the House Appropriations, committees that actually produced 
bills that were actually debated, that actually passed, and 
that actually became law. We would like to return to those 
thrilling days of yesteryear.
    We have other specific issues to discuss with the panel, 
water contamination caused by firefighting chemicals, cyber 
protection, and equipment needs, to name a few. I look forward 
to that discussion.
    Thank you, Mr. Chair.
    Senator Shelby. The letter from Senator Reed that you 
referenced, Senator Durbin, will be made part of the record in 
its entirety without objection.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Shelby. General Lengyel, do you want to start.

             SUMMARY STATEMENT OF GENERAL JOSEPH L. LENGYEL

    General Lengyel. Thank you, Chairman Shelby and Vice 
Chairman Durbin, distinguished members of this subcommittee.
    It is a pleasure to be here today.
    At this time, Mr. Chairman, I would like to submit my full 
written statement for the record.
    The National Guard consists of 343,000 citizen soldiers of 
the Army National Guard and 106,000 citizen airmen of the Air 
National Guard. They represent the finest National Guard in our 
381 year history. I am honored to represent them along with 
their families, communities, and employers here today.
    In the National Defense Strategy, the Secretary outlined 
the priorities of our military to deter war and protect the 
security of our Nation. In supporting the National Defense 
Strategy, my focus remains on our three primary missions: the 
war fight, defending and securing the homeland, and building 
enduring partnerships.
    The Guard is tremendously appreciative for this committee's 
support in enabling us to accomplish these missions.
    On any given day, approximately 20,000 men and women of the 
National Guard work seamlessly with the Army and Air Force as 
part of the joint force protecting our Nation's interests 
around the globe. With approximately 850,000 deployments since 
9/11, Guard, soldiers, and airmen conduct complex operations 
that support every geographic combat and command. Your 
continued support allows us to leverage our years of combat 
experience to help confront current and future security 
challenges.
    In the homeland, your investment supports, on average, 
about 8,000 Guard, soldiers, and airmen every day conducting 
domestic and homeland security defense operations.
    The Defense Department is assigning our Guardsmen to 
support the Department of Homeland Security with its border 
security mission as we speak. These Guardsmen, who are under 
the command and control of your State governors, will be in 
support as DHS (Department of Homeland Security) continues to 
refine the requirements.
    Your Air National Guard Fighter Wings are protecting the 
Nation's skies in 15 of the 16 aerospace control alert sites, 
including the skies over the Capitol here today.
    The Guard has over 60 percent of the Department of 
Defense's chemical, biological, and radiological nuclear 
response forces that are strategically positioned throughout 
the United States.
    Our Cyber Force will grow to 59 units across 38 States by 
fiscal year 2019 in addition to the existing 54 Army National 
Guard Defensive Cyberspace Operations elements.
    Soldiers and airmen in our Counterdrug program, in 
coordination with law enforcement agencies and other partners, 
detect, interdict, disrupt, and curtail drug trafficking across 
our Nation. And the Army National Guard Ballistic Missile 
Defense Battalions defend the Nation against intercontinental 
ballistic missile threats.
    On top of all of this, the National Guard stands ready to 
respond to emergencies such as hurricanes, wildfires, and 
flooding, as well as assist law enforcement during times of 
civil unrest; missions the National Guard performs with little 
or no notice.
    Over the past year, 45,000 men and women of the National 
Guard responded to Hurricanes Harvey, Irma, and Maria while 
simultaneously supporting wild land firefighters and other DOD 
(Department of Defense) missions across the States.
    The National Guard was called 255 times and served more 
than 1.8 million man days, responding to homeland emergencies 
in fiscal year 2017, saving thousands of lives. Our presence in 
communities around the Nation uniquely postures us to respond 
when our communities need us most.
    The National Guard's success in the war fight and homeland 
operations is a direct result of the enduring partnership we 
build with international, Federal, State, and local partners. 
Through the State Partnership Program, we currently partner 
with 79 nations. This low cost, high return program builds 
enduring partnerships based on mutual trust and generates 
contributions to coalition efforts around the world.
    Today, the National Guard has co-deployed more than 80 
times with partner nations on State, Federal, and local. Deep 
partnerships with the National Guard's unique authorities 
ensure a speedy domestic response during times of domestic 
crisis.
    Our Nation is currently facing an ever-evolving security 
challenge. I am thankful for this committee's recognition in 
the support of your National Guard's role both in the homeland 
and abroad.
    For instance, this committee's support of the National 
Guard and Reserve Equipment Account allows our Force to improve 
its ability to perform across the broad spectrum of 
contingencies here at home and overseas.
    Today's operational National Guard requires concurrent and 
balanced modernization and recapitalization with our active 
components.
    This committee's commitment to modernization and 
recapitalization on platforms such as the F-35, KC-46, C-
130J's, Blackhawks, HMMWV's, and other ensure the National 
Guard is a seamless, interoperable total force partner 
supporting our national defense.
    Finally, funding for programs, such as the State 
Partnership Program and Counterdrug Program, allow the National 
Guard to leverage its unique attributes to strengthen 
relationships overseas and aid domestic law enforcement 
encountering illegal drugs.
    Again, I am honored to be here representing the men and 
women of the National Guard and the families who support them.
    Thank you for your continued support, and I look forward to 
your questions.
    [The statement follows:]
            Prepared Statement of General Joseph L. Lengyel
    Chairman Shelby, Vice Chairman Durbin, and distinguished members of 
the subcommittee, it is a pleasure to be here today with my fellow 
Reserve Component Leaders.
    Today's National Guard is the most relevant it has ever been. I 
have lived through the transformation of the Guard from a good, 
reliable, and competent strategic reserve, to a combat-tested and 
experienced operational force that works seamlessly with the Army and 
the Air Force. We are witnessing the best National Guard in our 
history, but there is more to be done as we face challenging times 
ahead.
    As Chief of the National Guard Bureau, my focus every day is 
accomplishing our three core missions--fighting America's wars, 
securing the homeland, and building enduring partnerships. This past 
year, our Guardsmen and women performed these missions magnificently 
and I could not be more proud of their commitment and dedication.
    As the new National Defense Strategy acknowledges, we live in an 
increasingly complex global security environment where the character of 
war is changing. We are no longer safe at home as the current threat 
environment blurs the lines between domestic and overseas threats, with 
many of these threats transcending regions and domains of warfare. We 
must compete globally, across the engagement spectrum. We must build a 
more modern, lethal, agile and resilient force to respond to these 
challenges and the increasing volatility of our security environment. 
Maintaining an operational National Guard, as a part of the joint 
force, is critical to this end.
                                warfight
    Fighting America's wars will always be the primary mission of the 
National Guard. The National Guard supports the needs of the Nation, 
the Army, and the Air Force as an operational warfighting force 
providing strategic depth, designed with a balance of combat and 
enabling units that largely mirror our active Army and Air Force. As 
the primary combat reserve of the two services, the Guard is a critical 
element of the joint force.
    The Nation needs a Guard that is ready, rapidly scalable and 
accessible with little or no notice for any contingency to meet any 
need. When mobilized and deployed, the Guard is interchangeable with 
its active components, providing the joint force highly trained 
capacity and capability for the fight. Further, today's National Guard 
Soldiers and Airmen expect to be deployed and then employed fighting 
and securing America's national security interests.
    Thousands of Guardsmen and women serve around the globe on any 
given day. Today, we average around 20,000 Soldiers and Airmen 
mobilized in places such as Afghanistan, Syria, Iraq, the Sinai, 
Europe, and South America. However, this is well below our level of 
mobilizations at the height of the wars in Iraq and Afghanistan. I 
believe we have the capacity to increase the number of mobilized Guard 
units over the next several years to support combatant commands around 
the world countering threats wherever they exist. Guard utilization can 
be maintained indefinitely when mobilizations are recurring, 
rotational, sustainable, predictable, and resourced.
                                homeland
    Here in America, the National Guard plays a unique role. Our dual-
use nature and robust presence in 2,600 communities in our States, 
territories, and the District of Columbia, gives our National Guard the 
ability to quickly and efficiently respond to contingencies. Our 
experience and capabilities, gained from conducting complex combat 
operations, are utilized in coordinating a unified response across 
local, State and Federal agencies using the dual-status authorities 
that permit the Guard to be employed under State or Federal command 
during domestic emergencies.
    The homeland is part of the global battle space. In the past, 
America benefited from its favorable geography with friendly neighbors 
to the north and south and large oceans to our east and west as natural 
barriers. Today, we no longer enjoy this safe haven as a result of new 
technologies and weapons that can reach the heart of America with 
little or no warning. Additionally, our competitors use cyber in 
various ways that include information campaigns as a means for 
influence. We must compete every day to safeguard our way of life.
    Proliferation of nuclear, biological, and chemical weapons, and 
high-yield explosive devices has increased the threat of a weapons of 
mass destruction (WMD) attack on the United States. Delivery mechanisms 
for these kinds of weapons have also multiplied, and our adversaries 
continue to probe for weaknesses in our defense. In any future 
conflict, space and cyber attacks will be the norm and will have 
extensive impacts on American civilians and our Nation's 
infrastructure.
    In addition to around 20,000 Guardsmen and women mobilized around 
the world, on average, about 8,000 Guard Soldiers and Airmen conduct 
domestic and homeland security/defense operations in the United States 
on any given day. The National Guard Counterdrug Program assists law 
enforcement with the detection, interdiction, disruption and 
curtailment of illicit drug trafficking. We support governors and State 
agencies during emergencies by providing life-saving aid to devastated 
regions ravaged by disasters such as wildfires and hurricanes. We 
safeguard our skies by operating from 15 of the 16 Aerospace Control 
Alert sites within the United States. Guard battalions in Alaska and 
Colorado protect our citizens from ballistic missiles, a threat that is 
more immediate now than ever before. The National Guard also provides 
over 60 percent of the Department of Defense's chemical, biological, 
radiological, and nuclear (CBRN) response forces, capable of responding 
to a host of CBRN threats to our homeland. National Guard cyber units 
will grow to 59 units across 38 States by fiscal year 2019 in addition 
to the already existing 54 Army National Guard Defensive Cyberspace 
Operations Elements.
    This past year, the National Guard responded to Hurricanes Irma, 
Harvey, and Maria where a total of approximately 45,000 Guardsmen and 
women supported recovery efforts. Simultaneously, the National Guard 
supported wildland firefighting efforts across several States. The 
Nation had to galvanize its efforts and resources to provide resiliency 
and stability to the communities affected by these disasters. The 
National Guard was there every step of the way, and I could not be more 
proud of our Soldiers and Airmen. Further, we supported all of these 
events while we continued to meet our deployment requirements. We will 
utilize the experience we gained in responding to these recent 
disasters and benefit from lessons learned as we continue to improve 
and increase coordination with our partners in order to achieve unity 
of effort within a whole-of-government response.
                         building partnerships
    In today's security environment, threats are increasingly global 
and multiregional. As the National Defense Strategy outlines, our 
alignment with allies and partners provide a durable and asymmetric 
advantage over our adversaries.
    Twenty-five years ago, the National Guard began its State 
Partnership Program (SPP) to assist the countries of Eastern Europe 
reform their defense sectors, improve preparedness, and develop 
leaders. With the recent signing of the Malaysia--Washington State 
partnership, the SPP has grown to include 79 nations, roughly one-third 
of the nations in the world, and more partnerships are planned for the 
future. We have seen the fruits of these relationships, which are built 
on trust, the exchange of ideas, and mutual respect. Our partnerships 
are located in strategic regions around the world and support the 
transition of many nations from security consumers to global security 
providers.
    The SPP provides a low-cost mechanism that bolsters U.S. security 
by, with, and through allies and partners. By building these enduring 
partnerships, we secure partnerships and commitments and help develop 
new ones.
    The National Guard's emphasis on partnerships did not begin with 
the SPP. Throughout our history, based on our State mission, the 
National Guard had the responsibility to safeguard our citizens. This 
naturally led us to build partnerships with State and local agencies 
and officials. Today, we are part of multiagency integrated playbooks 
that governors use in planning for and responding to crises. States can 
call on us to augment their organic response as we bring what the 
Department of Defense brings, such as manpower, training, leadership, 
organization, logistics, and communications to help rebuild communities 
after a catastrophe. Developing cooperation and long-standing 
partnerships over time is a core competency of the Guard.
    The National Guard is a community-based force with many of our 
members working and serving where they live. We're integral to the life 
of our local communities. Whether partnering with local chapters of 
Youth Challenge and Joining Community Forces, or assisting local 
responders after a heavy snowstorm, the saying is quite appropriate--
when you call out the Guard, you call out America.
                            three priorities
    This past year saw a confluence of factors shaping our security 
environment. Near-peer competitors continue to test longstanding 
international norms and engage in activities that are just short of 
conflict, yet whose actions provoke, disrupt, and destabilize the 
global order. Other nations such as North Korea and Iran not only 
threaten regional territories, but also our citizens here at home as 
they continue to fund terrorism and develop increasingly sophisticated 
ballistic missile technology. Catastrophic disasters such as hurricanes 
and wildfires challenged the limits and capacity of our responders.
    In light of these challenges and those that lie ahead, I have laid 
out three priorities to respond to our current threats and capture my 
vision for the Guard's future--provide ready forces to the President 
and our Governors, take care of and develop our people, and innovation.
                         priority #1: readiness
    The past 17 years of continuous combat experience has instilled 
focused discipline into our training process. We are part of the 
Nation's operational force which regularly and routinely contributes to 
the warfight. Consequently, I believe we have the best relationship in 
our history with our active components.
    In building a more lethal Joint Force as directed by the National 
Defense Strategy, the National Guard must ensure readiness. Readiness 
begins with our force structure and the Guard must have a balanced 
array of combat and enabling forces that largely mirrors the Army and 
the Air Force. Readiness also includes resourcing the National Guard 
through appropriate levels of full-time support, modernization and 
recapitalization of equipment, replacing and upgrading Guard 
facilities, and recruiting and retaining the best men and women to 
enhance the readiness of our force. Investment in high-level collective 
training opportunities, such as Combat Training Center rotations and 
Red Flag exercises, builds the readiness of the National Guard, 
develops leaders, preserves readiness in the active components for 
contingency operations and supports critical joint force requirements. 
Increased combat readiness also enhances our ability to respond quickly 
and effectively, saving lives and property in the homeland.
    The Army maintains readiness as its top priority. The Army National 
Guard (ARNG), which comprises nearly 34 percent of the Army's manpower 
and provides approximately 39 percent of the Army's operational force, 
continues to provide rotational forces for named operations, enabling 
active component forces to support contingency plans. In addition, the 
Army Guard always remains responsive to governors in supporting civil 
authorities with such disasters as hurricanes, floods, wildfires, and 
tornadoes--just as we did this past year.
    In fiscal year 2017, the Army National Guard supported 68 exercises 
worldwide. Additionally in 2017, more than 150 Army Guard units 
participated in collective training exercises at Combat Training 
Centers which resulted in increased mission readiness. Beginning in 
2018, the Army National Guard Combat Training Center rotations double, 
from two to four per year, for our Brigade Combat Teams.
    At the forefront is maximizing unit readiness in order to reduce 
post- mobilization timelines. The ARNG recognizes the importance of 
modern facilities for today's Soldiers and their equipment. As we 
continue to invest in developing and improving installations and 
facilities for optimum training and efficient mobilization, we will 
develop leaders for the total force and, as always, maintain proper 
stewardship of our nation's resources.
    The Air National Guard continues to utilize its multi-component 
dual-use capability at home and abroad. We work seamlessly with the Air 
Force and maintain the same standards of operational readiness and 
cross-component operational capabilities. Guard Airmen, comprising 
approximately a quarter of the Air Force's total manpower, supported 
deployment requirements in 56 countries in fiscal year 2017. At home, 
our Airmen responded to raging wildfires and provided lifesaving 
support and comfort for victims of Hurricanes Harvey, Irma, and Maria. 
In addition, the Air Guard continues to protect our skies as the 
primary force provider for the North American Aerospace Defense 
Command. The Air National Guard is focused on readiness for today's 
fight while simultaneously developing 21st Century Guard Airmen and 
preparing for tomorrow's fight.
                          priority #2: people
    Our three core missions cannot be accomplished without our most 
important weapon system, our citizen warriors, symbolized by the 
Minuteman. They provide the foundation on which all our capabilities 
reside.
    Our Guardsmen and women have been answering the call since the 
first militia regiments were organized in Massachusetts in 1636. While 
the underlying principles of the Minuteman remain constant, ready to 
defend our communities and our Nation, the Minutemen of the 21st 
century are a premier force that is a key component of the joint force. 
They are adaptive and innovative, often bringing diverse and new ideas 
on how to accomplish different missions.
    In order to maintain this unique and talented force, we have to 
ensure the well-being of our Guardsmen and women, including support for 
our families and employers.
    Respect throughout our ranks must be second-nature and we will 
always strive to be the most diverse force we can be. We will not 
tolerate acts such as sexual assault, sexual harassment, and any forms 
of social media that degrade or demoralize unit cohesion and readiness. 
We must ensure all victims receive our utmost support and care.
    With respect to suicides, any Soldier or Airman who takes his or 
her own life is one too many. We must ensure our service members look 
out for one another. Every first-line supervisor, battle buddy and 
wingman should have the requisite training that equips them to look out 
for fellow Soldiers and Airmen. We are emphasizing mental health and 
resiliency for our units and leaders as we strive to prevent suicides.
    Our families also faithfully commit to our Nation, States and 
communities when a Guard member serves. We must take care of our 
families by ensuring they are aware of family readiness programs, 
employment assistance programs, and where to turn to when they need 
help.
    Although the increased demand that is placed on the National Guard 
will add stress to the Guard's part-time force and our business model, 
we will continue to adapt. Guard Soldiers and Airmen offer employers a 
culture of selfless service, an immeasurable benefit brought to the job 
through their military training, experience and leadership. At the same 
time, the National Guard benefits from the civilian skills our men and 
women bring from their employers. To protect this business model, we 
must do our best to provide as much predictability as possible as we 
train our forces to answer our Nation's call. We owe this measure to 
our dedicated service members, their families, and our employers.
                        priority #3: innovation
    Innovation is inherently in the DNA of the National Guard. National 
Guardsmen and women bring unique solutions to different problem sets 
using their dual-life military and civilian experiences. For example, 
many of the scientists, engineers, and technology experts we see in the 
private sector, are also members of the National Guard.
    I have created the National Guard Innovation Team which gives me a 
direct conduit to Soldiers and Airmen of all ranks who can lend their 
diverse expertise in tackling some of the most challenging issues we 
face as an organization. However, every Guard Soldier and Airmen should 
be empowered to be innovative. We all need to work together to find 
solutions for issues that can have wide implications for the Guard such 
as more effective organization, recruiting, communications, and 
employing social media more effectively. Looking at the spectrum of 
threats at home and across the world, we need innovative minds more 
than ever.
    We need to harness the intellectual capital resident in the Guard. 
By developing imaginative solutions and inspiring our culture to be 
more willing to evolve and change, we will become a stronger, more 
efficient and effective National Guard.
                               conclusion
    I am proud to represent the 450,000 Soldiers and Airmen who serve 
in the National Guard. We are an organization steeped in history and 
tradition. However, I believe the best is yet to come.
    Thank you for your continued support of the members of the National 
Guard and their families.

    Senator Shelby. Lieutenant General Luckey.
STATEMENT OF LIEUTENANT GENERAL CHARLES D. LUCKEY, 
            CHIEF, ARMY RESERVE AND COMMANDING GENERAL, 
            UNITED STATES ARMY RESERVE COMMAND
    General Luckey. Chairman Shelby, Vice Chairman Durbin, 
distinguished members of the subcommittee.
    Thanks for the opportunity to appear before you this 
morning. It is an honor for me to represent the some 200,000 
soldiers and the civilians of America's Army Reserve who, as I 
speak, serve in 20 time zones across the globe. On behalf of 
them and their families, I want to thank each of you for your 
support.
    With a presence in 50 States, 5 U.S. territories, and 30 
countries around the world, your Army Reserve is becoming the 
most capable combat ready and lethal Federal Reserve force in 
the history of the United States.
    Over the past year, we have continued to refine our Ready 
Force X construct as the driver and intellectual forcing 
function for all aspects of manning, equipping, training, and 
deploying key capabilities on compressed timelines. As I tell 
our troops, RFX (Ready Force X) is a verb, not a noun.
    At its core, RFX does two things. First, it is a way of 
seeing ourselves as a Force, from a readiness perspective, with 
high fidelity and within the context of joint staff validated 
war plans. It enables us to prioritize activities and target 
policies that get after manning, training, and equipping early 
deploying capabilities before mobilization. In essence, it 
anticipates and prioritizes what needs to be done first in 
order to dramatically reduce post-mobilization timelines.
    Second, it forces commanders at echelon to realistically 
assess the amount of time they will need to finalize 
preparation of their units for combat, post-mobilization, and 
to commit to those timelines that are measured, oftentimes, in 
days and weeks, not months or years.
    This is essential, because it enables us to articulate and 
mitigate both risk to mission and risk to force by clearly 
assessing the criticality of making mobilization decisions well 
before we expect some units to arrive in theater fully combat 
ready.
    As America's Army Reserve becomes more capable and combat 
ready over time, we also remain consistently ready for our 
Defense Support to Civil Authorities' missions here at the 
homeland and on a moment's notice.
    Last year, leveraging its immediate response authority, 
your Army Reserve conducted hundreds of missions to evacuate 
and rescue thousands of citizens in need, to transport 
emergency responders, and airlift lifesaving capabilities and 
medical supplies to generate power, purify water, open ports, 
clear roads, and deliver food, water, and supplies in support 
of Harvey, Irma, and Maria relief efforts.
    That said, readiness remains this team's top priority. Last 
spring, America's Army Reserve conducted the largest crew-
served weapons gunnery exercise in its history: Cold Steel II 
at Fort McCoy, Wisconsin. This historic operation trained 
thousands of soldiers and hundreds of key raters now qualified 
to train and evaluate others, as well as reinvigorating the 
Non-Commissioned Officer corps of your Army Reserve and 
reinforcing our ethos of lethality. It was awesome.
    This year, we are on our way to more than doubling down on 
the production of this force and this capability. Operation 
Cold Steel II started last October at Fort Hunter Liggett, 
California and it continues today at Fort McCoy Wisconsin, Fort 
Knox Kentucky, and will soon shift to Joint Base McGuire-Dix-
Lakehurst in New Jersey as we move into the summer. It dwarfs 
Cold Steel One in terms of scope, complexity and throughput, 
and constitutes, once again, the most aggressive and productive 
weapons training in the 110 years of this team.
    As we look to the future, your Army Reserve continues to 
assess shifting demographics and emerging markets as we 
position and posture structure to ensure that we continue to 
leverage and share the best talent in America with employers 
across the Nation. Targeting, in some cases, digital key 
terrain, your Army Reserve is driving to exploit its public-
private partnership program, to develop and expand unique 
employment relationships with the private sector as a screening 
force for the Army and the Department of Defense.
    Creating and moving new structures to key regions, to gain 
and retain talent in areas such as cyber operations, quantum 
computing, artificial intelligence, your team works closely 
with the Defense Innovation Unit Experimental, that is, DIUx, 
at the Department of Defense in Military District 5 here in 
Washington, D.C. and other critical defense-oriented entities. 
This initiative is already well underway and bearing fruit.
    Finally, I want to thank the Congress and this subcommittee 
for your continued support of the Army Reserve to the National 
Guard and Reserve Equipping Appropriation, NGREA. This funding 
remains vital, and I can assure you that we leverage it to 
produce key readiness and lethality enhancing capabilities.
    In closing, I encourage you to continue to reach out to the 
communities in cities, campuses, and employers in your State, 
and to influence the influencers within the sound of your 
voice. Let them know that we appreciate their full partnership 
in the national security of our great Nation. They are sharing 
the best talent in the world with America's Army Reserve.
    We could not generate the capability we do for the Nation 
without their continued support. That sustained support is 
essential if we are going to continue to be ready enough to be 
relevant, but not so ready that our soldiers cannot keep 
meaningful, civilian jobs and supportive and healthy family 
lives.
    On behalf of my entire team, we appreciate you, your 
support, and your leadership.
    I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Charles D. Luckey
Ready Now; Shaping Tomorrow
    Throughout its 110-year history, America's Army Reserve has always 
met the challenges of the time. Leveraging its broad and pervasive 
presence on, and connections with, Main Street America, the Army 
Reserve has consistently demonstrated its ability to build and sustain 
readiness, and provide unique and critical capabilities to the Army and 
the Combatant Commands at a massive cost-savings to the American 
people. These times are no different.
    As the Army's sole, dedicated Federal reserve force, America's Army 
Reserve has been preparing and posturing its forces to respond quickly 
to evolving threats from multiple sources. In 2016, we embarked upon an 
effort to significantly increase the readiness of our forces and close 
interoperability gaps with the Joint Force. Today, some 30 percent of 
Army Reserve units are charged with maintaining higher levels of 
peacetime readiness to reduce post-mobilization training time, and both 
risk-to-mission and risk-to-force, in the event of war.
    These units, organized into the construct of Ready Force X (RFX), 
are pre-identified based on contingency plans, to mobilize and deploy 
on short timelines as part of critical ``Fight Fast'' formations. Some 
RFX units will provide unique and essential early-entry and set-the- 
theater capabilities to support Army requirements in contested 
environments across multiple domains. Others are tailored to support 
Army efforts to rapidly expand the critical mobilization platforms 
needed to generate the deployment through-put as needed on behalf of 
the American people. Still others provide operational depth, 
acknowledging that hostilities in one theater may tempt other 
competitors to become opportunistically adventurous in another. All 
these forces are being methodically identified, prioritized, trained 
and postured to move fast, engage quickly and win decisively on the 
battlefield of today.
    This urgent press to build sufficient readiness to meet the demands 
of a large and sudden contingency operation, driven by this new threat 
paradigm we face today, has the potential to increase stress on our 
Army Reserve Soldiers, families and employers. We acknowledge and 
accept the daunting challenge it creates, which is to be ready enough 
to be relevant, but not so ready that our Soldiers cannot keep superb 
civilian employment and maintain healthy, rewarding and balanced lives 
with their families.
    This is no small order, but this is no ordinary team. A combination 
of engaged leadership, a realigned and dynamic command and control 
structure, a reformed and innovative training strategy, and enhanced 
time-management flexibility for junior commanders at echelon, will help 
mitigate increased pressure on the Soldier. We are also re-tasking and 
redesigning our Family Support Program to include regionally-oriented, 
organically-nurtured programs that support the family. Finally, the 
Army Reserve will continue its persistent engagement with influencers 
and employers across America to reinforce the strategic partnership 
between Main Street and America's Army Reserve to employ the Nation's 
best talent in support of the American people.
    Looking to tomorrow, your Army Reserve will continue to assess, 
innovate, and shape as we lean into the future. Our aggressive 
initiative to anticipate and be informed by emerging demographic trends 
in the United States, will enable us to integrate, scale and--where 
necessary--realign force structure and facilities to better recruit and 
retain critical talent for the Army by being well-positioned to meet 
and support our Soldiers where they live and work.
    Leveraging new systems and policies, America's Army Reserve will 
explore and, where appropriate, operationalize innovative ways to 
attract, ``hire'' and leverage the rapidly developing ``digital 
talent'' that exists in the private sector for the good of the Army and 
the Nation. In short, we will do more than prepare for tomorrow; we 
will shape it.
    Ready Now, Shaping Tomorrow is not just a slogan. America America's 
Army Reserve--capable, combat-ready and lethal--is ready to fight fast 
today, and innovate for tomorrow, in support of the Army's mission to 
fight, survive and win the Nation's wars.
                     the state of the army reserve
    With a presence in all 50 States, five U.S. territories, and 30 
countries across the globe, America's Army Reserve provides operational 
capability and strategic depth to the Army and the Joint Force in 
support of U.S. national security interests and Army commitments 
worldwide.
    The Army Reserve comprises nearly 20 percent of the Army's 
organized units, almost half its total maneuver support, and a quarter 
of its mobilization base-expansion capacity. Its unique status as both 
a component of the Army and a singular Command imbues it with the 
flexibility, agility and unity of effort needed to respond to any 
mission at home or abroad, often with little notice.
    Manned, trained and equipped primarily to enable combat formations, 
the Army Reserve provides quick access to trained and ready Soldiers 
and units, and the critical enabling and sustaining capabilities the 
Army needs to win. These include key strategic and operational 
capabilities such as Petroleum Pipeline and Terminal Operations, Rail 
Units, Biological Identification Detachments, Broadcast Operations, 
Civil Affairs and Psychological Operations, a variety of Military 
Police capabilities, Military Intelligence, Horizontal and Vertical 
Construction, as well as Combat Engineers, Assault Aviation, Logistics, 
and an array of Medical Commands and formations.
    Engaged globally, the Army Reserve plays an integral role in 
America's national defense architecture, meeting high operational tempo 
demands, generating forces as required, and providing reliable 
capabilities to all Combatant Commands.
    Since 2001, more than 310,000 Army Reserve Soldiers have been 
mobilized and deployed to Iraq and Afghanistan, as well as Theater 
Security Cooperation, Foreign Humanitarian Assistance and Disaster 
Relief, Homeland Defense, Defense Support of Civil Authorities, and 
other missions at home and around the world.
    Today, nearly 15,000 Army Reserve Soldiers are supporting global 
combatant command operations to include Civil Affairs missions in the 
Horn of Africa, deterrence operations in Kuwait, Military Police 
operations at Guantanamo Bay, Cuba, and Medical Support operations in 
Honduras.
    Without doubt, today's Army Reserve is the most combat-tested and 
experienced force in its history, but to remain ready to win in an 
environment that grows daily in lethality and complexity, we must build 
the most capable, combat-ready, and lethal Federal reserve force in the 
Nation's history.
                    meeting the new threat paradigm
    The emerging threat paradigm is characterized by extraordinarily 
capable potential adversaries who could contest and disrupt U.S. 
military operations across all domains--land, air, sea, space and 
cyberspace. This potential reality expands the modern battlefield 
beyond anything we have known in terms of tempo, lethality, and 
operational and strategic reach. Our ability to match and outpace 
potential adversaries is essential to ensuring freedom of maneuver, 
while also strengthening our deterrence posture and assessing the 
resolve and capability of key global allies.
    The commanding lead in technical innovation, once enjoyed by the US 
military, is now subject to challenge by emerging competitors. 
Moreover, the fast pace of change in the private sector--in areas of 
quantum computing, artificial intelligence, robotics, computer & 
materials science, medicine, and genetic research and engineering, to 
name a few--has, in the main, been driven by profit-motivated markets 
that can, in many cases, be characterized by regions, communities or, 
in some cases, specific corporate entities. This pace has accelerated 
to the point where private/public partnerships are, arguably, an 
essential element of National Security.
    In this evolving global security environment in which both U.S. 
technological supremacy and vital national interests are subject to 
challenge by States who potentially possess both the means and 
proclivity to challenge U.S. dominance in critical areas and non-State 
actors who may acquire capabilities to acutely challenge our forces for 
discrete attacks, the mandate is clear: increase the readiness of Army 
Reserve forces--primarily units with a bias for action--in order to 
enable them to deploy and engage on short notice. This focus on 
readiness, of both individual Soldiers and action oriented units, 
drives the Army Reserve's strategy for manning, training, and equipping 
its ``Fight Fast'' formations and adds credence to the Nation's 
deterrence posture.
    Readiness is our first priority, and full-spectrum threats demand 
full-spectrum readiness. In addition to sustaining the counter-
insurgency and counterterrorism capabilities we have developed, the 
Army Reserve must be ready to respond to evolving threats in several 
theaters, and be prepared for the warfighting demands of large-scale, 
nearly simultaneous contingencies in more than one of them. Should they 
materialize, these contingencies would require significant and rapid 
mobilization, and require lead formations from America's Army Reserve 
to provide technical enabling capabilities crucial to opening, 
synchronizing, and sustaining major operations.
    In this new threat paradigm, the time-tested model of rotational 
readiness will no longer suffice. Our traditional ``patch chart'' 
approach will not generate the significant surge capacity that such 
contingencies--arising quickly with little strategic indications and 
warning--will demand. To that end, the Army Reserve must now focus its 
training, equipping and manning priorities to meet the challenge of 
generating full-spectrum readiness for a Ready Force of tens of 
thousands of Soldiers who can deploy to the fight in a matter of days 
and weeks. This work includes having sufficient critical Army Reserve 
enabler capabilities and ensuring there are no interoperability gaps in 
areas such as mobility, lethality, battlefield communications and 
mission command systems.
Ready Force X
    In an environment in which the rapid mobilization and deployment of 
lead formations is critical to massing and sustaining combat power, the 
Army relies upon the fundamentally integrated and unique capabilities 
of America's Army Reserve to fight and win. To that end, as noted 
earlier, your Army Reserve has continued to refine and develop Ready 
Force X (RFX) as the driving force for all aspects of manning, 
equipping, training, and deploying key capabilities on the compressed 
timelines that certain contingencies mandate. While this remains a work 
in progress, much advancement has been made.
    RFX units will have the ability to deploy rapidly--in some cases 
days or weeks--with the mobility, survivability, lethality and netted 
mission command architecture to synchronize with the Total Force and 
win on the battlefield. While RFX units may be missioned, primarily, 
with an eye towards one contingency, their key organizing aspects are 
readiness and agility. Put simply, they must be ready to ``Fight 
Fast.'' Whether it be opening ports, setting the theater with critical 
enablers, constituting and operating mobilization support platforms for 
the Total Force, or supporting maneuver forces in contact with the 
enemy, RFX units need to be ready to move quickly to a wide-variety of 
contingencies.
    RFX units comprise critically integrated capabilities for the Army. 
In some instances they consist of capabilities that are unique to 
America's Army Reserve and have, essentially, no analogue in either the 
Active Army or the National Guard. Key aspects of petroleum 
distribution, rail operations, theater-level engineer and aviation 
operations, civil affairs, and psychological operations are but a few 
examples of such formations. In other cases, they are capabilities 
that, while not exclusively the province of the Army Reserve--critical 
medical units, a wide array of sustainment capabilities, and multiple 
maneuver support formations to list but a few--form a large percentage 
of the Army's total capacity and are likely to be needed on compressed 
timeliness. These requirements drive the mandate: certain units must be 
able to achieve a high degree of pre-mobilization readiness and sustain 
it over time. Readiness begins with the individual American Soldier. 
Fit, medically-ready, appropriately trained, and conditioned, the 
deployable Soldier is the foundational element of capability. Upon this 
foundation we build the collective capability of units-of-action that 
are manned, trained, equipped and--above all--led to genuine combat-
readiness. In RFX formations, this effort requires, in addition to 
motivated and committed leadership, persistent energy and a dogged 
determination to focus on those mission-critical tasks that must be 
accomplished now since there will be little to no time upon 
mobilization.
    At the core, RFX is two things. First, it is a way of prioritizing 
activities and focusing decisionmaking--personnel policies, training 
schedules, equipping timelines, modernization priorities, etc.--with a 
view towards those things that must be done quickly in the event of a 
contingency or surge requirement. Second, it is a lens that forces 
commanders to access, in conjunction with a potential wartime 
requirement, the amount of time they will need to prepare their unit 
for combat, but also to view that assessment considering when the 
Combatant Command has determined that the capability will be needed, in 
the battle-space, and fully mission capable. That lens is what enables 
leadership to see the risk of not being ready to ``Fight Fast,'' 
because it bounds the problem and clarifies the risk.
    RFX is not a rotational-readiness construct. Units in it, to 
include early-entry/set-the- theater capabilities, and other formations 
meeting specific Combatant Command requirements, will be appropriately 
manned, trained, equipped, and maintained in place until further notice 
to enhance stability within the force and enable the Army Reserve to 
build and sustain individual and collective readiness. Leveraging the 
Army's Sustainable Readiness strategy, strategic depth units will 
remain sized, trained, and postured, as required, to protect the Nation 
and its interests, to include Homeland Defense and Defense Support of 
Civil Authorities (DSCA).
Homeland Defense and Defense Support of Civil Authorities
    With Soldiers and equipment in more than 1,100 communities across 
the Nation, America's Army Reserve is uniquely postured to employ 
capabilities critical to Homeland Defense and DSCA. These include 
search and rescue, aviation, engineer, transportation, medical, water 
and fuel distribution, water purification and communications support.
    Operating under Title 10 of the U.S. Code, America's Army Reserve 
supports local, State and Federal agencies as part of the synchronized 
Federal response force coordinated by the Federal Emergency Management 
Agency that fills the capability gaps of Civil Authorities, conducting 
operations to save lives, prevent human suffering and mitigate property 
damage. Operating under the guidelines of the National Response 
Framework (NRF), and in compliance with the National Incident 
Management System (NIMS), America's Army Reserve provides an immediate 
and deliberate response in support of the American people at their time 
of greatest need. As with their brothers and sisters in the Army Guard, 
Army Reserve Soldiers live and work in local communities across the 
country and around the world, and they stand ready to support on no-
notice.
    Over the past year, in anticipation of Hurricane Harvey's landfall, 
your Army Reserve prepared and positioned capabilities to be ready to 
support on a moment's notice, and then--pursuant to Immediate Response 
Authority (IRA)--executed dozens of missions to rescue and evacuate 
well over 4,000 people, transport emergency responders, and airlift 
life-saving medical supplies throughout the greater Houston metroplex. 
Similarly, your Army Reserve Soldiers provided massive IRA support in 
the aftermath of Hurricanes Irma and Maria, providing key port-opening 
capabilities, road clearance operations, water and fuel distribution, 
and water purification operations in support of thousands of devastated 
survivors.
    More than 2,000 Army Reserve Soldiers from the Puerto Rico-based 
1st Mission Support Command and other Reserve units on Puerto Rico and 
the U.S. Virgin Islands responded to local and Federal requests for 
assistance. Placed under the unified command of an Army Reserve 
Brigadier General immediately after Hurricane Irma struck, these units 
provided critical and orchestrated capabilities setting the stage for 
operations after Maria's devastating blow. These operations included 
movement of life-saving commodities, mortuary affairs, power 
restoration, opening of roadways, support of the U.S. Coast Guard in 
opening the Port of San Juan, and enabling additional support to the 
Federal Government's effort to assist the Commonwealth and the 
Territory. Your Army Reserve Soldiers, living in Puerto Rico and the 
Virgin Islands, cleared access corridors to hospitals and positioned 
civil affairs capabilities to better orchestrate medical support to 
localcivilians.
    Water purification units, like the 973rd Quartermaster Company, 
provided more than 12,500 gallons of safe water per day to people who 
had no access to potable water. Army Reserve Convoys transported 
pallet-loads of bottled water, thousands of meals, and gallons of 
freshly purified bulk water, and distributed well over 100,000 gallons 
of fuel in support of local authorities.
    Twenty-one personnel from Delta Company, 249th Engineer Battalion 
(Prime Power), were on the ground in Puerto Rico repairing distribution 
lines. Delta Company, the only Army unit comprised solely of linemen, 
placed an average of 10 power poles per day, and repaired more than 
52,800 feet of distribution lines, connecting over 3,500 clients to the 
power grid.
    America's Army Reserve fields a significant portion of the Nation's 
chemical and biological agent defense capabilities, many of which are 
fully integrated into the standing Department of Defense Chemical, 
Biological, Radiological and Nuclear (CBRN) Response Enterprise An Army 
Reserve mission force comprised of units assigned to the CBRN Command 
and Control Element conducts critical enabling tasks for CBRN response 
operations in support of if called upon, these highly trained Soldiers 
support civil authorities to save lives, minimize human suffering, 
maintain public confidence, and mitigate the effects of CBRN incidents.
Leveraging the Civilian Skills
    Many of America's Army Reserve Soldiers have years of civilian 
experience and industry- specific knowledge, expertise and skills in 
cyber, artificial intelligence, quantum computing and other advanced-
technology fields. Your Army Reserve has already moved rapidly and 
decisively to position force structure across the United States to 
assess and develop ``digital key terrain''. Intended, broadly, to both 
better understand the rapidly developing technologies in the private 
sector of the global economy and to exploit the Army Reserve's unique 
ability to leverage its pervasive presence in that sector to bring 
additional capability to the Army, this initiative is well underway. 
Working closely with partners in both the public and private sectors, 
your Army Reserve is playing to its strength--finding some of the best 
talent in America and weaving it into the National Security fabric of 
America.
    We will continue to explore and exploit opportunities to draw upon 
our civilian-acquired or civilian-retained skills, and to leverage our 
relationships with industry and academia, while also capitalizing on 
evolving demographic shifts in the population. But one example from an 
operational perspective: Army Reserve cyber Soldiers support a myriad 
of missions to include cyber protection of critical infrastructure 
networks. Army Reserve Cyber Operations Group Soldiers are employed by 
more than 30 government agencies and contractors, including the 
Department of Homeland Security, the National Security Agency, the 
Federal Bureau of Investigation, the Defense Intelligence Agency and 
more than 40 corporate, financial and academic institutions, such as 
Uber, Google, IBM, MIT, Carnegie Mellon University and the Naval Post 
Graduate School. This is but the beginning.
Families and Employers
    Readiness is built and sustained by garnering and retaining the 
support of both our families and, for America's Army Reserve, the 
employers who enable us to serve the Army and the Nation. The reason 
for this is as simple as it is self-evident: in a Nation that depends 
upon an all-volunteer force for its survival, if you are unable to hold 
the support of our families and fellow citizens, you do not have an 
Army. Families who feel embraced, appreciated, and integrated into the 
Army Reserve are our key enablers. Similarly, the unwavering support of 
employers for Army Reserve Soldiers often determines their ability to 
continue to serve the people of the United States as an American 
Soldier.
    Translated into action, this reality requires a coherent and 
integrated approach whereby a variety of Family Support programs and 
initiatives are leveraged to support Families and sustain a sense of 
community and mutual support in spite of the geographic dispersion of 
our units and Soldiers who are spread around the world. Sustaining 
employer support becomes an even more complex and demanding challenge 
when seen in the context of the Army's appropriate reliance upon the 
Army Reserve to generate the requisite combat power the Nation 
requires. Persistent and persuasive engagement with employers and the 
communities in which they reside, through a variety of outreach tools, 
is the key to reminding American businesses of the essential linkage 
between their patriotism and national security. We cannot, and will 
not, throttle back on this effort. Our U.S. Army Reserve Ambassadors, 
Public-Private Partnership Program and community support initiatives at 
the local level are all critical enablers in this push.
    By way of example, the Army Reserve maintains an around-the-clock 
capability to support our Soldiers and Families. The Fort Family 
Outreach and Support Center at Fort Bragg, North Carolina, provides a 
direct conduit to command and community resources with comprehensive 
and confidential information, assistance, and referrals for every 
aspect of military life. Moreover, the Army Reserve Volunteer Program 
promotes and strengthens volunteerism by uniting community volunteer 
efforts, enhancing volunteer career mobility, and establishing 
volunteer partnerships.
    Our Survivor Outreach Services Program maintains a family's 
connection with the Army family in times of loss, regardless of a 
fallen member's duty status or component. Child and Youth Services 
helps geographically dispersed Soldiers and families find affordable 
childcare and youth supervision options within local communities. Army 
Family Team Building is a readiness training program to educate Army 
Families about military life. These and other Family Readiness programs 
support more than a quarter of a million dependents in America's Army 
Reserve. They are initiatives that have proven themselves 
effectiverepeatedly.
    Our Private Public Partnership (P3) program directly serves to meet 
the demand signal of attracting and retaining talent. Within the P3 
program, America's Army Reserve develops, integrates, and fosters 
relationships between Army Reserve Soldiers and private and public- 
sector organizations. P3 has established an extensive network of 
partners that include not-for- profit and for-profit organizations and 
has helped establish veteran specific employment initiatives through a 
teamwork approach with employers--a win for bothteams.
Suicide Prevention
    In America's Army Reserve, suicide prevention is the shared 
responsibility of commanders, leaders, Soldiers, Family members, and 
Army civilians at all levels and our efforts are a key component to 
personal unit readiness. Ensuring prompt access to quality care is an 
essential component of suicide prevention but we must also reduce risk, 
and one of the greatest risks is stigma. In the Army Reserve, we are 
working to eliminate the stigma associated with seeking help for 
suicidal thoughts or feelings, and are working to provide supportive 
environments for those with emotional and psychological issues.
    The Army Reserve is diligent in raising awareness of the many tools 
and resources available to increase individual resiliency and eliminate 
the incidences of suicide. For example, Military OneSource provides 
free financial counselors for military members facing serious financial 
issues--a key suicide risk factor. The Comprehensive Soldier Fitness 
(CSF) Program helps Soldiers learn resiliency and have the tools to 
grow through demanding experiences. The Army Reserve's Fort Family 
Outreach Support Center (1-866-345-8248) provides assistance for 
Soldiers and Families in need. The Army Reserve is unleashing the power 
of the team to take care of our teammates and eliminate suicides within 
our team.
Sexual Harassment and Assault Prevention
    There is no place for sexual harassment and assault in the Army 
Reserve. America's Army Reserve is a family, a close-knit team. Sexual 
harassment and assault is an attack on our team, and it is not 
tolerated. Just as we would not let anyone hurt our immediate family 
members, we will not let anyone harm a member of our Army Reserve team 
and our unit readiness.
    The leaders at all echelons of the Army Reserve are the shields of 
trust for each Soldier. We must have high levels of mutual trust to get 
after those who would break that bond. As the shields to our team, the 
entirety of the Army Reserve is committed to 1) Protect victims, 
provide compassionate care, protect their rights and privacy, and 
prevent sexual assaults from occurring in the first place; 2) Report 
every allegation, ensure they are thoroughly and professionally 
investigated, and take appropriate action based on the results of those 
investigations; 3) Create a positive command climate and an environment 
of trust and respect in which every person can thrive and achieve their 
full potential; 4) Hold individuals, units, Commanders and leaders 
responsible for their actions or inactions; 5) Fully engage the chain 
of command, and hold it accountable for everything that goes on in the 
unit. America's Army Reserve is fully committed to eradicating 
instances of harassment and sexual assault, caring for the victims, and 
holding those who commit such egregious acts accountable.
                    shape and grow the future force
    Staying current with force structure changes, unit positioning, 
leader development, and leveraging emerging technologies, capabilities 
and opportunities are key aspects of the agility the Army Reserve will 
use to shape and grow the future force. The positioning of force 
structure, units and capabilities is a vital part of developing 
tomorrow's Army Reserve. Building for the future means ensuring that 
America's Army Reserve not only anticipates and flexes to meet new and 
emerging force structure requirements, but that ready units are 
positioned where future Soldiers are living and working in their chosen 
fields. Aligning force structure and unit locations with trending 
demographics will also help overcome perennial recruiting and retention 
challenges.
    Developing agile leaders who can thrive in a full spectrum 
environment, are capable of making hard decisions under stress, and can 
operate in a complex and potentially digitally- disrupted or austere 
environment is a key component of our strategy to shape and grow the 
future force.
    The Army Reserve's deep connection to the private sector is a 
substantial advantage in understanding and exploiting cutting-edge 
technology advances and capabilities, such as those in the cyber 
domain. For example, we are already positioning structure to support 
high tech-focused Department of Defense (DoD) initiatives leveraging 
``digital key terrain'' in select locations in the United States, and 
seizing on further opportunities to draw upon our civilian skills and 
relationships with the private sector to meet critical needs of the 
Army.
    Finally, infrastructure is also a critical component of generating 
readiness. No one installation is ideally suited to providing first-
class training to all formations at all times of the year. Training 
platforms--their location, capabilities, and limitations--must be 
assessed and leveraged in a manner that optimizes their ability to 
provide relevant, combat focused training experiences for Army Reserve 
units, and maximizes their ability to increase the combat- readiness of 
discrete, capable units in the minimum time possible.
Resourcing and Sequestration
    Consistent funding is critical to ensuring that America's Army 
Reserve can meet the needs of the Army and Combatant Commands across 
the range of military options. We are grateful to Congress for the 
recent agreement to increase the discretionary budget caps for fiscal 
years 2018 and 2019. If sequestration budget caps return in fiscal year 
2020, the Army Reserve will incur significant risk in training, 
facility restoration and modernization, and equipping and modernization 
programs vital to winning the Nation's wars. To date, the Army Reserve 
has managed to fund training for critical units.
    Sustaining critical operational capabilities requires consistent, 
adequate, and predictable funding over time. Past budget uncertainty 
and the 2013 sequester have negatively impacted modernization and 
equipping investments. To ensure Army Reserve units are ready when 
called upon, Army Reserve Training Centers that support Home Station 
training requirements must be adequately resourced and properly 
configured to maintain quality facility conditions.
    The velocity of technology change continues to outpace the Army's 
modernization strategy and the resources required to procure and 
sustain the most modern equipment across the entire force. Given Army 
priorities and resources levels, the Army Reserve is at risk striving 
to maintain battlefield commonality. Risk is particularly acute for the 
Army Reserve in Mission Command Systems, to include battle command 
systems, tactical radios, and satellite transport platforms. Moving 
forward, America's Army Reserve will focus its innovation efforts on 
units that must be postured to provide critical early entry and set-
the-theatercapabilities.
    From fiscal year 2015 to fiscal year 2016, the National Guard and 
Reserve Equipment account (NGREA) funding allocated to the Army Reserve 
enabled investments in tactical wheeled vehicles ($164 million), 
engineer equipment ($28 million), simulations ($23 million), and field 
logistics ($21 million). Using fiscal year 2017 NGREA funds, the Army 
Reserve will procure Critical Dual Use (CDU) items, including Logistics 
Automations Systems, Bridge Erection Boats, Power Distribution Systems 
and Scrapers in support of Defense Support of Civil Authorities (DSCA).
        america's army reserve: capable. combat-ready and lethal
    America's Army Reserve is a capable, combat-ready, and lethal team 
providing critical capabilities to Army Service Component Commands and 
all Combatant Commands. Although the threats to America are dynamic and 
increasing every day, your Army Reserve remains a highly effective and 
responsive force for the Nation. As it has since its founding in 1908 
as the Medical Reserve Corps, today's Army Reserve--anchored in 
civilian employment and local communities across the Nation, and highly 
trained and educated in 148 different military career fields--stands 
ready to serve the Nation at home and abroad. America's Army Reserve--a 
force of technically and highly skilled Soldiers, leaders, and units: 
Capable. Combat-Ready. Lethal.

    Senator Shelby. Lieutenant General Miller.
STATEMENT OF LIEUTENANT GENERAL MARYANNE MILLER, CHIEF, 
            AIR FORCE RESERVE, UNITED STATES AIR FORCE
    General Miller. Chairman Shelby, Vice Chairman Durbin, and 
members of the subcommittee.
    I am truly honored to have this opportunity to report to 
you on the state of the Air Force Reserve.
    I am joined today by Chief Master Sergeant Ericka Kelly, 
Command Chief for Air Force Reserve Command.
    On any given moment, on any given day around the world, 
6,500 active citizen airmen, stationed stateside and deployed 
around the world, are supporting our Nation's defense.
    There is no distinction between our Active Guard and our 
Reserve Airmen. They are lethal. They are privileged to defend 
this great Nation. Honored to serve alongside our joint 
partners and allies, and we are ready to make the ultimate 
sacrifice for our county.
    At our core, we are seasoned then to fight and experienced 
in every mission set of our Air Force. Our civilian experience 
is a great asset in all that we do, and we never fail to 
leverage that experience in our military duties, whether it be 
as a pilot, an aircraft maintainer, a security force airmen, 
firefighter, cyber defender, or medical expert.
    We succeed because of the support of this great country, of 
our Congress, this distinguished committee, our employers, and 
most importantly, our treasured airmen and their families.
    Over the past year, we have committed to amplify our 
readiness in accordance with the National Defense Strategy by 
growing Reserve in growth commiserate with the joint force 
demand, expanding our total force recruiting initiatives, and 
increasing our flying hour program. We also remain focused on 
our Weapon Systems Sustainment program to ensure we sustain the 
fight into the future.
    We are recapitalizing vehicles and support equipment, and 
increasing the lethality and survivability of our weapons 
system, all of which rely heavily on the National Guard and 
Reserve Equipment Account Appropriation. Thank you very much 
for the support of this account from this committee.
    During last year's hearing, I spoke about the pilot and 
aircraft maintainer retention challenge. Today, the flight line 
manning of our part-time citizen airmen force remains very 
strong. However, the steady state demand for airline pilots and 
civilian industry aircraft maintainers continues to impact the 
retention of our full time technician force.
    In response to these challenges, we have implemented 
bonuses, incentive pay, and special salary rates for our pilots 
and our maintenance force. Though this approach has positively 
impacted retention, it may not be sufficient for the long term.
    We need to continue to discuss other fulltime support 
options and incentives with your staffs, and we need to garner 
support for these options to improve our manning over time.
    Our Nation's Air Force Reserve is strong. We are a 
resilient force of airmen, civilians, and contractors postured 
to ensure that we preserve our foundational strength. Our 
Nation depends on the daily operational capability and 
strategic depth that we provide. We will continue to sharpen 
our edge and improve our readiness to win any fight at any 
time.
    We are focused on recruiting essential talent and retaining 
critical skills to expand our competitive edge across all 
domains. America's Air Force Reserve continues to treasure and 
strengthen that bond between the citizens of our Nation and the 
airmen who answer the call to defend our freedoms.
    I am honored to represent all of our airmen and their loved 
ones today and I thank this committee for your enduring 
support, and I look forward to your questions.
    [The statement follows:]
        Prepared Statement of Lieutenant General Maryanne Miller
                         strategic environment
    America's Air Force Reserve, an essential and integral component of 
the United States Air Force, faces a more complex and demanding 
environment than we have seen in generations. Great power competition 
has reemerged as the central challenge to U.S. prosperity and security 
and our relative advantage in air and space is eroding.
    As a Major Command growing back to 70,000 Airmen, the Air Force 
Reserve stands ready, as a principle contributor in all Combatant 
Command areas of responsibility, and in response to those who challenge 
U.S. prosperity and security. As a Major Command with Airmen rich in 
combat experience and years of engagement in conflict zones, our 
strength is still our seasoned talent, steeped in experience and 
postured for ready response.
    Aligned and postured with the National Defense Strategy, we are 
building an even more lethal and ready force, strengthening alliances 
and partnerships, and continuing to deliver greater, more affordable 
results across the domains of war. We are tailoring our Command to the 
right size and mix of agile capabilities to compete, deter, and win in 
joint and combined warfare.
                 america's air force reserve in demand
    The Reserve is indispensable day to day in every joint force 
operation, with over 6,500 Airmen serving on full-time orders around 
the world in all core missions of the Air Force. Our first 
responsibility is to integrate seamlessly with unmatched lethality as 
an equal member of the Total Force.
    The Reserve is integral in all five Air Force core missions by 
providing:

  --Air and Space Superiority . . . freedom from attack and freedom to 
        attack. As we continue to build a lethal force, we are 
        emboldened by years of combat experience. The talent of Reserve 
        Citizen Airmen in dominating air and space domains, 
        distinguishes America's Reserve as high threat in any 
        aggressor's risk calculus.
  --Global Strike . . . any target, any time. Over 1,000 Reserve 
        Citizen Airmen and their bombers project nuclear deterrence and 
        strike lethality across the globe as a counter to inter-state 
        strategic competition and terrorism.
  --Rapid Global Mobility . . . delivery on demand. The Reserve's 
        24,000 Airmen contributing to Air Mobility solidifies our Air 
        Force's ability to frustrate the adversaries efforts and 
        preclude their options while expanding our own, selecting the 
        time and place of our choosing as the world's most resilient 
        and agile air mobility force.
  --Intelligence, Surveillance, and Reconnaissance (ISR) . . . global 
        eyes and ears on adversaries. The fiscal year 2018 Reserve 
        focus, in response to the joint warfighter demand, establishes 
        a new ISR Wing, 2 ISR Groups, 14 Intelligence squadrons, and 
        adds 9 intelligence targeteers--supporting all four layers of 
        the National Defense Strategy Global Operating Model.
  --Command and Control . . . right info, right person, right time. 
        America's Air Force Reserve holds a critical role in Total 
        Force command and control, employing three squadrons dedicated 
        to Combatant Command's Air Operation Center's steady state and 
        surge activities--employing the AN/USQ-163 Falconer Air and 
        Space Operations (AOC) Weapons System and directly supporting 
        service and joint staffs. These units ensure both Pacific and 
        Central Commands are postured with command, control, and 
        communications capabilities that project joint force lethality.
      america's reserve aligned with air force strategic direction
    The Air Force Reserve budget request of $5.1 billion for fiscal 
year 2019, builds on the progress made in 2018, to amplify the 
readiness of the force, project lethality, and cost-effectively 
modernize. Sustaining these efforts requires predictable, sufficient, 
and flexible budgets.
    In alignment with our Service and National Defense Strategy, our 
budget prioritizes long-term readiness supporting Air Force Reserve 
contributions in the Pacific and European theaters. Our Reserve focus 
continues to be readiness through theater specific training sets and 
weapon system modernization that addresses increased peer competition 
in today and tomorrow's battle space.
    Associations with our Active Component remain the foundational 
organizational construct of our Air Force Reserve where two thirds of 
all Air Force associations reside. Associations ensure we continue to 
capture seasoned active airmen for continued service, leverage scarce 
resources in organizational efficiencies and improve our lethality 
through shared training and combat experiences. The bottom line is that 
Association models leverage unique strengths of each component to 
capitalize on recruitment, retention and readiness.
                           continuing efforts
    Some elements of this budget continue programs and strategies that 
are underway:
  --Amplify Readiness.--America's Air Force Reserve always trains to 
        the same standards and maintains the same level of readiness as 
        the Active Component. We balance our baseline budget of a 
        Strategic Reserve with the day-to-day operational demands of 
        our force. We are in an age of constant global competition 
        where the Air Force Reserve, while funded as a strategic 
        resource, is essential as a daily operational contributor. We 
        are reviewing opportunities to change the strategic model of 
        ``part time--full time'' Airmen to leverage Reserve operational 
        lethality without breaking strategic readiness.
  --People.--Reserve readiness requires manpower end-strength 
        commensurate with global demand. In fiscal year 2019, we seek 
        an increase of 200 positions, primarily to support Force 
        Protection and Special Operations Intelligence growth areas. As 
        we increase the base of Reserve Citizen Airmen, our personnel 
        programs must adapt as well. As a retention initiative in our 
        critically manned pilot and maintainer community, we will 
        continue to propose a change in law to allow Tricare Reserve 
        Select for our Title 5 Air Reserve Technicians. This effort, 
        along with a rebalance of full-time support across our 
        squadrons, will bolster recruiting and retention in critical 
        skills areas.
  --Nuclear Deterrence.--Central to the projection of Total Force 
        nuclear response, the Reserve is postured in disciplined 
        readiness with B-52 aircrews as a key enterprise contributor. 
        The initiative to develop replacement engines for the B-52 will 
        capitalize on the lethality of this proven aircraft and the 
        seasoned Reserve Citizen Airmen that employ them.
  --Space Superiority.--We have 11 space units in America's Air Force 
        Reserve which align under Air Combat Command and Air Force 
        Space Command--10 Classic Associations and 1 national level 
        association. Our Classic Association partnership supporting the 
        Space Test and Training Range at Schriever Air Force Base 
        ensures readiness of the only range of its kind in the Defense 
        Department. Increased budget proposals led to an overall 
        increase of 55 positions throughout the 26th Space Aggressor 
        Squadron.
  --Multi-Domain Command and Control.--The Air Force budget proposal 
        focused on modernizing seven E-3 Airborne Warning and Control 
        System (AWACS) aircraft will continue to ensure our Airmen in 
        our Classic Association unit stand ready to employ one of the 
        world's most sophisticated Command and Control resources.
  --Air Superiority.--Years of seasoned combat experience are a 
        hallmark of America's Air Force Reserve Citizen Airmen who fly 
        the most sophisticated 5th generation fighters in the world. 
        The Air Force 5-year plan and associated fiscal year 2019 
        budget capitalizes on the Reserve's seasoned experience by 
        directly increasing the overall manpower within our F-35 
        schoolhouse by 72 positions, enhancing electronic warfare, and 
        control of the electromagnetic spectrum across the air 
        superiority enterprise.
                           budget priorities
    Improving Warfighting Readiness.--Readiness is first and foremost 
about having enough trained people. We are recruiting to 343 pilot and 
2,143 maintainer vacancies. To expedite recruitment, we increased pilot 
training selection boards from 2 per year to 6 per year; in 
maintenance, Office of Personnel Management delegated Direct Hiring 
Authority to the Office of the Secretary of Defense to reduce accession 
times.
    As we continue to bolster our lethality, we leverage five major 
levers of readiness; Critical Skills availability, Training Resource 
availability, Weapon System sustainment, Flying Hour Program, and 
Operations and Personnel Tempo. The flexibility in balance between 
levers of readiness gives the business model its strength, as each 
lever is mutually supporting.
    Funding for Weapon System Sustainment in the fiscal year 2019 
budget accounts for 76 percent of the program's baseline. Leveraging of 
Overseas Contingency Operations (OCO) funding increases our program to 
83 percent of our baseline request. The Air Force Reserve seeks a 
stable and predictable budget by reducing reliance on OCO funding and 
increasing our baseline budget.
    The Reserve capacity to execute additional increase in our baseline 
exists with the retention of the A-10, C130H and the KC-135 and 
associated costs in system sustainment of these mature platforms.
    In the Flying Hour Program, we seek a $49.7M increase from fiscal 
year 2018--a total of $739,194,000. This increase ensures sufficient 
funding of higher cost C-17 hours as one of our wings converts from C-
130s to C-17s. It also adds flying hours in support of the buyback of 
two, eventually eight, C-5 aircraft. Additionally, hours are added for 
the fielding of the KC-46 program. The budget increase supports the 
capacity of Reserve resources (aircrew, maintenance, and aircraft) to 
execute the Flying Hour Program.
    Strengthening Alliances.--The Air Force Reserve, in alignment with 
the Total Force, will continue to build on our efforts to assist our 
allies and partners in times of peace and war. The diversity of our 
Reserve Citizen Airmen remains a unique and valuable attribute to 
maturing existing and future partnerships and alliances. America's Air 
Force Reserve hosts one of the nation's top Foreign Military Sales 
training wings led by Citizen Airmen. The wing refines partner and ally 
nation's fighter pilots and maintainers into a robust constellation of 
lethality ready to prevail in conflict and preserve peace through 
strength.
                               conclusion
    The Air Force Reserve will remain an integrated, flexible, and 
lethal force of Airmen indispensable to the fight across the domains 
and across the globe. We continue to build and shape our combat force 
for the future ever focused and always vigilant of the reemergence of 
great power competition. Thank you for your tremendous support of 
America's Air Force Reserve.

    Senator Shelby. Vice Admiral McCollum.
STATEMENT OF VICE ADMIRAL LUKE M. MCCOLLUM, CHIEF, NAVY 
            RESERVE, DEPARTMENT OF THE NAVY
    Admiral McCollum. Good morning, Chairman Shelby, and Vice 
Chairman Durbin, and distinguished members of the subcommittee.
    It is my distinct honor to report on the state of the 
Nation's Navy Reserve.
    As we meet here this morning, we have over 16,000 Reserve 
sailors operating with distinction in support of operations 
here at home and abroad. The part of the 59,000 strong Reserve 
force in the Navy, trained and ready to serve anywhere our 
country asks them to, and are focused on ensuring that our Navy 
is the most lethal in the world.
    Without the unwavering support of their employers, and 
their families, and Congress they would not be the force 
multipliers they are today. And I believe I speak on behalf of 
my colleagues with me that we offer our most sincere thanks.
    Before I go, I would like to take the time to introduce the 
Navy Reserve's newest Force Master Chief, Chris Kotz, sitting 
right behind me. Master Chief, thank you for joining me today.
    The mission of the Navy Reserve is to provide strategic 
depth and to deliver relevant operational capability to rapidly 
increase the agility and lethality of the total Force. To be 
ready to do so, we must maintain our focus on readiness, 
capacity, and ultimately, lethality.
    The primary enablers to achieve this are discretionary RPN 
and NGREA flexible funding. Your continued support in ensuring 
these accounts remains robust, consistent, and predictable is 
critical to maintaining our force readiness.
    Additionally, I cannot stress enough, and you already 
mentioned this, sir, the importance of fiscal year 2019 
appropriations commencing on time. And like the active 
component, the shutdowns have an immediate impact to the 
Reserve Force. And just the shutdown alone in January, reduced 
the medical readiness of the entire Force by 8 percent.
    One of our top priorities is recapitalizing the aging Navy 
Reserve equipment, which is critical to ensure the highest 
levels of readiness and interoperability.
    As one example, before an aircraft carrier strike group is 
certified for deployment, the Navy Reserve plays an integral 
role in providing adversary support using the Reserve F/A-18 
alphas to train active duty fighter squadrons. However, these 
aircraft represent the oldest planes in naval aviation. And 
while they do provide critical service, there still exists 
potential interoperability gaps between the Reserve and Active 
components.
    The recently signed 2018 appropriation was instrumental in 
addressing the immediate needs and getting the C-130 fleet 
airborne. And it also begins to address the longer term 
recapitalization need.
    The KC-130 Juliet procurement, the replacement of the 24 
aging C-130's is scheduled to begin in fiscal year 2023 with 
three aircraft. And your continued support of this program will 
ensure the Navy Reserve's ability to fulfill our fleet 
essential airlift requirement.
    As it relates to the Maritime Patrol and Reconnaissance 
mission, the Navy continues to review requirements for aircraft 
as they fully transition from P3's. Included in this review is 
how the Navy Reserve will continue to support this mission with 
its aging P3 fleet. Without recapitalization, the squadrons in 
Whidbey Island, Washington and Jacksonville, Florida will 
decommission in 2023.
    In closing, I could not be prouder of our Navy Reserve 
Force. Every time I set foot in one of our operational support 
centers, aviation squadrons, or visit our sailors around the 
globe, I come away inspired and encouraged, as you might 
imagine. Their motivation and morale is high.
    Our dedicated Navy Reserve war fighters take great pride in 
continuing to serve and the unique civilian skills and 
innovative mindset they bring to the war fighter are priceless 
assets that increase the war fighting lethality within the 
total Force.
    On behalf of the Navy and the Navy Reserve, I thank the 
members of the committee for your support, and I look forward 
to answering your questions.
    [The statement follows:]
          Prepared Statement of Vice Admiral Luke M. McCollum
    Chairman Shelby, Vice Chairman Durbin, and distinguished Members of 
the Subcommittee, as Chief of Navy Reserve it is my distinct honor to 
report to you on the state of the United States Navy Reserve and to 
discuss our fiscal year 2019 budget request.
    The value of the Nation's investments in the Navy Reserve cannot be 
overstated. Our force is comprised of 59,000 citizen sailors from every 
State and territory. Historically comprising less than 2 percent of the 
Navy's total annual budget, Navy Reserve Sailors have mobilized over 
81,000 times to every theater of operation since 2001, including 2,961 
personnel in fiscal year 2017. On any given day, 20 percent of the 
Reserve force is operating, delivering critical support to our forces 
around the globe. As a perpetually-ready surge capability, 
operationally integrated with the total force, your Navy Reserve 
continues to deliver scalable lethality in defense of our Nation. On 
behalf of Navy reservists and their families, I would like to extend my 
sincere gratitude for your continued support. The work of the defense 
committees makes this capability possible.
                            force structure
    Today's force structure is the result of Navy's imperative to 
optimize the interoperability and operational effectiveness of the Navy 
Reserve. Due to Active/Reserve integration efforts over the past 15 
years, Reserve Sailors train and work alongside Active Component (AC) 
counterparts and units. Integrated partners in the Navy total force, 
Reserve Sailors provide a rapid response to calls for support, often on 
short notice. Additionally, Reserve Component (RC) hardware units, 
aligned and integrated with AC unit training and deployment cycles, are 
force multipliers through mission augmentation that provide surge 
capacity to Combatant Commands worldwide.
    Commander, Navy Reserve Forces Command operates six regional 
headquarters and 123 Navy Operational Support Centers (NOSCs), located 
in all 50 States, Puerto Rico, and Guam. NOSCs collectively serve as 
drilling locations and provide administrative support to over 1,400 RC 
units. NOSCs reside on and off DoD installations, a mix of stand-alone 
facilities, Navy-Marine Corps Reserve Centers, and joint Armed Forces 
Reserve Centers.
    Commander, Naval Air Forces Reserve comprises three air wings, two 
Joint Reserve Bases and one Naval Air Facility. Fleet Logistics Support 
Wing and Tactical Support Wing reside at Naval Air Station-Joint 
Reserve Base Fort Worth, TX, while Maritime Support Wing is 
headquartered at Naval Air Station North Island, CA. Naval Air Forces 
Reserve Joint Reserve Bases are in Fort Worth, TX, New Orleans, LA, and 
the Naval Air Facility is in Washington, D.C. In addition to these 
standalone commands, the Navy Reserve operates multiple Squadron 
Augment Units which directly support various AC Navy squadrons around 
the country. Navy Reserve owns and flies approximately 150 aircraft 
supporting the Navy total force.
    Commander, Naval Information Force Reserve, Ft. Worth, TX, is 
executive agent for nine of 28 multi-service Joint Reserve Intelligence 
Centers (JRICs) located throughout the country. These facilities 
provide fully capable intelligence and cyber warfare centers enabling 
wartime readiness through training and operations, and real-time 
intelligence support to Combatant Commands, Combat Support Agencies, 
the intelligence community, and Navy fleets.
                           current operations
    In 2017, Navy Reserve continued its century-long tradition of 
supporting Navy, Marine Corps and Joint Operations, contributing to 
overseas contingency operations in every Area of Responsibility, 
increasing the collective lethality of our total force. Navy Reserve 
offers a unique response capability and range of options to Combatant 
Commander requirements--from mobilization of an entire unit to 
activation of a single Individual Augmentee Sailor. This model delivers 
increased flexibility, with both operational capacity and strategic 
depth for the total force, in a dynamic global security environment.
    In mid-January, over 3,000 Navy Reservists were mobilized, 1,076 
were preparing to mobilize, and 188 were de-mobilizing. These sailors 
support Combatant Commands around the globe, and individual 
mobilizations add to the broad and diverse operational support missions 
Navy Reserve executes on a daily basis, including Expeditionary 
Warfare, Naval Air Warfare, Fleet Air Logistics, Cyber Warfare, 
Unmanned Aerial Vehicles, and Shipyard Maintenance. One example is Navy 
Expeditionary Combat Command, 50 percent of which is composed of 
Reserve Component Sailors.
                               readiness
    Navy Reserve's #1 guiding principle is warfighting. We are a ready 
and lethal military force, maximizing value to the Nation by 
modernizing the way we do business. We work hard to efficiently and 
effectively support the Active Component, while making optimal use of 
talented Reserve Sailors to increase total force capability. We develop 
Sailors who are ``Ready to Win''. This concept accelerates the impact 
of Navy Reserve's mission in the new competitive global environment, 
through four key focus areas:
  --Resourcing the manning, training, and equipment that delivers Navy 
        Reserve capabilities to the fleet;
  --Leveraging Reserve Sailors' civilian skills and partnerships with 
        industry and academia;
  --Enabling Sailors to more effectively provide warfighting 
        capabilities through innovative application of technology and 
        supportive policies; and,
  --Simplifying the way Reserve Sailors support the fleet.
                                resource
Fiscal Predictability
    Predictable and dependable funding ensures that Navy Reserve 
Sailors are able to provide consistent and timely operational support 
to the Total Force. Discretionary Reserve Personnel, Navy (RPN) funding 
is the primary fiscal means by which the Navy Reserve provides this 
support. Current RPN funding level supports 31 percent of Combatant 
Commander operational demand. Your continued support to ensure robust, 
consistent, and predictable RPN funding is the most important enabler 
for maintaining readiness and Navy Reserve mission accomplishment.
Equipping the Force
    The Navy Reserve provides additional capacity and lethality to the 
total force. To maximize this capability, aircraft recapitalization is 
without question Navy Reserve's number one equipment priority--
critically important to supporting the warfighter. Almost 16 years of 
increased operational tempo within a constrained procurement 
environment has taken its toll on the aircraft and equipment that RC 
sailors operate. Navy Reserve's integrated force structure depends on 
the ability to quickly and seamlessly assimilate with active units to 
execute the mission. Accordingly, Navy Reserve depends on the 
availability of modern, compatible hardware to support the AC fleet.
    The Navy Reserve air logistics component, made up entirely of RC 
sailors, fulfills the Navy's requirement for Navy Unique Fleet 
Essential Airlift capability. Operating C-40A and C-130T aircraft, Navy 
Reserve executes 100 percent of the Navy's organic air logistics 
support mission providing responsive, flexible, and rapidly deployable 
air logistics support required to sustain combat operations at sea. We 
appreciate this committee's support, which permitted Navy Reserve to 
purchase two additional C-40A aircraft which, once delivered to Kaneohe 
Bay, HI, will fulfill the risk-adjusted wartime inventory requirement 
of 17 aircraft. Meanwhile, our C-130T aircraft average age is 23 years, 
and maintenance issues heavily impact their reliability. Since the C-
130T propeller grounding bulletin was issued by Naval Air Systems 
Command in September of last year, the Navy Reserve C-130T fleet has 
been grounded until critical maintenance is completed. This event has 
degraded Navy's organic lift capability, further highlighting the value 
to the total force. Accordingly, Navy has committed to recapitalizing 
these assets with KC-130Js, an exceptional and proven system, already 
operating in DoD, which ensures the foreseeable security and capability 
of Navy Air Logistics. There are currently three such aircraft 
programed into the President's 2019 budget with procurement set to 
begin in fiscal year 2023. Finally, to address the short and medium 
term impacts of the C-130 grounding, the Navy Reserve is replacing the 
legacy propeller system with an upgraded system currently in use on 
Navy E-2 Hawkeyes. This proven system has also flown for over 5 years 
on Air Force C-130s, ensuring continued safety and viability of our 
legacy C-130T fleet until KC-130J recapitalization is complete.
    The Navy is addressing much needed RC strike-fighter aircraft 
recapitalization requirements. The 31 F-18A+ legacy Hornets assigned to 
Navy Reserve squadrons include some of the oldest in operation, and are 
unable to deploy. Significant maintenance issues limit aircraft 
availability as these squadrons struggle to meet their operational 
mission, while system compatibility limitations hamper fulfillment of 
their strategic reserve role. In the near term, Navy plans to 
recapitalize RC F/A-18A+ aircraft with F/A-18C/Ds from the active duty 
fleet. When the AC completes the transition from legacy Hornets to 
Super Hornets and begins transitioning squadrons to the Joint Strike 
Fighter, an eventual transition of RC Hornets to later generation 
strike fighters will be possible. This recapitalization is directly 
linked to improved depot throughput and timely AC recapitalization 
through procurement of advanced strike aircraft. The additional 10 F/A-
18s included in the fiscal year 2018 budget and 24 in the fiscal year 
2019 budget request help increase the pace of this program and 
continued attention will help improve Navy Reserve's timeline for 
recapitalization.
    Navy's surge capacity within the Maritime Patrol and Reconnaissance 
Force consists of two RC patrol squadrons operating legacy P-3C Orion 
aircraft. These squadrons comprise 13 percent of Navy's current 
Intelligence, Surveillance and Reconnaissance capacity and provide 
Combatant Commanders with a vital asset. Previous fiscal constraints 
have prevented transition to P-8A aircraft for the Navy Reserve 
resulting in the shutdown of the two Reserve squadrons in Whidbey 
Island, Washington, and Jacksonville, Florida in 2023.
    The overall health of the nine Navy-hosted JRICs is second to none. 
Each year, the Joint Reserve Intelligence Program recognizes one of the 
Service's JRICs that best demonstrates the core values of the program: 
promoting Jointness, providing flexible access to allow tenants to meet 
mission needs, and providing first class facilities and staff support. 
Since 2002, Navy JRICs have won the award nine times, with JRIC 
Minneapolis, MN wining in 2017. Although Navy hosts less than a third 
of all JRICs (9 of 28), they have won 60 percent of these annual 
awards.
    JRIC Norfolk, VA is currently undergoing a multiyear, $10 million 
renovation to bring this aging facility up to current day operational 
standards. In New Orleans, LA, we are executing Military Construction 
to build a new JRIC, repurposing an existing building, to build a state 
of the art intelligence facility. In Denver, CO and Jacksonville, FL 
the JRIC server rooms are under renovation, correcting deficiencies and 
increasing operational capabilities. Across all JRICs, plans are 
underway to modernize our security systems and networks protecting our 
facilities, providing secure classified facilities for Reservists 
throughout the country.
                                leverage
Civilian Skills
    Many skills possessed by Reserve Sailors add invaluable expertise 
and capability to the total force. In some cases, RC Sailors' civilian 
skills have provided unique capabilities in critical mission areas not 
specifically cultivated in the AC. Conversely, the military training 
and professional development provided to Reservists make them more 
capable leaders in their civilian communities. Citizens who serve in 
the Navy Reserve strengthen the bond with the American public, while 
educating families, employers, and communities about military service. 
Whether a tradesman, first responder, executive, or licensed 
professional, Navy has long benefitted from the civilian experience and 
maturity of RC sailors. Most recently, Navy has called to serve Digital 
Warfare experts, Advanced IT Programmers, and Additive Manufacturing 
Experts, because of their specialized capabilities across critical 
mission areas.
    Having a pool of ready civilian professionals across numerous 
mission areas is an invaluable strategic capability that only a Reserve 
force can provide. Going forward, the Navy Reserve is reevaluating and 
improving processes in order to more completely capture and leverage 
these abilities. This unique combination of civilian and military 
experience and skills offers diversity of thought and insight, which 
inspires innovation and acts as a force multiplier. There is no 
question that, on a daily basis, specific civilian skills are being 
utilized across the total force.
                                 enable
Transformation
    Navy's Manpower Personnel Training and Education (MPT&E) Enterprise 
is undergoing a holistic, end-to-end, transformation of business 
processes and information technology systems. MPT&E Transformation is 
built around four fundamental pillars: Overhaul Processes, Modernize 
Information Technology Systems, Develop a Single Source of Data Truth 
and Comprehensive Analytics, and Create World Class Sailor Self 
Service. Together these pillars will improve personnel customer 
service, data and data reporting accuracy, auditability, and 
permeability between the active and reserve components.
    Two information technology systems will work together to provide 
necessary processing, data retention and reporting: The Navy Personnel 
and Pay system and the Authoritative Data Environment. Navy MPT&E is 
also shifting to a centralized, and standardized, customer service 
model, which will ensure data input is faster and more accurate, while 
providing greater access to the metrics necessary for performance 
monitoring and improvement. Standup of the My Navy Call Center will 
include a dedicated Shared Service Center Reserve Branch, in which 
Reserve active duty personnel/pay transactions will be centralized. 
Combined, these efforts will improve and simplify Navy's support to our 
Reservists, thereby enhancing Reserve support to the total force.
Mobile Technology
    Every Reserve Sailor's time must be focused, to the greatest 
possible extent, on the mission and not on administrative overhead. As 
such, mobile access to the myriad of Navy IT systems is a key enabler 
for Navy Reserve Sailors to maintain mobilization readiness and perform 
their mission requirements. In conjunction with Navy's MPT&E 
Transformation and Sailor 2025, the Navy Reserve is both consolidating 
and modernizing the various systems that enable and manage readiness, 
while improving access to those systems. Navy Reserve has taken a full-
spectrum approach and has partnered with industry to produce creative 
and advanced IT solutions, such as allowing Sailors to conduct business 
using a mobile application that grants access to various Navy IT 
systems, a cloud-based pilot to provide Sailors 24/7 access to office 
productivity and collaborative tools, and expanded Navy NOSC Wi-Fi 
capabilities to maximize use of personal devices during drill weekends. 
Collectively, these solutions reduce the time and effort required to 
meet readiness and training requirements.
Employers
    Our Nation's Reserve forces rely heavily on the sacrifice and 
dedication of local employers in each member's home State to support 
the Nation's hundreds of thousands of Reservists. Many companies 
provide flexible work options for both drilling and deploying RC 
service members. Some companies go above and beyond that which is 
required by law, and continue to support RC members with pay and 
benefits while activated, to reduce any potential pay gap during 
Reserve activation. For both large and small companies, this sacrifice 
can be considerable. Most importantly, supportive employers send a 
clear message to RC members that they need not worry about their 
civilian jobs when called to serve. The value of this simple message 
cannot be overstated--an employer's level of cooperation, support, and 
encouragement is directly related to the productivity and mission focus 
of RC members when they put on the uniform, and ensures that Reserve 
service remains a viable option for their employees. Employer support 
remains a vital component of the success of the entire RC, and Navy 
Reserve goes to great lengths to recognize supportive employers each 
year through various programs and initiatives.
                                families
    Not only do our Reservists' employers enable our total force, they 
support the families of those Sailors who also bear a great burden. 
Through our robust suicide prevention and resilience programs, such as 
the Returning Warrior Workshop, Psychological Health Outreach Program, 
the Yellow Ribbon Reintegration Program, Operational Stress Control, 
and Navigating Stress for Families, the Navy Reserve strives to 
minimize stressful impacts on families, during and following 
mobilization.
    In spite of all the world-wide pressures we face every day, our 
Reserve citizen sailors have become incredible managers across three 
paradigms--military service, civilian employment, and family stability. 
Please allow me to brag about a few of these great servant leaders. One 
Petty Officer from Allentown, PA is a Reserve crew chief, serving over 
100 days a year in locations around the globe. She also works for a 
print media company in her hometown, all the while, raising 2 young 
adults. One Reserve Commander from San Diego, CA has command of a three 
plane Reserve squadron while growing a restaurant franchise and raising 
a family of five. In addition, in 2015 he volunteered as an Individual 
Augmentee to the Middle East. Bottom line, the sacrifices our citizen 
sailors make are nothing less than astounding.
                                simplify
Duty Status Reform
    Currently there are dozens of statutory authorities used when 
activating RC personnel. RC Duty Status Reform is complex and often 
confusing; as such, multiple studies have been initiated beginning as 
early as 1999. DoD has developed a proposal to reform the current RC 
duty status construct, and has begun working on draft legislation due 
to Congress in April 2019, pursuant to Section 513 of the National 
Defense Authorization Act for fiscal year 2018 (Public Law 115-91).
Access
    Navy has become increasingly reliant on regular and reliable access 
to the RC since September 11, 2001. Under the Presidential Declaration 
of National Emergency, the Services and Combatant Commanders have 
relied on involuntary mobilizations under title 10, United States Code, 
section 12302. However, when National Emergency declaration lapses, RC 
access would be limited to service performed pursuant section 12304b, 
which provides involuntary access only for pre-planned missions of 
units supporting Combatant Commander requirements. In addition, there 
are differences in benefits the Department provides to Reservists 
depending on the mobilization authority under which a member has been 
activated.
                               conclusion
    America's Navy Reserve stands ready. Our proud citizen Sailors 
continue to carry on the tradition of supporting the Navy, Marine Corps 
and joint force wherever, and whenever, called to serve. The Navy 
Reserve will continue to ensure our warfighters have the tools needed 
to effectively and efficiently accomplish the mission. Through stable 
and predictable RPN funding and through recapitalizing our aging 
aircraft we will increase the overall readiness and become a more 
lethal warfighting force. I look forward to working with you and I 
thank you for your continued support.

    Senator Shelby. Lieutenant General McMillian.
STATEMENT OF LIEUTENANT GENERAL REX C. MCMILLIAN, 
            COMMANDER, MARINE CORPS FORCES RESERVE, 
            COMMANDER, MARINE FORCES NORTH
    General McMillian. Chairman Shelby, Vice Chairman Durbin, 
and distinguished members of the subcommittee.
    Thank you for the opportunity to appear before you today to 
testify on behalf of the Commandant of the Marine Corps about 
your Marine Corps Reserve.
    I am honored to be here with my fellow Reserve component 
service chiefs. Also with me today, is my Force Sergeant Major 
Scott Grade and my Force Command Master Chief Ryan Strack.
    I have been at the helm of Marine Forces Reserve for two 
and a half years, and I am pleased to inform you that your 
Marine Corps Reserve is thriving.
    Morale remains high, as evident by the Reserve component 
end strength climbing to 99 percent of our total requirement. 
Our reenlistment rate increased over 25 percent during the past 
3 years, all while the demand for Reserve support to combat 
commanders' requirements continue to rise.
    The responsibility that we carry in Marine Forces Reserve 
is to be able to respond tonight and on a moment's notice with 
fully manned, trained, equipped, and superbly led compatible 
units that can instantly and seamlessly plug-in to active 
component formations.
    The critical capabilities provided by the Marine Forces 
Reserve to the total Force increase the lethality of the Corps 
and contributes to the competitive advantage maintained over 
our adversaries.
    At any given time, Marine Forces Reserve stands ready to 
provide a brigade sized element of Reserve Marines and sailors, 
fully trained for combat operations, ready to move, shoot, and 
communicate across the battlefield. And to support the active 
component in order to form a total force fight tonight 
capability, while the remainder of our force remains poised to 
augment and reinforce, given appropriate amounts of pre-
deployment training based upon their wartime mission 
assignments.
    I would like to leave this distinguished body with two 
thoughts on how continued support from Congress can result in a 
more lethal Reserve force.
    Number one, Reserve Marines have 38 training days per year 
and every scheduled event is preparation for combat. Missed 
training opportunities are often unrecoverable in terms of 
personnel, materiel, and training readiness while morale and 
retention of the force suffers.
    During the shutdown on January 20, almost 8,000 personnel 
across 62 units had their drill weekend canceled or reduced, 
resulting in lost training opportunities.
    I cannot afford to lose one minute of training for our 
Nation's most precious assets, our young volunteer men and 
women that make up your Marine Corps Reserve.
    Therefore, I cannot overemphasize how a lapse of 
appropriations negatively impacts readiness across the Reserve 
force, and I thank you in advance for your continued support 
through timely appropriations.
    Number two, the Marine Corps Reserve benefits from the 
annual National Guard and Reserve Equipment Appropriation. I 
want to extend my gratitude for your continued support of NGREA 
and would appreciate greater spending flexibility within this 
appropriation in order to procure critical shortfall items and 
modernize equipment systems.
    I appreciate the opportunity to be here today and I look 
forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Rex C. McMillian
    Chairman Cochran, Ranking Member Durbin and distinguished members 
of the Subcommittee, it is my privilege to appear before you and 
provide an overview on the current state of the Marine Corps Reserve.
    As the Assistant Commandant of the Marine Corps testified, fiscal 
instability, resulting from persistent Continuing Resolutions and 
looming and actual government shutdowns, produce the most significant 
risk to our readiness. Reserve Marines have 38 training days per year 
(24 inactive duty days and 14 annual training days). Missed training 
opportunities are often unrecoverable in terms of personnel, material, 
and training readiness, while morale and retention of the force 
suffers. During the orderly shutdown on January 20, 2018, two to three 
training days were lost. Some units had multi-day or week-long 
exercises which were cancelled or cut short. Ultimately, 7,793 
personnel across 62 units (20 percent of Marine Forces Reserve) had 
their readiness impacted due to their drill weekend being cancelled or 
reduced, resulting in lost training opportunities.
    Although these lost opportunities negatively impact the Reserve 
Component's ability to serve side-by-side with their Active Component 
counterparts, your Marine Corps Reserve has been fully engaged across 
the globe over the past 16+ years of combat operations--serving as an 
essential shock absorber and force multiplier. Our focus remains on 
maintaining the ability to provide manned, trained, equipped, and well-
led forces capable of augmenting, reinforcing, and supporting the 
Active Component. With your continued support, it will further 
strengthen our readiness and ensure we remain ready to fight and win 
across the range of military operations and in all warfighting domains.
A Total Force
    The United States Marine Corps remains the Nation's forward 
deployed, agile, Expeditionary Force in Readiness. As the Commandant of 
the Marine Corps previously stated, we are one Marine Corps--a Total 
Force Marine Corps. For approximately 8 percent of the Department of 
Defense (DoD) budget, your Corps provides the American people with an 
exceptionally capable, extremely affordable, immediately responsive, 
and lethal national security force. As an integral part of the Total 
Force, the Marine Corps Reserve plays a key role in providing that 
national security force.
    The critical capabilities provided by the Marine Corps Reserve to 
the Total Force increases the lethality of the Corps and contributes to 
the competitive advantage maintained over our adversaries. Over the 
past year, the Marine Corps Reserve supported combatant commanders by 
providing forces focused on combat operations, crisis prevention, 
crisis response, and theater security cooperation. Global deployments, 
along with participation in Service, Joint, and multi- national 
exercises, develop the depth of experience of the Reserve Force, 
ensuring the Marine Corps Reserve is relevant, ready, and responsive to 
meet combatant commanders' requirements for highly trained general-
purpose forces.
    In 2017, more than 810 Reserve Marines mobilized supporting 28 
operational requirements in five of the six geographic combatant 
commands. Likewise, nearly 10,940 Reservists participated in 96 
training exercises, supporting requirements in 43 countries across the 
globe. These activations included support to U.S. Northern Command 
during Hurricane Harvey, Irma and Maria. Utilizing 12304a activation 
authority, Marine Forces Reserve provided the rapid deployment of 745 
Marines for recovery efforts. Additionally, 196 Reserve Marines 
volunteered to serve as individual augmentees, providing support to 
combatant commanders and Service staffs. Marine Forces Reserve filled 
40 percent of the total Marine Force individual augment requirements 
and increased its deployment by 50 percent in the last 2 years. This 
high quality and quantity of opportunities persist in the current year, 
as the demand remains high for your Marine Corps Reserve--for 
perspective, the Marine Corps deployed eight Reserve formations in 
2001, compared to 140 Reserve formations in 2017.
    In 2018, Marine Forces Reserve will continue to support the 
combatant commanders by mobilizing in excess of 2,500 Reservists and 
almost 12,000 Marines for a multitude of theater-specific exercises and 
security cooperation events. These operations and exercises greatly 
increase the Reserve Component's interoperability with the Active 
Component, Joint Forces, and our allies.
    The demand for the Marine Corps' unique capabilities has increased, 
requiring more Reserve Component activations of units and ad hoc 
formations to produce enabling capabilities across the range of 
military operations. For example, Marine Forces Reserve increased the 
participation of Marines filling the emerging security force and 
advisory requirements in southwest Afghanistan. In addition, for the 
third year in a row, we have mobilized and will deploy a task- 
organized Special Purpose Marine Air-Ground Task Force to U.S. Southern 
Command in support of theater security cooperation objectives. 
Activations of whole units followed the increase of ad hoc formations. 
Reconnaissance and amphibious assault vehicle platoons activated for 
support to III Marine Expeditionary Force's requirements in Okinawa, 
Japan. Later this year, we will activate 2ND Battalion, 23D Marines 
which will also deploy to Okinawa.
    Marine Forces Reserve continues to provide daily support to 
combatant commanders in a wide range of roles that include multi-
lateral exercises, such as Saber Strike 18 in Latvia, Gulch Freedom 
Guardian 18 in South Korea, and Maple Resolve 18 in Canada. I 
anticipate Marine Forces Reserve will continue to deploy and integrate 
with the Active Component to meet combatant commander high-priority 
requirements through the use of existing mobilization authorities.
    In addition to participating in operational requirements across the 
globe, Marine Forces Reserve supports the Total Force by dutifully 
executing the sensitive and crucial mission of providing casualty 
assistance to the families of our fallen Marines. There is no 
responsibility that we treat with higher regard than the solemn mission 
of providing casualty assistance. Inspector- Instructor and Reserve 
Site Support Staffs are geographically positioned to accomplish the 
vast majority of Marine Corps casualty assistance calls and are trained 
to provide compassionate and thorough assistance to families. Indeed, 
the majority of Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin are made by our Marines. During 
Calendar Year (CY) 2017, our Inspector-Instructor and Reserve Site 
Support staffs performed 80 percent of the 193 casualty calls performed 
by the Marine Corps.
    The professionalism and compassion of our Casualty Assistance Calls 
Officers (Cacaos) continues well beyond the initial notification. We 
ensure that our Cacaos are well trained, equipped, and supported by all 
levels of command through the combination of in-person and online 
training. Once assigned, the CACO serves as the family's central point 
of contact and coordinates with funeral homes, government agencies, and 
other organizations. They assist family members with planning the 
return and final resting place of their Marine; and ensure the filing 
of appropriate documents is completed so that the family receives all 
benefits to which they are entitled. In many cases, our Cacaos provide 
a long-lasting bridge between the Marine Corps and the grieving family.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector-Instructor and Reserve Site Support staffs, with augmentation 
from additional Reserve Marines, performed more than 20,000 military 
funeral honors, which represented 93 percent of all funeral honors 
rendered by the Marine Corps during CY 2017. As with casualty 
assistance, we place enormous emphasis on providing timely, 
compassionate, and professionally executed military funeral honors, 
although this comes with a cost to readiness--as some Marine Reserve 
units are executing in excess of 250 funerals per year, impacting their 
ability to maintain or increase readiness.
    Finally, Marine Forces Reserve serves as the most wide reaching 
link between the Marine Corps and communities across the Nation. We are 
the face of the Marine Corps to the majority of the American public. 
With Reserve units located across the country, Marine Forces Reserve is 
uniquely positioned to interact with the public and communicate the 
Marine Corps story to our fellow citizens; most of whom have little or 
no contact with the Marine Corps. For example, last year Marine Forces 
Reserve personnel and units conducted more than 500 local and regional 
public engagement and community relations events across the country.
Predictability
    Our Force Generation Model provides a level of predictability for 
force planners and our Reserve Marines, while maintaining the ``train 
as we fight'' philosophy. The Model provides our Reservists, their 
families, and their employers the ability to plan for upcoming duty 
requirements 5 years and beyond. This empowers service members to 
achieve the critical balance between family, civilian careers, and 
service to our Nation while enabling informed employers to plan for and 
manage the temporary absence of valued employees.
    We ensure units and personnel are ready to meet any challenge by 
employing a Force Generation Model that rotates Marine Reserve units 
through a 5-year Training and Readiness Plan. At any given time, the 
Force Generation Model enables the Reserves to provide combat ready 
units and detachments based on major contingency operation plans and 
the Corps' Force Management Plan. This ready bench includes Air Naval 
Gunfire Liaison Companies, Civil Affairs Groups, large-scale logistical 
augmentation, four infantry battalions, artillery and aviation 
capabilities, as well other critical enabler. In total, more than 4,000 
Reserve Marines and Sailors are prepared to augment and reinforce 
Active Component forces rapidly in support of a contingency response or 
as part of a theater security cooperation mission.
    The key element in the Force Generation Model is the consistent 
integration of Reserve units, detachments, and individuals into 
Service, Joint and multi-lateral exercises, thereby building increasing 
interoperability over the plan's 5-year cycle. Generally, units are 
assessed through a culminating Integrated Training Exercise (ITX) 
during the fourth year of the training cycle. Seamless integration with 
the Active Component in training exercises is conducted in the United 
States and abroad; this training facilitates the Active and Reserve 
Components interoperability, thus achieving success with the Total 
Force Marine Corps.
Personnel
    Marines, Sailors and our civilian Marines are the foundation of all 
that we do. The resources we dedicate to sustaining and developing this 
foundation directly contribute to the success of our institution. The 
vast majority of the Marine Corps Selected Reserve's authorized end 
strength of 38,500 fall under Marine Forces Reserve. The Selected 
Reserve is composed of Marines in four categories: Selected Marine 
Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees, and service members in initial training. Embedded with 
these Marines are 1,800 Active and Reserve component Sailors who serve 
critical roles in the operational, medical, dental, and spiritual 
readiness of our Reserve Force. The success of Marine Forces Reserve 
would not be possible without continued support from the U.S. Navy.
    In addition to the Marines and Sailors of the Selected Reserve, 
Marine Forces Reserve administratively controls approximately 65,000 
Marines who serve in the Individual Ready Reserve (IRR). Marine Forces 
Reserve continues to monitor the mobilization viability of these 
Marines who have fulfilled their active service commitment and returned 
to civilian life. The mobilization potential of the IRR is monitored 
through the use of muster events that are conducted at multiple 
locations across the country. These muster events are the Marine Corps' 
opportunity to physically inspect these Marines to ensure they meet the 
requirements for mobilization. These events also provide the 
opportunity to address administrative issues, complete mental health 
and post-deployment assessments, review Reserve obligations and new 
opportunities, meet with prior service recruiters, and reconnect with 
fellow Marines. During the past year, Marine Forces Reserve conducted 
33 physical muster events with 4,770 IRR Marines. An additional 48,000 
members of the IRR were contacted and screened telephonically.
    The Marine Corps Reserve strives to retain the very best Marines 
capable of fulfilling our leadership and operational needs. The option 
of continued service in the Reserve Component has become increasingly 
appealing to young Marines leaving active duty. Marines approaching the 
end of their current contracts, whether Active or Reserve Component, 
receive counseling on the tangible and intangible benefits of remaining 
associated with the Selected Reserve. We educate each transitioning 
Active Component Marine on opportunities for continued service in the 
Marine Corps Reserve through the Marine Corps' transition assistance 
and educational outreach programs.
    We have concentrated on improving our personnel administration and 
retention programs, with the result being record high personnel 
readiness levels. Throughout the past year, our Marines have worked 
hard to initiate enhancements to our administrative processes and 
standard operating procedures. Additionally, we are improving the 
timeliness and accuracy of Reserve pay and entitlement disbursement 
through consolidated of administration at the battalion, squadron, and 
group levels.
    Recruiting and retaining high quality Marines remains essential to 
the Marine Corps' reputation as the Nation's Force in Readiness. Marine 
Forces Reserve enjoys high affiliation and retention rates enhanced 
through incentive programs, such as occupational specialty retraining, 
inactive duty travel reimbursement, and bonus payments. These programs 
remain essential to ensure we continue to meet authorized end strength 
and retain our most talented Marines. Your continued support to these 
critical programs has helped maintain our overall personnel end 
strength to 99 percent of the total requirement, with a grade and 
Military Occupational Specialty match rate of 85 percent. This high 
rate of personnel readiness is not only reflective of the health of the 
force, but directly contributes to our overall operational readiness. 
While we fully expect to meet our Selected Marine Corps Reserve 
retention and recruiting goals again this year, continued use of these 
incentive programs are critical to optimally align our inventory 
against our requirements, maintain individual and unit-level readiness, 
address shortfalls in staff non-commissioned officers, and fully 
rebuild readiness from previous force structure changes. Your continued 
support for incentives that promote service in our Reserve Force will 
ensure our ability to recruit and retain the very best service members.
Equipment
    Reserve Component units remain highly interoperable with their 
Active Component counterparts due to the Marine Corps' Total Force 
approach to equipment fielding and management. Active and Reserve 
Component Forces are manned, trained and equipped to the same 
standards, facilitating the seamless employment of Reserve Component 
Forces to meet combatant commander requirements. Marine Forces Reserve 
mission essential equipment readiness levels are sufficient and capable 
of supporting all home station training requirements, as well as 
current operational deployments, with the exception of several select 
aviation units.
    In the Reserve Component, personnel resources to identify and 
conduct maintenance are limited to the small full-time support staffs 
at each Reserve Training Center. These staffs are augmented by Reserve 
Marines during the monthly drill and two week annual training periods. 
Focusing these limited resources on the combat essential readiness 
reportable items constrains routine preventative and corrective 
maintenance on the remainder of equipment. Recent modernizations, 
coupled with the increase in equipment density and complexity, have 
compounded this challenge.
    For many years, Marine Forces Reserve has mitigated risk to 
maintenance readiness in two ways. First, by continually refining the 
Training Allowance, which is the portion of the unit's full Table of 
Equipment kept on-hand at the Reserve Training Center. Our goal is to 
balance the minimum amount of equipment necessary to effectively 
conduct training with the amount of equipment that can reasonably be 
maintained within the personnel and fiscal resource constraints. 
Second, by leveraging Overseas Contingency Operations (OCO) dollars to 
pay for mobile maintenance support teams from Marine Corps Logistics 
Command to travel to Reserve Training Centers and augment the limited 
organic maintenance capacity. However, as the demand for Reserve 
Component Forces has significantly increased--from 126 exercises, 
missions, and operations in fiscal year 2017 to 149 scheduled for 
fiscal year 2018--we anticipate increased usage, and subsequent wear 
and tear on both our military and individual combat equipment sets. 
Consequently, our maintenance requirements, demand for secondary 
repairable, and replenishment of gear have out-paced previous 
forecasts. Congressional support for our amended fiscal year 2018 
Operations and Maintenance, Marine Corps Reserve budget request, to 
include OCO, is paramount to our continued success in maintaining high 
equipment readiness.
    The top procurement priority of the Marine Corps Reserve is the KC-
130J Super Hercules. The Active Component has fully fielded the KC-130J 
Super Hercules. However, the remaining 17 of 24 Reserve Component KC-
130J aircraft are not scheduled to be fully fielded until 2026. This 
extended fielding timeline forces the Reserve Component to 
simultaneously operate the KC-130J and the legacy KC-130T aircraft over 
the next 8 years. These two aircraft have vastly different logistics, 
maintenance, and aircrew requirements, resulting in an increased outlay 
of resources to maintain the readiness of the Reserve Component KC-130 
Squadrons.
Training
    Marine Forces Reserve participates in the service-level ITX aboard 
Marine Corps Air- Ground Combat Center, Twenty Palms, California. This 
exercise consists of two battalions conducting live-fire and maneuver 
exercises, featuring Reserve Component Forces from the Marine Air-
Ground Task Force elements. This is one of the few opportunities that 
the ground, aviation, and logistics combat elements, under the command 
of a regimental headquarters, are able to come together and coordinate 
all warfighting actions to operate as a Marine Air-Ground Task Force 
under live fire and maneuver conditions. The ITX is constantly updated 
to challenge our Reserve Force with the most realistic training 
possible. Units participate based on future activation potential per 
the Marine Forces Reserve fiscal years 2018-2022 Training and Readiness 
Plan. The ITX provides all Marine Air-Ground Task Force elements an 
opportunity to undergo a service-level assessment of core competencies 
that are essential to expeditionary, forward-deployed operations. 
Additionally, individuals serving on the regimental command element 
staff receive training that ensures the ability to augment a Marine 
Air-Ground Task Force and/or a Joint staff. In summary, the ITX 
improves combat readiness, efficiency in Total Force integration, and 
enables more rapid activation response times at the battalion and 
squadron level.
    Marine Forces Reserve maximizes participation in continental United 
States-based training events. In fiscal year 2017, Reserve Component 
Marines and Sailors participated in Exercise Northern Strike, a joint, 
combined-arms, live-fire exercise emphasizing close air support, joint 
fire support, and coordinated maneuver with fires. The exercise also 
provides highly sought after amphibious training that is executed 
aboard Camp Grayling, Michigan, at the Joint Maneuver Training Center. 
Exercise Northern Strike provides an opportunity for Reserve Marines to 
train alongside Army and Michigan Air National Guard forces, as well as 
Canadian forces, and has become an integral part of the Reserve 
Component training continuum. These types of exercises ensure our 
Marines maintain the highest levels of proficiency and readiness to 
integrate with the Active Component to support the requirements of the 
combatant commanders.
    In order to preserve fiscal and materiel resources and test the 
limits of expected operations, we also maximize training efficiencies 
by optimizing the use of training simulators wherever possible. Our 
Reserve Training Centers employ the Indoor Simulated Marksmanship 
Trainers (Isms) and other simulation to ensure Reserve Marines are 
trained to the same tasks, conditions, and standards as the Active 
Component. The Isms particularly benefit remote site locations that are 
distant from DoD training ranges by eliminating wasted time of 
traveling long distances to training areas. Additionally, with Reserve 
units only having 38 training days per fiscal year to train to mission 
essential tasks and also ensure all Service mandated annual training 
requirements are satisfied, it is essential for the Marine Corps 
Reserve to capitalize on non-traditional training methods such as 
online training. Expanding our use of simulators and online training 
will preserve valuable training time and also enable units to make the 
most of that limited training time during drill weekends.
Facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27 owned and 133 tenant Reserve Training Centers, 
three family housing sites, one permanent barracks, three emergency 
troop housing barracks, and one General Officer Quarters. Although some 
sites are located on major DoD installations, most are situated within 
civilian communities, ranging from neighborhoods to industrial and 
commercial districts. We continue to improve the maintenance and 
security of our facilities to ensure the safety of our Marines and 
Sailors and provide an effective training and mobilization platform to 
support the readiness of the Force.
    Sixty-six percent of the facilities budget supports the 
distrainment and maintenance of existing infrastructure and operating 
cost of providing day-to-day facilities support. However, those 
operating costs steadily increase with the age of the buildings. We 
have improved the overall readiness of our facilities inventory through 
our Facilities Distrainment, Restoration and Modernization (FSRM) 
support program and maximized the impact of our budget through 
divestiture and demolition of excess footprint.
    There has been a focused and ongoing effort to improve overall 
force protection at all of our sites by working with our service 
partners and the National Guard for joint occupied facilities. Numerous 
protection assessments and security engineering reports have been 
conducted at our facilities to assist and develop designs to mitigate 
protection concerns, specifically physical security. These assessments 
have identified physical security requirements and served to prioritize 
security enhancements to ensure our sites and Marines are secure in the 
facilities where they work and drill. We have leveraged additional 
funding to address these requirements and the risks are mitigated by 
the tactics, techniques, and procedures that each individual unit 
employs.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on providing construction for new and enduring 
capabilities, as well as recapitalization of our aging existing 
facilities.The construction provided by the annual authorization and 
appropriation of MCNR funding is an important factor in advancing our 
facilities support mission as we optimize our force Layton throughout 
the Nation. Continued support for the MCNR request is essential as we 
divest of failing infrastructure and modernize capabilities.
    The combined effects of our targeted consolidation, FSRM, and MCNR 
programs have steadily reduced the number of inadequate or substandard 
Reserve Training Centers and enabled better support to the Force. 
Continued support for our annual funding request for our facilities 
program will enable us to improve the overall physical infrastructure 
that reinforces the mission readiness of our units.
Health Services and Behavioral Health
    Marine leaders have a moral obligation to ensure the health and 
wellness of the Nation's Marine Corps Reservists, Sailors under our 
charge, and their families. General Unfired once said ``This Nation's 
most precious assets are the young men and women in uniform,''--we take 
this responsibility seriously. Every day, we strive to maintain the 
trust and confidence of Congress and the American people by immediately 
addressing any challenge to our readiness and finding solutions through 
our people and readiness programs.
    We strive to improve medical readiness through a robust Post-
Deployment Health Reassessment (PDHRA) Program within Marine Forces 
Reserve and an accurate monitoring, identification, and notification of 
the unit-level actions necessary to attain readiness goals. Between 
deployments, our Health Services priority is to ensure the DoD goal of 
85 percent Total Force Medically Ready. During fiscal year 2017, Marine 
Forces Reserve met that goal with individual medical and dental 
readiness rates of 85.4 percent and 90.7 percent, respectively. 
Additionally, our Health Services personnel participate in Force 
Readiness Assistance & Assessment Program unit inspections and audits 
which provide oversight at unit level and the ability to monitor policy 
adherence and readiness.
    The Reserve Health Readiness Program (RHRP) has greatly increased 
overall medical and dental readiness throughout the Force. This program 
funds contracted civilian medical and dental providers to units that do 
not have organic medical or dental support personnel and/or are not 
supported by a military treatment facility. During fiscal year 2017, 
the RHRP performed 21,762 Periodic Health Assessments; 22,354 Mental 
Health Assessments; 1,098 Phrase; 331 immunizations; 6,349 laboratory 
services; 14,055 audio services; and 17,220 dental procedures. In 
addition to RHRP, the Marine Corps' comprehensive behavioral health 
program addresses issues such as substance abuse prevention, suicide 
prevention, combat and operational stress control, domestic violence, 
and child abuse prevention.
    Marine Forces Reserve conducts Operational Stress Control and 
Readiness training at all levels. It is provided during pre-deployment 
training to service members of units deploying for more than 90 days, 
as well as all commands in garrison. The purpose of this training is to 
provide the requisite knowledge, skills, and tools to assist commanders 
in preventing, identifying, and managing combat and operational stress 
concerns as early as possible.
    The Navy Bureau of Medicine and Surgery supports behavioral health 
through various independent contracted programs, such as the PDHRA and 
the Psychological Health Outreach Program (PHOP). The PDHRA places an 
emphasis on identifying physical, behavioral, and mental health 
concerns that may have emerged since returning from deployment. During 
CY 2017, Marine Forces Reserve successfully raised current completion 
totals to nearly 37,100 PDHRA screenings. The PHOP addresses both post-
deployment behavioral health concerns and crisis-related interventions 
through contractors with various social work-related backgrounds via a 
wide array of referral services in the community to include follow-up 
with service members. These programs provide a pathway to identify 
Marines, Sailors, and their families that are in need of behavioral 
health assistance, and an avenue to seek behavioral health assistance.
    Signs of operational and combat stress can manifest long after a 
service member returns home from deployment. This delayed onset of 
symptoms presents particular challenges to Reservists who may be 
isolated from vital medical care and the daily support network inherent 
in active duty units. Encouraging Marines to acknowledge and vocalize 
mental health issues is a continuing challenge facing our commanders. 
We address the stigma associated with mental healthcare through key 
programs, such as the Yellow Ribbon Reintegration Program (YRRP). 
Further, we market all of our behavioral health initiatives and 
programs through our Marine Forces Reserve portal Webster and during 
key Marine Corps forums throughout the year. Your continued support of 
our behavioral health programs is greatly appreciated.
    Marine Forces Reserve Drug Demand Reduction Program (DDRP) focuses 
on reducing illegal drug use and prescription drug misuse within the 
Reserve community. Marine Forces Reserve relies profoundly on its drug-
testing program, which acts as a powerful deterrent against drug use. 
Each Reserve unit conducts monthly random, yet, compulsory drug testing 
that ensures systematic screening of all Reservists for the presence of 
drugs. The DDRP staff provides quarterly and on demand education and 
awareness training on the dangers of misusing and abusing prescription 
drugs and information on the proper disposal of old, unused, and 
outdated medications. Additionally, the DDRP increases leaders' 
awareness on the dangers of abusing prescription drugs through annual 
substance abuse supervisory level training.
    Suicide prevention is a high priority for the Marine Corps. Marine 
Forces Reserve focuses its suicide prevention efforts on six 
initiatives: in-theater assessments, PDHRA, PHOP, Care Management 
Teams, Marine Intercept Program (MIP), and Unit Marine Awareness and 
Prevention Integration Training (UMAPIT). The in-theater assessments 
target Reservists who may be exhibiting or struggling with clinically-
significant issues during a deployment. These Marines are evaluated by 
appropriate medical authorities for possible treatment with follow-up 
decisions made prior to the return home. The PDHRA program specifically 
seeks to identify issues that emerge after Reservists have returned 
home from deployment. The PHOP secures treatment referrals and provides 
essential follow-up treatment and case management for our service 
members to receive appropriate behavioral health services. MIP is an 
evidence-informed targeted intervention for active duty service members 
who have had an identified suicide ideation and/or suicide attempt. MIP 
includes a series of telephonic voluntary caring contacts in which a 
counselor reaches out to the Marine and assesses for risk, encourages 
use of a safety plan, identifies and addresses any barriers to 
services. The MIP counselors then incorporate these caring contacts 
into the counseling process. These services are also provided to our 
Reserve Marines through the PHOP. Lastly, UMAPIT provides mandatory 
face-to-face annual training for every Marine and Sailor in our command 
and is based on evidence-informed practices to raise awareness of 
common risk factors and warning signs associated with behavioral health 
issues.
    Additionally, our Reservists and their family members are able to 
access Marine Corps installations' behavioral health programs through 
Marine Corps Community Services while they are on active-duty orders. 
When not on active-duty orders, Military Resource provides counseling, 
resources, and support to Reserve service members and their families 
anywhere in the world. The Marine Corps DSTRESS Line is another 
resource available to all Reserve Marines, attached Sailors, and family 
members regardless of their duty status. DSTRESS is a 24/7/365, Marine-
specific crisis call and support center, providing phone, chat, and 
video-telephone capability for non-medical, short-term, solution-
focused counseling and briefings.
Sexual Assault Prevention & Response
    Sexual assault is a complex problem that is often interrelated with 
other readiness challenges, behavioral health issues, and destructive 
behaviors. Marine Forces Reserve remains focused on executing solutions 
to address the continuum of destructive behaviors, with the goal of 
eliminating sexual assault within our ranks. To accomplish this goal, 
Marine Forces Reserve has expanded the Sexual Assault Prevention and 
Response Program (SAPR) to seven full-time employees who provide 
supportive services across the geographically-dispersed force. In 
addition to the Force-level Sexual Assault Response Coordinator (SARC), 
each Major Subordinate Command within Marine Forces Reserve has a SARC 
who manages their commanding general's SAPR Program from the 
headquarters office in New Orleans. Together with the Arcs, two 
professional civilian victim advocates are available to support service 
members and adult family members located at all 160 sites who may need 
SAPR services. Marine Forces Reserve continues to increase victim 
services, improve victim response capabilities, and emphasize 
prevention.
    The SAPR staff trains up to 160 new Uniformed Victim Advocates 
(Vas) each year during week-long courses held at the Marine Corps 
Support Facility, New Orleans. After training and credentialing through 
the DoD's Sexual Assault Advocate Certification Program, uniformed 
advocates are appointed by their commanders to serve in this collateral 
duty billet at their respective Reserve Training Centers. Each SARC 
provides continuous support and guidance to the geographically-
dispersed Victim Advocates within their MSC. In total, Marine Forces 
Reserve's SAPR Program maintains a roster of more than 300 Vas within 
the Reserve Component.
    Reserve members can report an assault at any time and do not have 
to wait to be performing active service or inactive duty for training 
to initiate their report. Service members are eligible to receive 
timely access to SAPR advocacy services from a SARC and a UVA 
regardless of when a reported incident of sexual assault took place, to 
include those that occurred prior to service or while not in a drilling 
status. They also have access to a Victim's Legal Counsel regardless of 
the duty status of the individual if the circumstances of the reported 
offense have a nexus to the military service of the victim.
    Vas respond to service members regardless of their activation 
status, as well as adult dependents who make a report of sexual 
assault. With the support of their SARC, Vas screen for potential 
safety issues and provide required safety updates, offer ongoing 
supportive services and referrals, and maintain a data base of 
nationwide resources for victims of sexual assault who may not reside 
on or near an installation. The Arcs and Vas collaborate with providers 
who are local to the sites to create a network of support and response 
capabilities for the Reserve Component across the Nation.
    Another essential aspect of the response protocol is the 24 hours a 
day, seven days a week Support Line that is advertised to service 
members and their families via written and digital media and during all 
SAPR classes and briefs. The Support Line is manned by the professional 
SAPR staff members who serve as a readily accessible resource for those 
who need anything from immediate assistance to those with questions 
about how to make a report. Marine Forces Reserve also actively 
publicizes the DoD Safe Hellene which offers the crisis support service 
for members of the DoD community affected by sexual assault. The DoD 
Safe Hellene is available 24/7 worldwide with ``click.call.text'' user 
options and can be used anonymously for confidential support.
    Our prevention strategy is holistic and integrated with other 
programs that support the eradication effort, such as the Equal 
Opportunity Program, Family Readiness, Spiritual Readiness Initiatives 
and Behavioral Health. Marine Forces Reserve emphasizes setting the 
example of discipline and respect at all levels of command by 
encouraging a positive, retaliation-free, command climate. Leadership 
is encouraged to actively engage with our Marines and Sailors to learn 
what we can do to further support a positive environment that is free 
from attitudes and behaviors that are incompatible with our core 
values. All Marines and Sailors are required to receive SAPR training 
every year to ensure widespread knowledge about the program to include 
both prevention and response information. Preventative education plays 
a role as all non- commissioned officers receive ``Take a Stand'' 
bystander intervention training and all junior Marines participate in 
the ``Step Up'' bystander intervention training each year.
    Marine Forces Reserve is committed to preventing sexual assault 
while responding with the highest quality of supportive services and 
advocacy to those who need it.
Quality of Life
    We are committed to ensuring quality of life support programs that 
are designed to help all Marines, Sailors and their families, whether 
they are deployed or on the home front. Reserve Marines and their 
families deserve the very best support in return for their sacrifices. 
They are dispersed throughout the country and away from the traditional 
brick and mortar support systems of our major bases and stations. 
Therefore, we strive to provide awareness of, and access to, the 
numerous support programs available for their benefit. Marine Corps 
Community Services and unit Family Readiness Officers provide a vital 
link to ensuring support reaches those who need it.
    Marine Forces Reserve tracks the submission of medical service 
treatment records to ensure Reserve Component Marines receive timely 
access to Department of Veterans' Affairs (VA) healthcare services. 
Working across all 160 sites, we aggressively target our performance 
for submission timeliness to ensure our Marines will not be delayed in 
their submission of VA disability benefit claims once they have 
separated from the service.
    Marine and Family Readiness Programs remain flexible, constantly 
adjusting to meet the needs of our Marines and their families. The 
result is a ready and resilient Force, well equipped to achieve 
success. This heightened state of resiliency is primarily achieved by 
providing robust, relevant and standardized training to our unit 
commanders, Family Readiness Command Teams, Marines and their families. 
Our Marine Corps Family Team Building (MCFTB) program offers non-
clinical primary and secondary preventative education and professional 
training to support service members and their families throughout 
mission, life, and career events--ultimately enhancing unit mission 
readiness. MCFTB training events are delivered both, in person and 
through interactive Weimar, at Marine Corps units across the United 
States. During fiscal year 2017, Marine Forces Reserve conducted 194 
training events at which 6,821 Marines and family members received 
valuable information to prepare for upcoming deployments, thrive during 
a deployment, and achieve a positive post-deployment reintegration 
experience.
    A key component to our quality of life and resiliency is the 
religious ministry support provided by the 220 Religious Ministry Team 
(RMT) members consisting of Navy Chaplains and Religious Program 
Specialists who are integrated into our support structure. As Uniformed 
Members, Remits support Marines and their families across the full 
spectrum of military life including combat and humanitarian 
engagements. 123 RMT personnel are embedded in 46 Marine Corps Reserve 
units and 97 are in Navy Reserve religious support units that directly 
support Active Component Marine Corps units. Of those, 14 are mobilized 
in support of combatant commanders across the globe. This support 
includes developing the Commandant's spiritual readiness initiatives, 
providing divine services across the spectrum of faith communities, 
advising on spiritual and ethical matters, and pastoral care in a safe, 
confidential environment. One signature program is the Chaplain 
Religious Enrichment Development Operations (CREDO) program. The CREDO 
program provides two transformational workshops: the Marriage 
Enrichment Retreat and the Personal Resiliency Retreat. These events 
equip Marines, Sailors, and their families with practical relationship 
and communication tools that strengthen marriages and individual 
resilience while on the home front and during deployments. The PRR 
curriculum also helps Marines and Sailors set personal goals, make good 
decisions, deal with stress, and live lives with greater purpose and 
satisfaction. During fiscal year 2017, ten Marriage Enrichment Retreats 
were conducted with 290 participants and two Personal Resiliency 
Retreats were conducted with 26 participants.
    The Marine Corps Personal and Professional Development programs 
continue to provide training and educational resources to service 
members and their families. The Transition Readiness Program implements 
a comprehensive transition and employment assistance program for 
Marines and their families; the program emphasizes a proactive approach 
that will enable Marines to formulate effective post-transition 
entrepreneurship, employment, and educational goals. Transition 
Readiness is a process that occurs across the Marine for Life Cycle, 
not an event that occurs at a single point in time. Additionally, the 
Marine For Life Network provides education and awareness briefs to 
Reserve Marines and their family members during IRR Mobilization 
Exercises, with the intent to link them to employment, education, and 
community resources in support of their overall life goals.
    Our Simper Fit program remains fully engaged in partnering with our 
bases and stations to provide quality, results-based education and 
conditioning protocols for our Marines and Sailors. The High Intensity 
Tactical Training program includes hands-on, science-based strength and 
conditioning courses, online physical fitness tools, mobile 
applications for service members to access anywhere, recorded Weimar, 
as well as instruction on injury prevention, nutrition, and weight 
management. Our Marines' and Sailors' quality of life is also enhanced 
through stress management and esprit de corps activities, such as unit 
outings and participation in competitive events. These programs are 
crucial to unit cohesion and camaraderie.
    The YRRP is an invaluable partner with the Marine Corps Unit, 
Personal, and Family Readiness Program at every command level. Since 
its inception during 2010, the YRRP has held more than 850 training 
events for more than 39,000 Marines, Sailors, and family members. In 
fiscal year 2017, 123 YRRP training events were conducted with 1,958 
participants. The YRRP is a tool for commanders to remain engaged with 
the challenges and issues facing Marines, Sailors, and their families. 
The YRRP continues to thrive. Marine Forces Reserve, with the 
assistance of our Marine Corps Team Building, local and national 
resources, has many methods for program delivery that are sustainable 
in any fiscal or deployment climate. This includes local unit events, 
Weimar which can be delivered nationally, mail-outs, social media, and 
personalized briefs designed to meet the individual needs of the 
service member and family.
    We continue to be supportive of Military Resource, which provides 
our Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
resources. Additionally, Military Resource provides information on 
subjects such as parenting, child care, education, finances, 
deployment, and relocation.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We will continue to be a faithful advocate for robust Family Programs 
and Services that evolve and adapt to the changing needs of our 
Marines, Sailors and their families. The combined effect of these 
programs and services are critical to the readiness and retention of 
our Marines, Sailors, and their families, and your continued support is 
greatly appreciated.
Supporting our Wounded, Ill, or Injured Marines and their Families
    The Marine Corps ensures the availability of full spectrum care to 
all wounded, ill, or injured (WII) service members, whether they are 
Active or Reserve, through the Wounded Warrior Regiment (WWR). Marine 
Forces Reserve ensures Reserve Marines' unique challenges are addressed 
through a WWR Liaison Officer who provides subject matter expertise and 
special coordination with the WWR staff.
    The WWR staff includes the Reserve Medical Entitlements 
Determinations Section, which maintains specific oversight of all 
Reservists requiring medical care for service-incurred and duty- 
limiting medical conditions. Reservists facing complex care and 
recovery needs have access to WWR's network of 45 Recovery Care 
Coordinators who provide one-on-one transition support and resource 
identification for WII Reservists and families often living long 
distances from military installations. WWR also has medical advocates 
at the regimental staff who are available to assist Reservists in need 
of medical care coordination and advocacy. District Injured Support 
Coordinators and Field Support Representatives dispersed throughout the 
country also coordinate with Reserve units to ensure we keep faith with 
all Marines.
    Marine Forces Reserve will not forget the sacrifices our Marines 
have made for this great Nation; and we will continue to work with the 
WWR to establish resources and programs that address the unique and 
ongoing needs of our Reserve population.
Conclusion
    Despite the challenges facing us in today's strategic environment, 
the Marine Corps remains our Nation's crisis response force and will 
continue to be most ready when our Nation is least ready. When our 
Nation calls, the American people expect quick, decisive action from 
Marines--both the Active and Reserve Components. As part of the Marine 
Corps Total Force, the Marine Corps Reserve must remain manned, 
trained, and equipped to provide lethal forces to the Active Component 
to respond across the operational spectrum from disaster relief to full 
scale combat operations. Despite today's unstable operating environment 
being further complicated by budget uncertainty, it is essential for us 
to remain engaged in current operations, maintain our warfighting 
readiness, and reset our equipment--while also taking the necessary 
strides to modernize the force. With your continued unwavering support, 
we will make pragmatic decisions on how to best balance our available 
resources between current commitments and future readiness 
requirements.
    Simper Fidei!

    Senator Shelby. Thank you, General.

                      SOUTHWEST BORDER OPERATIONS

    The President's recent decision to send National Guard 
forces to the southwest border continues the trend of previous 
administrations to deploy Guardsmen to border security 
operations.
    General Lengyel, can you describe the current plans for 
mobilization, expand on the operational supports that these 
troops will provide, and discuss how it differs from past 
efforts?
    General Lengyel. Yes, Chairman. Thanks for the opportunity 
to talk about the southwest border operation that is currently 
ongoing.
    As you mentioned, on April 4, the President signed a 
proclamation and he directed the Secretary of Defense to assist 
the Department of Homeland Security with providing security on 
the border. He provided that mission to the Department of 
Defense, since the authorized use of the National Guard as a 
force to provide and assist the Customs and Border Protection 
agency with the requirements that they have on the border to do 
border security kinds of things.
    On the 6th of April, we were able to ascertain the first 
initial amounts of requests that came from Customs and Border 
Protection. They said, ``We request National Guard troops under 
command and control of their governors,'' also called Title 32 
Command and Control, ``Go to the assistance of the Customs and 
Border Protection in the individual sectors along the southwest 
border.''
    That deployment began on the 6th of April with movement 
from Texas and Arizona, and a few planners from New Mexico. 
They began to move and posture their assistance for the Customs 
and Border Protection agency.
    As of today, we have had an additional request for 
assistance, a second request for assistance from the Customs 
and Border Protection. As we speak here today, there are a 
total of 965 National Guard soldiers, airmen and soldiers, 
mostly soldiers, on the border providing assistance to Customs 
and Border Protection and the Department of Homeland Security.
    The Secretary has authorized up to 4,000 total members of 
the National Guard to do this and he has authorized it to 
endure, at this point, until 30 September. That is the length 
and duration that we are, so far, authorized to support the CBP 
(U.S. Customs and Border Protection) in this endeavor.
    With respect to funding from this issue, the funding the 
Under Secretary of Defense (Comptroller) has been directed to 
look across the Department to find funds to pay for these Title 
32 resources, who are under the command and control of their 
governors in the States, providing support to the Customs and 
Border Protection.
    What they are not doing is any direct civilian law 
enforcement operations, and they are not doing any direct 
contact with migrants, unless when they are to be explicitly 
authorized by the Department of Defense, and that has not yet 
occurred.
    So the missions that they are involved in are primarily 
things that enable Customs and Border Protection agents to 
leave non-direct border security jobs, and go to the border, 
and provide border security. They are doing things like 
maintenance, communications, transportation, the operation of, 
perhaps, heavy equipment, analysis, trend analysis in using 
some intelligence and surveillance, and some aviation assets to 
assist in those endeavors.
    So primarily, that sums it up. As of today, 965 soldiers 
and airmen are on the border. Long term through the end of the 
fiscal year, and up to 4,000 is the top number under command 
and control of their governors.

                       CYBERSECURITY INITIATIVES

    Senator Shelby. The demand for cybersecurity professionals 
paces the current inventory, as I understand it, both in the 
military and in the private sector. The Reserve component's 
reputation as citizen soldiers provides a deep connection, 
perhaps, to private sector cyber experts who draw upon civilian 
acquired skills from industry and their daily work in academia.
    I will pose this question to General Luckey. Could you 
share with the subcommittee, General Luckey, the initiatives 
that you are pursuing to help recruit the most talented, the 
best and the brightest individuals with the particular cyber 
skill sets that are going to be required in the future to 
protect us?
    General Luckey. Chairman, thanks very much for that 
question.
    As I touched on briefly in my opening remarks, there are a 
couple of things that are going on currently in the Army 
Reserve and in concert with a lot of other different agencies 
and entities out there working--to answer your question--with 
more capability.
    We are already, as I think I talked about earlier, 
remissioning and re-tasking certain capabilities and moving 
some force structure to places where we have identified, what I 
call, digital key terrain, whether it be in Silicon Valley, 
whether it be in Boston, whether it be in other locations 
across the United States.
    We are identifying, as we go, different places where moving 
force structure enables us to take our unique flexibility and 
agility to move force structure at essentially no cost because 
we are not actually moving people. We are just moving the 
billets to go and recruit talent against those billets. So we 
have done that in certain locales. We are continuing to do 
that.
    As I noted in my remarks, we are partnering with DIUx, we 
are partnering with MD5, and we are working very closely with 
the Army as it begins to flesh out its future command to make 
sure that we are completely integrated and synchronized.
    At the end of the day, part of this is a talent management 
challenge for us and a massive opportunity. Senator, as you may 
know, I already retasked the 75th Training Command, which is 
now the 75th Innovation Command in Houston, Texas, to take this 
on and operationalize getting us to a better place in terms of 
capturing and in some cases actually assessing talent across 
America, primarily in the private sector, whether it pertains 
to cyber, artificial intelligence, quantum computing, and 
things of that ilk.
    So eventually, I am going to owe this committee a report on 
where we are in terms of operationalizing this capability. But 
I will tell you today, in addition to the 10 cyber protection 
teams that we are on track to adopt and fully operationalize on 
the timeline previously determined.
    We are also moving well down the path to operationalizing 
our ability to assess talent and to retain talent in the Army 
through the Army Reserve in these critical skills.
    Senator Shelby. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.

                        COST OF GUARD AT BORDER

    General Lengyel, following up on the Chairman's question, 
what is the average daily cost of a Guard member at the border?
    General Lengyel. Sir, I would have to give you a specific 
for one Guard member on the border.
    Senator Durbin. It could be any kind of range that you 
think is accurate.
    General Lengyel. I think it is the same as what he would be 
paid anywhere else doing any other job. There is no difference 
in the cost of having him on the border.
    Senator Durbin. What would that be?
    General Lengyel. It depends on the rank, sir.
    Senator Durbin. Okay. Let me just ask you, Operation 
Jumpstart cost $1.2 billion for 6,000 National Guard members 
over 2 years.
    Do you have any estimate as to what this operation is going 
to cost?
    General Lengyel. Sir, it is difficult to estimate because I 
do not know how many of that 4,000 the number will actually 
grow to and beyond how long it will stay. I really could not 
hazard a guess yet on the total cost of this operation.
    Senator Durbin. Can I conclude from your statement earlier 
that your current 2018 O&M (Operations and Maintenance) budget 
could not cover these costs?
    General Lengyel. That is a true statement, sir.
    Senator Durbin. You said you have to look around the 
Department of Defense.
    General Lengyel. The Department of Defense should work 
within the Department to find funds to pay for this mission, 
sir.
    Senator Durbin. There have been some comments by some 
observers on the statewide scene that we are diverting National 
Guardsmen from their traditional responsibilities, and duties, 
and readiness at home.
    There was an article in the ``Albuquerque Journal'' where 
State Representative Bill McCamley said, ``We are going into 
forest fire season. The big percentage of the State is in 
drought right now and if National Guard folks are continuously 
rotated down to the border for a problem that does not exist, 
are they are going to be available for a real problem when it 
happens?''
    What is your answer?
    General Lengyel. Vice Chairman, I would say that we have 
450,000 men and women in the National Guard and on the border 
today are 1,000. We could sustain that level without impacting 
State missions, because they are under the command and control 
of the governors.
    If required right now--we have not had to go outside the 
four border States to serve the requirements by CBP--but if we 
do have to, and if this is enduring in nature, we may have to 
go find some folks because these are citizen soldiers and 
airmen. They have jobs and other lives. We will have to rotate 
them in.
    We will go to places where governors have an excess of 
capacity to deal with emergencies in their State, and those 
people should volunteer and move to the border, and do the 
mission.

                          WATER CONTAMINATION

    Senator Durbin. This question is for all witnesses.
    I was educated, informed, and a little bit surprised by 
this last appropriations conversation in the Senate of how many 
of my colleagues came forward to discuss water contamination 
caused by perfluorinated chemicals in firefighting foam. It was 
the number one issue my Senate colleagues asked me for help 
with this year.
    General Lengyel, I understand the Air National Guard has a 
unique set of problems when it comes to paying for the cleanup 
of these chemicals that has to be addressed by authorizers.
    How large is this, admittedly, major public health crisis 
of water contamination as a problem for the National Guard? Do 
you know how much it will cost? How long it will take? And do 
you need new authority to tackle it?
    General Lengyel. Yes, sir. It is a problem.
    I cannot give you a total number of what it may take to 
mitigate it. There are many, many installations, as you know, 
that have the potential to have PFOS and PFOA in their water 
systems.
    So the first thing we had to do is inspect them, determine 
if there is a determined amount in the water. If there is, and 
the Government is determined to be liable, then we are going to 
have to find a way to mitigate that. So we are going to make 
the water safe to drink for the communities.

   NATIONAL DEFENSE AUTHORIZATION ACT FUNDS IN DEFENSE ENVIRONMENTAL 
                          RESTORATION ACCOUNT

    Senator Durbin. The Department of Defense has identified 
401 active installations where there are one or more areas with 
known or suspected release of these chemicals.
    Under OSD's (Office of the Secretary of Defense) guidance, 
the services are conducting preliminary assessments and site 
inspections, and cutting off exposure where they can. 
Currently, 90 installations are above the EPA's (Environmental 
Protection Agency) lifetime health advisory.
    I also understand that you are seeking an NDAA (National 
Defense Authorization Act) provision to allow the National 
Guard to qualify for use of funds in the Defense Environmental 
Restoration Account. Right now, only active duty can use these 
funds.
    Could you explain?
    General Lengyel. Yes, sir. The determination was made by 
General Counsel in the Department of Defense that said State-
run facilities were not eligible to access the DERA (Defense 
Environment Restoration Account) account.
    If we had to spend money to mitigate these PFOA issues, we 
were going to have to use Air National Guard or Army National 
Guard Operations and Maintenance money to do it, and obviously, 
we do not have that money in our account. So we had access, 
like the active component, to the DERA account.
    Senator Durbin. What my colleagues have told me is that the 
use of this fire retardant, this foam, has resulted in a public 
health hazard and a danger to water supplies in the area of 
these installations.
    I cannot tell you how many of them came to me from all over 
the United States saying, ``We need cleanup money right now 
because of the danger to our community.''
    Do you sense this is a matter of some urgency?
    General Lengyel. I do, Senator. Yes, I do.
    We owe it to the public to make sure that we inspect these 
facilities and determine if they have a problem. And if they 
have one, and we are liable for it, then we need to mitigate 
it.

                       MASSIVE SPENDING INCREASE

    Senator Durbin. I would like to ask just one general 
question.
    We have decided, on a bipartisan basis in Congress, to make 
a massive investment in our military for readiness; some $80 
billion over the budget for this year and a similar amount next 
year. We do not know what happens in the third year. If it 
reverts back to sequestration levels, it will be a dramatic 
cut.
    I am sure we all share concern that we do not have enough 
resources going into our national readiness and defense, but I 
share an equal concern that we are putting too much in too 
fast, and that we may look back with regret as to how it is 
being spent.
    I talked with Secretary Mattis about this. He sent out 
letters, I think, for all to consider about his own concerns.
    Tell me how you and your colleagues here are addressing 
this concern about spending this massive investment so quickly 
and wisely.
    General Lengyel. Yes, Senator. Well, I think that our 
direction is to spend it on readiness of the Force, to make 
sure it is a lethal Force; actually, everything inside the 
National Defense Strategy as this operational reserve that we 
are all a part of now.
    Our Active components rely on us to be there and to be 
ready to defend the Nation in our interests around the world. 
That is the number one priority that we are doing.
    The services have needs to recapitalize and modernize, that 
we have been underfunded because of budget uncertainty and draw 
downs over the past years. I say that with some certainty that 
we have appropriate places to increase the lethality and 
modernize the Force to spend that money appropriately.
    Senator Durbin. We will be watching one another closely. 
Thank you.
    General Lengyel. Yes, sir.
    Senator Shelby. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    And thanks to all of you for being here and more 
importantly, for what you do.
    General Lengyel, even though I also am a member of Military 
Construction, Veterans Affairs, this particular project would 
fall under that. I do want to express my appreciation for the 
budget request and your support for a military readiness center 
in Fargo for an important project, and I thank you for that.

                        RECRUITMENT OF PERSONNEL

    For each of you, though, I would ask recruiting; how are we 
doing on recruiting? For example, pilots. I know we have an 
incredible challenge getting enough pilots and the commercial 
sector too is looking for pilots.
    We have innovative programs, for example, in Grand Forks at 
the University of North Dakota, we train a tremendous number of 
pilots, at the John D. Odegard School for Aerospace and 
Aviation.
    And so, starting maybe on the Air Force end, but for each 
of you, recruiting and maybe start with the pilots, do we have 
to get creative in looking for other solutions to help there? 
For example, maybe partnering with some of our universities on 
pilot training or some of those kinds of things. And so, 
General Lengyel, you or General Miller, maybe start.
    General Lengyel. Senator Hoeven, thank you for that 
question. And like the Air Force, our Air National Guard is 
experiencing issues with maintaining all of our pilots that we 
need to fill up our force as part of the Air Force.
    Like General Miller had mentioned, full time pilots, we are 
able to maintain full time pilots in the active and guard, the 
AGR status, the Active Guard Reserve status. Technician, full 
time pilots are harder.
    Part-time pilots, we are able right now to retain a huge 
number of our part-time pilots. As people leave the active 
component and go into the airlines, they tend to want to fly in 
the Guard and Reserve as well, so part-time pilots are good. 
Some of our full-time pilots, though, are harder to maintain.
    It is, for the first time, becoming a problem in the Army. 
Army aviation, Army helicopter pilots are now being recruited 
actively by the airlines and given fixed wing courses to become 
fixed wing pilots. So that will become a draw on the Army 
National Guard as well.
    Senator Hoeven. Customs and Border Protection has 
responsibility for 900 miles of border out of Grand Forks, all 
the way from the Great Lakes out through most of Montana. They 
fly helicopters. They fly fixed wing. They fly unmanned assets, 
UAS.
    They have a program that we just started with them, called 
Pathways where they partner with the university so that as 
young people go through their pilot training, they also work 
for CBP, and then they come out, and they have that pilot 
education.
    So again, I am looking for innovative ways to get after 
this challenge.
    General Miller. And Senator, our Chief and Secretary are 
beginning to work in building those relationships with the 
aviation universities, and discussing this at a national level. 
As we all know, this is a national problem. There are just not 
enough pilots being produced for all of us.
    Senator Hoeven. And it seems for Reserve and Guard, there 
would be a particular opportunity here.
    General Miller. There is and we are partnering with them. 
The Air Force is 2,000 pilots short across all three of the 
components, and we all have our deficit number that we are 
going after.
    For us, for the Air Force overall, we are not concerned 
right now about the number of people coming in the pipeline 
because there are people lined up to come in the Air Force to 
fly airplanes.
    The issue for us right now is, as the budget has decreased 
for the past 10 years or so, we have brought down that 
institutional capacity to train the pilots.
    We have them lined up. We can get them coming through the 
door. It is just, how do we get them trained quickly? Because 
we have brought that institution brick and mortar down and that 
capacity down, so we are increasing the capacity. We need to go 
from 1,200 a year to 1,400 a year as a start.
    The other aspect of that is the absorption piece. Once they 
are produced out of UPT, out of pilot training, they then have 
to get that experience level. We, in the Guard and Reserve, 
accept those pilots, those youngest pilots, and we absorb them 
into our units and experience them as quickly as we can.
    It is not a capacity issue coming to the door. It is how do 
we train them? How do we absorb them? And get them as quickly 
as we can up to a high level fighter pilot or mobility pilot to 
get out there.
    We are working over those issues. Our Chief and Secretary 
are working directly with industry and the airlines, and we 
have had meetings, two meetings over the last year to discuss 
that.
    What am I doing specifically in the Air Force Reserve? On 
the full-time side, my issue is the full-time side. I need to 
create a full-time status and it is called Active Guard and 
Reserve, and that status allows an airline pilot to be an 
airline pilot for a couple of years, come back and be full-time 
with us for a couple of years, and then go back to the airline. 
So it allows them the opportunity to go back and forth with 
return rights.
    The current full-time status I have right now is an Air 
Reserve technician. It does not have return rights. Once an Air 
Reserve technician goes to the airlines, they do not have 
return rights back to be full-time, if they choose.
    So we are working with MNR, PNR up in the building. We are 
working with the Guard and we are trying to adjust certain AGR, 
certain words that are in the law to expand that use. So we are 
getting on that.
    Senator Hoeven. Flexibility and capacity are two things you 
are getting into. We should be able to maybe come up with some 
things to help.
    General Luckey. Senator, if I may, since the Army was 
mentioned here.
    I would just note from a pilot perspective, right now we 
are at about 94 percent strength in my pilots both from rotary 
and fixed wing. So at least in the near time, I am not only 
concerned about the stress on the Force. I do note, General 
Lengyel's point and concern, and I am not suggesting that I am 
dismissing it, because I am not. Where I sit right now, I think 
we are, from an operational perspective, I think we are in 
pretty good shape.
    From a recruiting perspective, I would tell you the 
accession of new soldiers into the Army Reserve is not my 
fundamental challenge from a manning the force perspective. The 
bigger challenge fundamentally is maintaining a good stream of 
AC to RC migration over time.
    From a qualifications perspective, from a grade 
perspective, my concerns are really much more my mid-grade. 
Both of my noncommissioned officers and commissioned officers, 
making sure I continue to get some good lifeblood coming off of 
active duty into the Army Reserve.
    I know my colleagues in the Guard, to some extent, look at 
that same trend line as one that could be potentially 
problematic if I am not continuing to be able to get the flow 
from the active component.
    Myself, and I know many of our colleagues, all came from 
the active components of the various services of the United 
States military before coming into the Guard or Reserve. And 
that is obviously a trend that I would like to see continue 
over time.
    Senator Hoeven. I would ask Admiral McCollum and General 
McMillian.
    Admiral McCollum. Yes, Senator. For the Navy Reserve, we 
have learned, and I am sure like my other colleagues, when a 
pilot has an airplane to fly and when there is a career path 
for that pilot, they are at their best position for retention.
    In that regard, that is why recapitalization, in our case, 
of aviation assets is important. We can offer retention 
opportunity for those pilots exiting active duty and we have 
had very little issue capturing that return on investment, 
which is, at about an eight or nine year pilot, very 
significant in the $7 or $8 million return on investment.
    If we do not continue that investment in recapitalization, 
we see we might lose that opportunity to retain some of those. 
But the part-time pilots, we are not having an issue with.
    General McMillian. Senator, thank you. As I said in my 
opening statement, we are at 99 percent manning across Marine 
Forces Reserve. I am fairly comfortable with where we are with 
both our Reserve pilots and the Active Components that support 
Reserve operations.
    Where I do have a gap is in my crew chiefs, particularly in 
MV-22's and in Huey's, and we are manned at about 55 to 65 
percent. It takes a little bit of time to grow a crew chief, 
and so we are putting effort into recruiting more. We are 
trying to capture crew chiefs that are leaving Active duty, as 
General Luckey said, and bringing them over to the Reserves.
    If we can grow them on our own, so to speak, it takes a 
little bit of time. But that is where my challenge is, sir.
    Senator Hoeven. Thank you.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you.
    Thank both you, Senator Shelby and Senator Durbin for 
holding this hearing. I think it is extremely important.
    Chairman Shelby, I welcome you as the chairman of the full 
committee. You and I have discussed our capacity as it exists, 
and I look forward to working with you on the fiscal year 2019 
appropriations. I think we are going to have a vigorous 
schedule and one that will help everybody involved.
    The witnesses here, the last two decades, we have relied on 
our National Guard like never before in missions that go way 
beyond our domestic borders, as you know. I know firsthand from 
the members of Vermont's own Air Guard and Army Guard the 
sacrifices these men and women make every day. I am very proud 
of what they have done.
    I was proud to be there when they announced training side 
by side, as full members of the 10th Mountain Division. I 
talked to former Senators like Senator Dole, who served in 
that. I am proud they are going to be the first Guard unit in 
the country to fly the F-35. We know what it means to support 
our Guards and Reserves.
    So General Lengyel, let me ask you. The Associated Unit 
Program has been a tremendous success, I think, around the 
country. Vermont, the home of the Army Mountain Warfare School, 
the 86th Infantry Brigade Combat Team has trained as a full 
member of the 10th Mountain Division. I have watched as they 
have done some of their training. It is not easy.

              VALUE OF SPECIALIZED RESERVE TRAINING UNITS

    Can you explain the value, to both an Active Duty Unit and 
a National Guard Unit, of being associated like this, 
especially when doing specialized things like mountain warfare?
    General Lengyel. Senator Leahy, thanks for that question.
    I cannot say enough good things about the Associated Units 
Pilot Program. The fact that our Active component and Reserve 
components, in our case, the Guard here at the 10th Mountain 
with the 86th Infantry Brigade Combat Team are training 
together, planning together, working together, and some day 
will be flowing together. It makes us a better, stronger, total 
force for our Nation.
    The Mountain Warfare School, we were very lucky this year, 
as you remember, the avalanche. Six soldiers in that Warfare 
School put them in the hospital. Luckily, nobody perished, but 
some severe injuries. It shows just how dangerous and what kind 
of training is required to do that kind of operation.
    Senator Leahy. Yes, this is not classroom training. This is 
out there----
    General Lengyel. No, it is real.
    Senator Leahy [continuing]. In all kinds of weather.
    General Lengyel. Commanders in these units, sir, because of 
the Association Report have better access to ranges, better 
interoperability with their active duty counterparts. Which 
means, when they deploy, when we go to fight our wars, we will 
be more lethal. We will be a better deterrent force. We will be 
a better war fighting force. It is a very good thing.

       CIRCUMSTANCES FOR NATIONAL GUARD TO ACT AS LAW ENFORCEMENT

    Senator Leahy. Let me ask you about a different type of 
thing, and Senator Durbin has gone into this, the Defense 
Department memo that Secretary Mattis signed, explains that the 
National Guard personnel will not perform law enforcement 
activities or interact with undocumented immigrants or other 
people detained without his expressed approval.
    What are the circumstances where the Department of Defense 
would authorize the National Guard to engage in law enforcement 
activities on the southern border? I do not know of any 
precedent for this. I am asking, what circumstances?
    General Lengyel. Well, sir, in this case, they have been 
expressly prohibited from doing it. And so, I can tell you that 
Texas, as National Guard members on State active duty have, in 
the past, in that particular status augmented the Texas Highway 
Patrol, the Border Security Police, and the Customs and Border 
Protection agencies and have in the past.
    Not in this operation currently undergoing, but other 
times. Because we are members of the National Guard, Posse 
Comitatus does not apply to us. We can do law enforcement 
duties.
    But there is no intention on this particular case. The 
intention, as I mentioned in my prior remarks, was that we 
would free up badge-carrying law enforcement officials to go to 
the border and actually do that.

 USE OF NATIONAL GUARD FACILITIES FOR UNDOCUMENTED IMMIGRANT DETENTION

    Senator Leahy. Well, let me ask you sort of a related 
question. Has DHS asked for the assistance or service related 
to the detention of undocumented immigrants? I ask that because 
you also have, the Guard has facilities. Have they asked for 
any of those facilities be made available for detention or 
functions?
    General Lengyel. No, sir. I am not aware of any requests 
for facilities or participation in any kind of detention 
operations of any kind along the border.
    Senator Leahy. They have to have special authority for 
that, would they not?
    General Lengyel. Well, we have been prohibited from doing 
those kinds of activities, sir, as a result of the 
proclamation. So right now, there is no intent for the National 
Guard to do any of that.

          POST-TRAUMATIC STRESS DISORDER IN THE NATIONAL GUARD

    Senator Leahy. Let me go to a different thing.
    In recent years, and you and I have discussed this 
privately before, some of this, but remarkable work has been 
done to advance our understanding of the way traumatic 
experiences impact the brain. And every one of you knows what 
that is like.
    We have had the work of researchers at the National Center 
for PTSD (post-traumatic stress disorder), I know this sounds 
parochial, but it is headquartered in Vermont with other 
leading institutions. I think we are creating a field of 
personalized medicine for mental health. You and I have talked 
about this.
    What steps are you taking, or would you like us to take, to 
get ahead of this? Because it seems to be a continuous problem. 
It is not one that is going to disappear.
    General Lengyel. Senator, thank you.
    The care, and welfare, and wellbeing of the men and women 
in uniform are all of our most important tasks to maintain. We 
cannot do any of our war fighting roles without them.
    The ability to leverage, perhaps, like in the language of 
last year's NDAA, to do a study. We commented on the study with 
OSD to: how will we better assess the total warrior resilience 
and fitness of our force?
    In the National Guard, we have done several things to do 
this. Your support for some additional Title 5 Technicians to 
be Directors of Psychological Health could be of assistance 
along those lines.
    To use broader experience like agencies such as give an 
hour and access to healthcare for soldiers and airmen, TRICARE 
for some of our members can give them proper access to 
psychological health providers that we need to help.
    So thank you for your continued support in this area.
    Senator Leahy. I look at all the services represented here, 
is it safe to say that there is no service that does not have a 
concern about PTSD? The Marines are concerned about that, are 
they not, General?
    General McMillian. Yes, sir. We are concerned about PTSD. I 
would like to say it is not as prevalent now as it was during 
the height of OIF and OEF. We scaled that back just a little 
bit.
    I will tell you what our major concern is and continues to 
be, though, which is related to it, are suicides. Within Marine 
Forces Reserve, we had 12 suicides last year. This year, we are 
up to 5, not quite at that 50 percent mark for the calendar 
year. We work hard to mitigate that.
    But what we are finding on the Reserve side of the house is 
that the majority, probably 90 percent of our suicides, occur 
not in a drilling status; it is those 28 days of the month when 
we do not see them.
    So we work hard through our leadership. We pride ourselves 
in our leadership to maintain close and enduring contact with 
all of our Marines, whether they are in a drill status, but 
particularly, when they are off duty. And so, we try to stay 
connected to them to try to dig out personal issues that they 
have and try to mitigate them rapidly.
    What we have found out is that all of our suicides in that 
off-duty arena are tied to relationship issues, legal issues, 
job issues, financial issues. So we try to talk to them about 
that during our drill weekends and when we do see them, and try 
to mitigate those, sir.
    Senator Leahy. Thank you, Mr. Chairman.
    And all the rest of you, if you have suggestions for me or 
for us in this area, please, let me know because I am concerned 
about both the Guard and Reserves, but in the full time 
services. I think there is a bipartisan commitment here in the 
Appropriations committee to help.
    General McMillian. Yes, sir.
    Senator Leahy. Thank you, Mr. Chair.
    Senator Shelby. Thank you, Senator Leahy.
    Senator Moran.

                         ATEAM REPAIR AUTHORITY

    Senator Moran. Mr. Chairman, thank you very much.
    Let me direct this question to General Lengyel.
    General, you know this because we have had numerous 
conversations, but the ATEAM provides world class maintenance 
and repair for Army tanks, and engines, and transmissions.
    As you know, they provide high quality work that has 
significantly contributed to the increased readiness of the 
Army National Guard, armored brigade combat teams in 12 States, 
and they are the engine repair team of choice for several key 
foreign military partners.
    We discussed last year in this same hearing, and though you 
conveyed your support for ATEAM, you instructed me to speak to 
General Perna, the Commanding General of the U.S. Army Materiel 
Command, on the topic of special repair authority for ATEAM to 
continue doing its work.
    I reached out to General Perna at your suggestion. In June, 
we had a conversation and he provided his formal position and 
recommendations that would follow the ATEAM to continue work on 
previously overhauled National Guard engines and existing FMS 
customers at the discretion of the NGB.
    Then later in October, he and I met and he reiterated that 
the ATEAM does not need a special repair authority to conduct 
their work for Army Guard or foreign partners. We also learned 
that Army regulations removed that requirement for this 
authority.
    General Lengyel, when we spoke a few weeks ago, you 
mentioned things were running smoothly with the ATEAM and you 
remain supportive of their efforts. However, since that 
meeting, I learned that the ATEAM again faces hurdles that 
threaten their ability to carry out their maintenance work for 
the Army Guard, and particularly their foreign partners that 
are explicitly seeking ATEAM support for their tanks.
    The program, again, seems to be in jeopardy because of what 
seems to me to be a bureaucratic machination that no single 
entity takes responsibility for the mission.
    You have a Four Star who is sending work to ATEAM believing 
that they have what they need to do to conduct the work. And 
yet, another Four Star at headquarters that disagrees, and your 
staff maintains that ATEAM cannot do the work.
    These different opinions and interpretations are putting 
the program at risk and threaten to derail contractual 
obligations that we have with our foreign partners. I worry 
that this will continue to unravel unless it is resolved.
    And so, General Lengyel, General Perna does not believe 
ATEAM needs a special repair authority to continue conducting 
their work and he also believes that they continue to work with 
foreign partners at your discretion.
    Can you please explain to me how you are going to reconcile 
and resolve the situation so that ATEAM can continue to enhance 
the readiness of the Army Guard and continue to do its work for 
our foreign partners?
    General Lengyel. Senator, yes, sir. And I do need to tell 
you that when I came and saw you last week, I was not aware of 
what my staff perceives as two issues. One is the special 
prepare authority, and two is utilization of Title 32 
technicians to perform duty on non-National Guard and non-DOD 
equipment.
    Those are two problems that I only became aware of as a 
large contract to do international work came to the ATEAM. They 
did not have an appropriate warrant to execute the contract, so 
they came to the National Guard Bureau to get that warrant.
    As my staff looked into it, they identified those two 
specific problems, special repair authority and Title 32 
technician issues with respect to doing FMS kinds of work, 
Foreign Military Sales kinds of work.
    I will promise you that within the next week, we will find 
out. I will talk to General Perna myself. I do not know what 
the, disconnect is. I hope we do not need special repair 
authority. I agree that the ATEAM provides good work, maintains 
a higher state of readiness for the Army. If he allows us to 
continue to do that work, I am happy to continue to do that 
work from the National Guard.
    The Title 32 issue is another issue with respect to how we 
use our Title 32 technicians and that requires, again, some 
work on my part to determine the way ahead here.
    Senator Moran. So General Perna, assuming that I am telling 
you his accurate position, and you determine that to be the 
case, then that would resolve one of the two issues?
    General Lengyel. It would.
    Senator Moran. And then, we still need to work through the 
Title issue?
    General Lengyel. Yes, sir.
    Senator Moran. And what do you foresee in that regard?
    General Lengyel. I have to find out, how are we doing? Why 
can we not do Title 32 technicians to do FMS?
    I do know that on the Air side, we have some Title 32 
technicians that train Foreign Military Sales cases with 
respect to F-16 training pilots. But training is a different 
category than regular and routine maintenance.
    So I can only promise you Senator, that I will look into 
this, and I will come to your office, and tell you what I find 
out.
    Senator Moran. Thank you, General Lengyel. I look forward 
to that. It may be our fifth meeting on this topic and I look 
forward to its resolution----
    General Lengyel. Yes, sir.
    Senator Moran [continuing]. In a favorable way toward the 
ATEAM.

                    RESERVE TRAINING SUSTAINABILITY

    Let me ask a broader question. I know that you all have 
deep respect and gratitude for families and employers. You have 
stated before that you recruit individuals, but retain 
families.
    I know that there is a lot of discussion lately about the 
role the Reserve component with Guard and Reservists deploying 
so frequently and participating in significantly more training 
days per year. Just the current operations tempo is such that 
we all have to have concern over sustainability of this whole 
Reserve force. My question is a general one.
    What request do you have of us, as members of Congress, to 
help you accomplish, to help us accomplish this? General 
Luckey.
    General Luckey. Yes, Senator. Senator, if I may, just to 
reiterate, I think, a point I touched upon in my opening 
statement.
    I think the most helpful thing that the senior leadership 
of the United States could do, in my opinion, for all of the 
Reserve components and Guard of all the Armed Forces is 
continue to support us at the strategic level.
    Messaging with, as I said, I think, in my opening remarks, 
your voice to your constituents, and your jurisdictions, and 
your States, and cities and towns with the influencers that are 
out there across America. How critical the sustained support of 
employers, whether they are from the private sector or other 
aspects of the public sector, academia.
    Continued support of employers is, for us, to share the 
best talent in America with the Armed Forces of the United 
States and the Reserve components thereof. And to make sure 
they understand that they are part of a strategic partnership 
that is ultimately underpinning the national security fabric of 
the United States.
    It has been said in this room, and it has been said many 
times in this place, that you have a more engaged operationally 
efficacious Reserve force, whether Guard or Reserve, at any 
time in the history of the United States of America, in my 
opinion.
    The way we sustain that--because I share your concern, 
Senator--the way we sustain that level of effort and readiness, 
ultimately, is going to hinge on the ability of employers to 
understand they are partnering with us to share this talent 
with America in respect to making sure we ensure the national 
security of the United States. That is the key.
    Senator Moran. General, I take from your answer that you 
believe the place to focus our attention is employers and their 
continued commitment to employing Guard and Reservists.
    General Luckey. Yes, sir.
    Senator Moran. Okay. I will not have time to ask this 
question, but General McMillian talked about suicide. I would 
be interested in knowing if there is evidence that suggests 
that the current tempo, the deployment and readiness 
requirements of our Guard and Reserve, has had a consequence in 
regard to Guard and Reserve suicide? And what the difference is 
between Guard and Reserve circumstances and the active 
military?
    General Luckey. So I note the time, but I would just say, I 
personally do not think the linkage is between deployments. I 
think it goes back to what General McMillian said earlier.
    One of the things we are focused on in the Army Reserve is 
looking particularly at financial stressors on families driven 
by potential issues with employment relationships. Did the 
overtime increase the stress on the family and on the soldier 
in our case? I am concerned about that being an accelerant or a 
potential motivating factor in some sort of self-destructive 
behavior.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank the Generals and the Admiral for being here 
today.
    I want to welcome Chairman Shelby to the head of the 
Appropriations committee. We look forward to working with you.

                    FOREST FIRE EQUIPMENT IN MONTANA

    General Lengyel, I just want to visit a little bit about a 
thing called fire buckets that we need in Montana. We burned 
1.25 million acres of land last year in the forest fire season. 
The equipment is critical. You have said in the past, you 
supported it. I assume that is that same way.
    When can we expect those buckets in Montana?
    General Lengyel. They are on the way, sir. Buying those 
buckets and you will have them this summer, I think.
    Senator Tester. They are in the mail. Okay, good. And then 
we have, this is a Military Construction, Veterans Affairs 
project also, but the apron for the C-130's up at the Air Guard 
unit on Gore Hill. I appreciate your push for that.
    General Lengyel. Yes, sir.

                          AMP 2 MODERNIZATION

    Senator Tester. As far as AMP 1 modernization, it is 
supposed to be done April 1 of 2020. Hopefully, you are looking 
at AMP 2.
    Could you give me a status of that?
    General Lengyel. Yes, Senator. AMP 2 is in the program. I 
think it is on course to be completed 2028. So it is out there 
and needs to be done. We need to watch it. We have a lot of old 
C-130's that need AMP 2.
    Senator Tester. And do you already have priority as to 
where you are going to start with the AMP 2?
    General Lengyel. Senator Tester, we do not, that I am aware 
of.
    Senator Tester. Okay. Well, I would just hope and I 
anticipate you will meet the deadline of April 1, maybe even 
exceed it, and you can seamlessly pop right into AMP 2 
modernization.
    General Lengyel. Yes, sir.

                            CHEMICAL CLEANUP

    Senator Tester. Thank you. I want to follow up a little bit 
on the Ranking Member's questions on the chemical cleanup 
because of the firefighting chemicals. And I really do not know 
the answer to this question.
    Are these chemicals used exclusively on bases in the foam 
or are these chemicals used out in the forest too?
    General Lengyel. Sir, I believe they are used in airports 
to put out fires all over the country, including civilian 
airports and the like. It is not just a military thing.
    Senator Tester. And in the forest too?
    General Lengyel. In the forest, I do not believe they are 
used in the forest.
    Senator Tester. Okay, so I guess the question I have, if 
this is an issue that is a big issue, which I do not doubt the 
Ranking Member's assessment of it.
    Why are we not looking for benign firefighting chemicals, 
such as the ones used in the forests?
    General Lengyel. Right.
    Senator Tester. Why are we not looking for those? Because 
if we are creating a problem with this, we need to stop the 
problem where it is being caused.
    General Lengyel. Well, I believe that over time, they will 
transition to a safer version of this fire retardant.
    Senator Tester. Because my understanding is they are out 
there.
    General Lengyel. Yes.
    Senator Tester. Okay.
    General Lengyel. Yes, they are.
    Senator Tester. I hope that would be done sooner than later 
because if we have a solution to a problem, we ought not to be 
creating more of a problem.
    General Lengyel. Yes, sir.

                BUDGET FOR ARMY NATIONAL GUARD READINESS

    Senator Tester. Okay. The National Defense Strategy focuses 
on preparing for the possibility of a near peer threat. The 
President's budget request reflects that.
    The Army National Guard is designated to protect the units 
as focused readiness units with additional training 
requirements. Meanwhile, they still have the traditional State 
requirements and Federal requirements, counterdrug, border 
protection requirements now.
    In your view, is the Guard receiving an adequate portion of 
the DOD resources to properly address all of its commitments 
that I have talked about?
    General Lengyel. Senator, we are receiving enough training. 
Our training readiness in the Army National Guard has increased 
over the last several years. We are now doing four combat 
training center rotations.
    Senator Tester. Okay.
    General Lengyel. We have enough dollars to do focused 
readiness units and to train our urgent units, which are some 
of the heavy brigades, and field artillery brigades, and 
striker brigades that require extra, additional training.
    Senator Tester. Yes.
    General Lengyel. The Air National Guard has enough funds to 
maintain required training for those events.

         MORE NATIONAL GUARD REQUIREMENTS AFFECTED RECRUITMENT

    Senator Tester. So as we see the training and operational 
requirements stack up, have you been able to assess what the 
impact is on any individual Guardsman, more training days, more 
deployments? Has it affected your recruitment?
    General Lengyel. Well, I can tell you that it will have an 
impact on some soldiers' ability to serve. I mean, there is 
clearly, in many of the units I just mentioned, a higher 
required level of sustained readiness, and that is the key.
    As General Luckey had mentioned earlier, it is finding that 
balance between what we can endure and sustain in our force for 
our business model to maintain a ready Force that can be ready 
fast enough to deploy when the Nation needs it. The world is 
different.
    So there will be some people that have to change into a 
different part of the United States Army that does not require 
that level of training. There will be some people that will 
adapt and do it, and be able to train at a higher level yearly. 
And there will be some people who just get into the National 
Guard now and that is just the way it is, and they do not know 
any different.
    Senator Tester. So as we ask more of the men and women of 
the Guard, are we doing enough to make up for the time away 
from their families, their communities, and their career? I am 
talking specifically about things like TRICARE for units with 
high operational tempos, retention bonuses, and incentive pay.
    General Lengyel. There is a requirement to help sustain our 
Force over time, I think, for increased bonuses and increased 
incentive pay to help retain our Force.
    I think a sustained level of funding and budgets, as we 
talked earlier in this hearing, about the devastating effects 
that cancelling drill weekends on soldiers, and airmen, and 
sailors, and Marines who actually plan to go to a drill 
weekend, and then show up, and are told to go home.
    That devastates the ability to maintain these talented 
Americans who desire to serve in the Reserve component.

                      NATIONAL GUARD AT THE BORDER

    Senator Tester. One last question. You said that the 
Guardsmen that are currently being used on the southern border, 
965 of them, are being drawn from the four border States. You 
talked about 450,000 people being in the Guard and said that it 
is not going to have an impact.
    Have you done an analysis on the impact to those four 
border States? The 965, what percentage is that of the total 
folks that serve in Texas, California, New Mexico, and Arizona?
    General Lengyel. So Texas is the biggest National Guard in 
the country. There are 20,000 folks just in Texas.
    Senator Tester. Okay.
    General Lengyel. I have spoken with every adjutant general 
in the four border States, only three right now are actually 
providing. California has yet to put anybody on the border.
    Senator Tester. Okay.
    General Lengyel. But they may in the future. All TAG's, all 
The Adjutant Generals, have told me that right now, at this 
level of effort, they can sustain this inside their States.
    Senator Tester. That is what I needed to know. And the last 
thing, and you answered it, I think, in previous questions, so 
you do not have to answer this, but the rules of engagement are 
clear on the southern border.
    General Lengyel. They are clear.
    Senator Tester. Okay. Thank you.
    Senator Shelby. Senator Udall.
    Senator Udall. Thank you, Chairman Shelby and also welcome 
to the committee. It is going to be a pleasure working with you 
on this, on the full Appropriations committee and the SACD 
(Senate Appropriations Committee on Defense) committee.
    The Department of Defense established new policies for 
maternity leave as part of the Force of the Future initiative 
in 2016 and it authorized 12 weeks of fully paid maternity 
leave after normal pregnancy and childbirth.
    However, this does not take the total Force into 
consideration. Under the current law, Reserve component members 
in Reserve training status are required to attend unit training 
assemblies--that is the weekend drills--in order to receive 
points towards credible military service.
    If the female service member does not perform duty within 
the allotted timeframe, the service member is in jeopardy of 
not receiving credit for their military service and points 
towards retirement.

                    MOTHERS OF MILITARY SERVICE ACT

    I introduced an amendment with Senators Rounds, Boozman, 
Murray, and Heinrich last year to the NDAA which I plan to 
reintroduce as a standalone bill as well to fix this problem. 
It is called the Mothers of Military Service or MOMS Leave Act 
would ensure that female service members of the Reserve 
component receive points for six unit training assemblies 
towards their retirement after normal pregnancy and childbirth.
    There are approximately 153,802 women in the National Guard 
and Reserves who are currently not entitled to be paid 
maternity leave. The National Guard Association of the U.S. has 
given full support to fix this problem, yet I have received 
pushback from the Department of Defense stating, in essence, 
that this proposal is too expensive. I believe this is 
outrageous considering the record amount of money this 
committee has approved for DOD in recent years.
    Are you aware of any issues with the legislation that would 
cause the Guard to object to the Congress advancing it this 
year?
    General Lengyel. Sir, I am not aware of any reason to 
object.
    Senator Udall. Would you agree that taking care of our 
female service members after childbirth is an important effort 
to ensure retention of female Reservists and Guard members, and 
also an important job for any leader?
    General Lengyel. Senator, I would.
    Senator Udall. And can I count on our support inside the 
Pentagon to address this issue and help make this legislative 
fix?
    General Lengyel. Senator, you can.
    Senator Udall. Thank you very much.

             AIR NATIONAL GUARD NEW MEXICO FLYING SQUADRON

    One of the Air National Guard's capstone principles was to 
allocate at least one unit equipped with wing and flying 
squadron in each of the 54 States and Territories. Currently, 
of the 50 States, 4 do not own their own aircraft including New 
Mexico.
    The New Mexico delegation has made several proposals to 
bring back a flying mission to the New Mexico Air Guard. I 
asked last year whether there was a plan in place to ensure New 
Mexico will be unit-equipped with a sustainable and viable 
mission in the near future. I mentioned that the CV-22 mission 
was one possible option for the 150th ANG.
    Last year, I led a letter from the New Mexico delegation to 
Secretary Wilson urging the transfer of the HH-60G's to the 
150th ANG.
    Mr. Chairman, I would like to include the full letter in 
the record.
    Senator Shelby. Without objection, it will be included.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Udall. What is the current status of getting a 
flying mission back to New Mexico? Is there any reason why New 
Mexico, a border State with excellent flying conditions and 
mountainous terrain, perfect for training, should be without a 
flying mission?
    Senator Lengyel. Senator, I would love for there to be an 
opportunity to put an aircraft unit equipped flying mission in 
every State.
    I tell you, the 150th is flying a lot of airplanes 
associated with the Active component Air Force, with the Active 
duty Air Force, and doing a great job for our country and for 
our Air Force. But I am not aware at this time of any planned 
build of a unit equipped flying mission in the State.
    Senator Udall. Okay. We are going to keep pushing for one, 
and we hope that you will find a way to do this. The flying you 
mentioned is also very important.

                      BORDER DEPLOYMENT FOLLOW UP

    I want to follow up on what Senator Durbin and several 
other members asked about in terms of the border deployment.
    We have seen the National Guard deployed to the border 
before, most recently in 2010 when there was a significant 
spike in cartel activity and violence on the border. The Guard 
was able to go down and act as a force multiplier, as you have 
talked about, General, and helped the CBP address an actual 
threat to safety along the border.
    But today, the facts on the ground just do not support what 
the President has called for. Sheriff Vigil of Dona Ana County, 
one of our largest counties, which is on the border in New 
Mexico, met with Attorney General Jeff Sessions last week. 
Sheriff Vigil says the border is not experiencing the crisis 
the Trump Administration claims and he says building a wall and 
sending in National Guard troops would be a waste of money.
    The Police Chief in Sunland Park, he is right down on the 
border, has a view of the border fence from his office. He says 
they have very little immigration-related crime. Sunland Park 
was just named the second safest city in New Mexico.
    Sheriff Vigil says, and I agree, that smart border 
technology would be a much more effective and efficient 
security investment.
    General Lengyel, prior to the President's announcement 2 
weeks ago, had the White House consulted with you, or anyone in 
your leadership, to discuss the possibility of sending National 
Guard troops to the border?
    General Lengyel. Senator, prior to the 4th, no one 
consulted with me about sending people to the border.
    Senator Udall. And what is the specific reason the White 
House has given for the need to deploy the Guard to the border?
    General Lengyel. To assist the Department of Homeland 
Security and the Customs and Border Protection with the 
security at the border, which is a national security issue.
    Senator Udall. Well, the President's announcement talks 
about, I believe his quote, or his tweet, or whatever it was, 
said, ``Until we can have a wall, we are going to be guarding 
our border with the military.'' So that suggests that he did 
not get his wall, so that the reason for doing this is kind of 
a supplement to that.
    Would you agree with that?
    General Lengyel. Sir, the National Guard is there because 
Customs and Border Protection have identified areas where they 
can be assisted by the deployment of National Guard troops to 
help them secure the border.
    Senator Udall. Thank you very much, General. Really 
appreciate all of you here and appreciate your service.
    Senator Shelby. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    I want to thank you all for appearing before this committee 
today and for your selfless service to our great Nation.
    As the son of a Marine from the 58th Rifle Company, 
Billings, Montana, I am mindful of the unique challenges our 
citizen soldiers face. These young men and women balance the 
commitments of both a civilian and a military career, while 
also raising families and being leaders in their own 
communities.
    Roughly, 4,550 Guardsmen and Reservists from the Army, 
Navy, the Air Force, and Marines call Montana home. It is my 
great honor to represent them here in the United States Senate.

             DEFENSIVE CYBER TRAINING IN THE NATIONAL GUARD

    Last October, I sent a letter to Secretary Mattis 
concerning cyber attacks on civil networks, and the unique 
capability the National Guard brings to bear under Title 32 
authority.
    A third of this subcommittee joined me and we together, we 
increase funding for defensive cyber training and growth in the 
National Guard.
    General Lengyel, it is good to see you again.
    Can you provide a brief update on the National Guard's 
efforts to grow cyber capability, particularly where it could 
help address risks to the homeland under Title 32?
    General Lengyel. Yes, sir.
    So we are a robust part of the Army and the Air Force Cyber 
Mission force. We have 11 cyber protection teams in the Army 
National Guard. We have 15 cyber operation squadrons in the Air 
National Guard. All of that force trained in order to do our 
Federal mission is available in State active duty status for 
Title 32 inside the State when they are not on mission.
    Right now, we have one cyber protection team on mission, 
Title 10 at Fort Meade, and we have two cyber protection teams 
who are on mission as part of the Air Force cyber mission 
force.
    Additionally, every State, Senator, as you know, has a 
defensive cyber operations element in their State. It is a 
small cadre, about the size of 10 people. Just recently, the 
State of Washington has conducted a great pilot program to use 
this to help protect critical infrastructure inside the State.
    So more broadly, me and the NGB are looking to start a 
pilot program to three additional States to use in an active 
duty status and a Title 32 status defensive cyber operations 
element in this emerging mission field.
    Senator Daines. Yes, I appreciate your efforts there, 
General Lengyel. It is clear this is one of those areas that is 
only going to increase in terms of activity, and we need to 
continue to grow our capabilities.
    I want to also recognize the soldiers of the 189th Aviation 
Regiment who deployed last fall in harm's way and those are the 
495th Combat Support and Sustainment Battalion who are prepared 
to deploy later this year. We certainly wish them well and look 
forward to their safe return home.

                  FULL-TIME SUPPORT IN NATIONAL GUARD

    General Lengyel, considering the amount of training it 
takes to make a soldier or airmen deployable, and the limited 
number of training days available, does the Guard have enough 
full time support to maximize the training value for every 
drill weekend?
    General Lengyel. Senator, my biggest task is for this new 
operational National Guard that we are, is we have to be 
resourced with the appropriate level of full-time people inside 
our formations, so that when the part-time soldier or airmen 
come to work, they have equipment that works. They have 
training planned and operationally ready to go into the field 
immediately and do their wartime training tasks.
    So the short answer is, I believe, we do not. Right now we 
have currently, part of our Force, there is about 16.5 percent 
of our Force is full-time. In order for me, I believe, to have 
the Force ready enough so that we can be a part of this ongoing 
operational Force that we are, we need about 20 percent of our 
Force to be full-time.
    So over time, we need to grow the number of full timers in 
our units across the Nation.

                   NATIONAL GUARD AIRCRAFT SHORTFALLS

    Senator Daines. As follow up, as Congress and the 
Administration work together to rebuild our military, I 
understand that some Army National Guard aviation units are 
still experiencing significant shortfalls. In fact, Guard 
Apache units are operating at 75 percent of their equipping 
requirement. Blackhawk units are planned to fly their oldest 
UH-60A models well into the next decade.
    My question for you, General, how is the Department 
addressing these shortfalls?
    General Lengyel. So as it relates to readiness, you are 
exactly right. You mention the Apache issue.
    We have, as a result of the National Commission on the 
Future of the Army, a recommendation that we maintain four 
battalions of Apaches inside the National Guard. They 
recommended--at least initially based on the financial and 
fiscal situation in fiscal year 2016--that they have 18 
aircraft in each battalion to do it.
    Also in that same Report, it does suggest that should the 
Department find additional resources, that they would grow 
those battalions to 24 aircraft in each one.
    As it stands now, when we deploy an Apache battalion, and 
we have one deployed, we have to take from the remaining three 
National Guard battalions' aircraft to make sure they have 
their full complement to deploy.
    So, as you can see, if we are going to deploy one battalion 
at a time, we might be able to make that do. But if we ever 
needed to deploy multiple battalions, it is high risk to us 
being able to do the mission with just 18 aircraft in each 
battalion.

                         UPDATE ON READY FORCE

    Senator Daines. Lieutenant General Luckey, last year, you 
introduced this subcommittee to the Ready Force X construct, 
which you described as the Army Reserve's driving force for 
manning, equipping, training, and deploying key capabilities.
    The 89th Quartermaster Supply Company out of Great Falls, 
Montana and the 823rd Movement Control Detachment out of 
Missoula are part of that Force.
    The question is, can you provide us an update on Ready 
Force X? How is it improving the readiness of our operational 
reserve?
    General Luckey. Senator, absolutely. Thanks for the 
question.
    I would say what it is really doing, as I said in my 
opening statement, is enabling us to see the current status 
from a readiness perspective of certain formations, identify in 
space and time when they need to be fully mission capable from 
a combat perspective, and how much time does it take us to get 
from steady state where we are able to completely and 
responsibly deploy that capability into combat?
    Since I met with you last year, I will tell you that we 
have done a significant amount of analytics and put a 
significant amount of both funding and, in particular, key 
training events and time into training specific formations to a 
higher degree of readiness.
    That said, I do not want to leave here without making it 
very clear. This is not about turning a third of the Army 
Reserve into a fight tonight type capability. That is not what 
RFX is.
    What it really does is it enables us to see ourselves, to 
understand and appreciate risk, and then to identify for senior 
leadership, both in the Department of Defense and beyond, how 
much time is it going to take us to get to where we need to be 
to put those capabilities into combat.
    When I sat here before you last year, we looked at about 
300-some-odd formations. Frankly, we have now more than doubled 
the number of formations that we are looking at where we are 
doing very rigorous analytics. Those capabilities that you just 
mentioned that are in Montana, I will just say, those are 
critical enabling capabilities for the Army. Not just for the 
armies or the Army to be able to be placed in an integrated 
fashion into the total Force very quickly into combat.
    My responsibility as the leader of this team is to make 
sure I am identifying how much time is it going to take? 
Frankly, readiness for us is about more than just money. Time 
is a big component of what we need to be able to get these 
capabilities straight, get them deployable, and to make sure we 
are letting senior leaders know how much time we need to do 
that.
    Senator Daines. Thank you, General Luckey.
    General Luckey. Yes, sir.
    Senator Daines. I am out of time, Mr. Chairman. Thank you.
    Senator Shelby. Thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    And thanks to each of our witnesses today for your service 
and for your presence.

              EQUITABLE BENEFITS NATIONAL GUARD VS. ACTIVE

    In the last few years, Congress has taken a number of key 
steps towards reaching benefits parity between Active and 
Reserve components. I have eagerly supported those efforts, but 
there is certainly more work to do.
    I will soon be introducing a bill to correct current 
inequity in law and in DOD policy that precludes the awarding 
of retirement points for distance learning.
    Such a prohibition disproportionally harms members of the 
Reserve components who hold civilian jobs and cannot attend 
military-related educational programs in residence.
    For example, my office was contacted recently by an Army 
Reserve officer from Wisconsin who is attending the Army War 
College via distance learning.
    In addition to her military and civilian jobs--unlike her 
Active component counterparts who attend in residence and as 
full-time students--she will not be awarded points towards her 
retirement. I believe this is simply unfair and hinders the 
Reserve component's ability to recruit and retain talent.
    My question to each of the witnesses is, do you support 
fixing this inequity? Why do we not start with you, Lieutenant 
General Miller?
    General Miller. Thank you, Senator, for that great 
question.
    In the Air Force Reserve, we give credit for completed 
distance learning, one point for the completion of a course up 
to 130 points per year. Pay is not part of that and I know 
there has been a lot of discussion about the pay end of it. But 
for the Air Force Reserve, we do provide that.
    Senator Baldwin. Okay.
    General Luckey. Senator, thanks for the question.
    Without necessarily conceding any inequities, what I would 
say is that in addition to supporting and agreeing with our 
contention that we should be much more expansive in how we look 
at leveraging technology because, frankly, there is a lot of 
training that could be done online.
    And to give some sort of credit, both as a matter of 
professional development and readiness of the Force, give some 
credit for the time soldiers are spending doing that, I think, 
makes sense. I just think it is intuitively a smart thing to 
do.
    Whether it should be limited to one component of the Army 
or one component of the services, or whether that is just a way 
we should, if you will, leverage emerging technologies, I would 
leave that for others to decide. I am very supportive of it.
    The reason I am making the statement the way I am is, 
frankly, looking at other ways to increase this conversation or 
increase the scope of this conversation to go beyond just what 
we regard as classic professional military education, but 
actually other aspects of training that we need to get done. 
But frankly, the time is better spent, in many cases, letting 
soldiers, at least in our case, do that on their own time in 
different environments.
    So that when we are together--as General McMillian had said 
earlier about getting the collective training experience and 
maximizing the opportunity to use those hours when soldiers, in 
our case, are together--to get the unit readiness that we need 
to sustain the force and be able to deploy quickly.
    Senator Baldwin. Thank you.
    General Lengyel. Senator Baldwin, I agree with General 
Luckey. I think that Reservists balance their civilian lives 
and their military lives all the time.
    There are many, many times and many things they do that 
they do not get paid or compensated on retirement points for 
things like school. If we can find ways to get them retirement 
credit, I would fully support it.
    Senator Baldwin. Great, thank you.
    Admiral McCollum. Senator, a Reservist is at their best 
when things are good with their employer, and with their 
family, and in a good place with their uniformed requirement. 
Readiness generation being the predominant indicator of a 
Reservist being in a good spot is generating readiness.
    We focus on what are the enablers? Things like distance 
learning, as you mentioned, and the capability to do that. 
Mobility and technology is one such activity.
    Recently, we introduced to the Reserve Force the ability 
for a Reservist to use their own personal devices and plug-in a 
device simply to hold their CAC Reader and it gives them 
authentication, which will preclude them from having to come 
into the Reserve center to be able to do that requirement. If 
we can authenticate that they have done that requirement, we 
can give them credit.
    Previously, it was the auditability of a member 
accomplishing that requirement. Enablers such as this allow us 
to be able to do that auditability and give them credit.
    But in large, we support that, especially if it is in line 
with the readiness and it puts them in a good spot with their 
employer, their family, and their service requirement.
    General McMillian. Thank you, Senator. A great question. 
This is what drives me are those 38 days that General Luckey 
and I have alluded to.
    I cannot think of anything more difficult than to get our 
young volunteer men and women ready for combat. The worse thing 
we could actually ask them to do in 38 training days throughout 
a calendar year. So I need to do at-home, online training for 
the basic elements of the training that we do.
    I am fully onboard with the points, but I will tell you 
young Captain McMillian in 1990 and the Sergeant McMillian of 
the day, and the Lance Corporal McMillian, and the Gunnery 
McMillian have a hard time looking out 20 years where the 
points will have a benefit. We need to get paid.
    But I think it has become too complex now as a Commandant, 
we would call the next generation Marine Corps to be ready for 
combat without putting in that extra effort in between drills.
    I need my Marines on drill weekend to be out in the dirt, 
moving, shooting, communicating, and putting rounds downrange. 
I need them to prepare for that at home, online, with points 
and pay.
    Thank you for the question.
    Senator Baldwin. All right. Thank you.
    We will be consulting as we finalize this bill, and I hope 
my colleagues join me.

                 AIR FORCE ENVIRONMENTAL REVIEW PROCESS

    One quick, final question before my time runs out.
    General Lengyel, I am extremely proud of the men and women 
at the 115th Fighter Wing located at Truax Air National Guard 
Base in Madison, Wisconsin. It has been a true honor to partner 
with them in their successful pursuit of the F-35 mission. It 
is my understanding that the Air Force's environmental review 
process is underway.
    Can you please provide a status update and an overview of 
next steps?
    General Lengyel. Yes, ma'am.
    As you are probably aware, the squadron was recently chosen 
as a preferred alternative to locate the F-35. Congratulations 
to Wisconsin. It was a rigorous competition to look at the 
place, cost, ranges, airspace, affordability to do it and Truax 
came out as Ops 5 and that is a great thing.
    I believe it is 2023 is currently the program for when the 
airplanes are supposed to arrive or begin operations in the F-
35.
    I am not specifically aware of the environmental, the issue 
you mentioned, but I will check, and I will come to your 
office, and get back to you.
    Senator Baldwin. Very good. Thank you.
    General Lengyel. Yes.
    Senator Baldwin. I will submit an additional one for the 
record, but mostly just to follow-up on that last point, but 
thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. We would ask that all Senators' questions 
be answered in a reasonable time, perhaps 30 days. Some 
Senators were not here today because they were in competing 
committees.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Joseph L. Lengyel
             Question Submitted by Senator Mitch McConnell
                     army national guard promotions
    Question. I have heard from a number of my Kentucky National Guard 
constituents who are concerned about noticeable delays in Army National 
Guard promotions. Can you please provide an update on efforts to help 
ensure officers are promoted in an appropriate and timely manner?
    Answer. The Army National Guard (ARNG) is aware of the increased 
processing timelines for the Federal Recognition Process. The ARNG Unit 
Vacancy Promotion Federal recognition processing timelines increased 
from an average of less than six month to over 7 months due to a 
manpower issue at the Army's Director of Military Personnel 
Management's (DMPM) Office in the summer of 2017. To help reduce 
processing time, the ARNG is now able to electronically transmit 
promotion packets to the Army. DMPM and the ARNG continue to monitor 
promotion scroll processing times. The ARNG and DMPM are working 
closely to ensure ARNG Officers without any derogatory information are 
federally recognized within the standard timeline of approximately 180 
days.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
            deployment tempo of kc-135 crews and maintainers
    Question. The 101st Air Refueling Wing (ARW) in Bangor, Maine, the 
``MAINEiacs,'' continues to deploy and operate at very high rates. The 
101st ARW handles over 1,000 transient aircraft a year, and provides 
air refueling planning for coronet missions of joint and allied fighter 
aircraft moving from the continental United States to locations 
overseas. I am concerned that the operational tempo has stressed the 
force considerably and affected its readiness and training. Are you 
comfortable with the current deployment tempo of KC-135 crews and 
maintainers? What can be done to effectively sustain and maintain 
readiness of workhorse units like the 101st in Bangor?
    Answer. While the operational tempo remains high across our KC-135 
community, the Air National Guard (ANG) deployment ratio is gradually 
decreasing. From 2014 to 2017, KC-135 units like the 101st Air 
Refueling Wing, averaged a 1:4 mobilization-to-dwell ratio. The 
mobilization-to- dwell ratio in fiscal year 2018 was 1:5 for KC-135 
aircrews and maintainers.
                       state partnership program
    Question. With the assistance of the Maine National Guard through 
the State Partnership Program, Montenegro has worked hard to reform its 
military and to strengthen the rule of law to come into compliance with 
NATO requirements. Montenegro officially joined NATO last summer, which 
will promote stability in the Balkans and increase American and 
European security. How can Congress support the National Guard and the 
State Partnership Program to build relationships and improve our 
national security at home and abroad?
    Answer. The State Partnership Program (SPP) and the National Guard 
enjoy outstanding support from Congress. The security cooperation 
reforms in the National Defense Authorization Act (NDAA) for fiscal 
year 2017 created many opportunities for the National Guard and the 
SPP. For example, the reforms enable better integration of the SPP into 
the DoD security cooperation enterprise, thereby strengthening the 
National Guard's contribution to U.S. national security interests.
    SPP funding has been flat for many years as dozens of partner 
countries have been added. As a result, SPP activities for each partner 
have been reduced. The full program requirement is about $29 million 
and would permit the level of state and partner activity that existed 
before adding new partnerships.
                  national guard counter-drug program
    Question. The National Guard's Counter-Drug Program has been very 
successful in supporting law enforcement agencies and community based 
organizations to counter illicit drug activity around the country. In 
fiscal year 2018, the National Guard Bureau received $236.4 million for 
this program. This year's budget only requests $117 million. Are you 
concerned that this decrease in funding may negatively affect our 
communities and the counter-drug mission?
    Answer. The President's fiscal year 2019 budget request for the 
National Guard Counterdrug Program is in line with recent requests. In 
fiscal year 2018 the President's budget request was $116.4 million, but 
with Congressional support the program was appropriated $236.4 million. 
An additional $25 million was appropriated for the Counterdrug Program 
Training Centers. The additional funding provided by Congress has 
permitted a more robust Counterdrug program.
                                 ______
                                 
               Question Submitted by Senator Steve Daines
                   national guard counterdrug program
    Question. A top priority for me in Congress is to stop the tragic 
methamphetamine epidemic that is destroying lives across Montana. I am 
proud of the work the Montana National Guard has done through the 
Counterdrug Program to augment Federal, State, and local law 
enforcement where resources are scarce--particularly the Bureau of 
Indian Affairs, which does not have its own criminal analysts.
    General Lengyel, as the Guard dedicates resources within the 
counterdrug program, how does it balance the availability of existing 
resources in each State and municipality, to ensure large rural areas 
aren't left behind?
    Answer. A Counterdrug Coordinator in each of the 54 States and 
territories determines how best to assign support to requesting 
agencies, in accordance with the governor's State counterdrug plan.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                    national guard bureau structure
    Question. In December 2012, the National Guard Empowerment Act 
became law, adding the Chief of the National Guard Bureau as a 
statutory member of the Joint Chiefs of Staff, in order to provide an 
institutional change so the Nation could have use of a structurally 
enabled operational reserve. What structural or institutional barriers 
both within the Bureau and the Department remain to achieving that 
objective, and what legislative proposals are needed to lift those 
barriers and ensure the National Guard Bureau has equal standing?
    Answer. Since the National Guard Empowerment Act became law in 
2012, there are several areas, both in policy and statue, which could 
be addressed to better enable the Guard to be an operational reserve. 
The Chief of the National Guard, as both a four star general and member 
of the Joint Chiefs of Staff, has real and perceived responsibility for 
activity in the National Guard of the States and activity in National 
Guard Bureau. These responsibilities should be examined and be better 
supported with commensurate authority. To ensure the National Guard is 
a structurally enabled operational reserve with the necessary 
resources, the Nation will need a cadre of senior National Guard 
leaders of an appropriate rank represented at the appropriate levels in 
the Army, Air Force, Joint Staff, Office of the Secretary of Defense, 
and the Combatant Commands. Additionally, it is time to ensure that the 
most readiness enhancing National Guard programs are set at funding 
floors necessary to ensure Guard forces deliver the lethality required 
in the warfight, and the rapid response pivotal in the homeland.
                           hurricane response
    Question. Among your many roles as the Chief of the National Guard 
Bureau, you are the statutory advisor to the President on the use of 
the National Guard in a non-Federal role. How many times did you brief 
the President on National Guard response related to Hurricanes Harvey, 
Irma, and Maria?
    Answer. The Chief of the National Guard Bureau (CNGB) did not brief 
the President, but the National Guard Bureau was involved in the key 
discussions within DoD and with DHS related to the hurricane response.
    Question. What portion of the All-Hazards Support Plan developed 
between the National Guard Bureau and several States was utilized?
    Answer. NGB utilizes the All-Hazards Support Plan to guide internal 
staff activities in support of the States at the onset of emergent all-
hazard events and is a tool CNGB uses to fulfill the statutory 
responsibility of advising on the non-Federalized National Guard. The 
plan helps organize NGB's response so its staff can best support the 
impacted State, territory or district and guides the sharing of 
information with Federal response partners. To inform all activities 
associated with response to Hurricanes Harvey, Irma, Nate and Maria, 
NGB followed Appendix 2 ``hurricane'' to Annex C ``operations'' of the 
All-Hazards Plan. The purpose of this plan is to guide NGB in the 
preparation and execution of its response to a hurricane making 
landfall within the United States and/or its Territories. Appendix 2 
describes the ends, ways, and means by which NGB will support a 
response following a catastrophic hurricane event and inform Federal 
partners through supporting actions, capabilities and anticipated 
timelines.
    Question. What recommendations would you have for better 
coordinating Federal and non-Federal responses to disaster and 
emergency efforts?
    Answer. After each disaster, the National Guard reviews its 
performance and determines where it can improve for the next response. 
After the 2017 hurricane season, NGB reviewed and republished hurricane 
plans and improved coordination between Federal and non-Federal 
entities. However, the reimbursement of supporting States remains a 
challenge to better coordinating future response efforts. Faster 
reimbursement or up front funding to States willing to provide needed 
support would address some States' concerns. For example, 37 States 
have balanced- budget amendments that constrain their ability to 
provide support, and some States simply don't have the ability to 
initially absorb the associated costs and wait for likely 
reimbursement. The solution may be found in legislative or policy 
changes that would involve FEMA as well as the DoD.
    Question. When several States requested of the President Federal 
response funds under Title 32 of U.S. Code to continue the deployment 
of their National Guard personnel to assist Puerto Rico and the Virgin 
Islands with recovery, the President referred their requests to the 
Department of Defense. The DoD ultimately denied the requests, in part, 
over concerns that the Department would not be reimbursed under the 
Stafford Act. The Department of Defense suggested that States should 
apply for reimbursements directly from the Department of Homeland 
Security. However, the DoD is using the same section of U.S. Code to 
authorize payments for deployments on the Southwest Border without a 
clear estimate of total cost for these operations, without identifying 
which funds for training will be shifted to cover the cost, and without 
knowing whether the President will ask Congress for additional funds to 
replace those shifted. Why can risk of a loss of training funds be 
accepted for the border mission, but not for responding to Americans 
who are facing the results of a natural disaster?
    Answer. Hurricane response and the current border mission present 
very different situations. States have the lead for hurricane response, 
which the Federal government supports with partial reimbursement 
funding after the requisite Federal declaration. The Federal government 
acts to support State hurricane response. The border mission, by 
contrast, is a federally conceived effort to support the Federal 
Customs and Border Patrol by providing Federal funding to obtain State 
National Guard support for the Federal border security mission.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
         national guard tactical wheeled vehicle modernization
    Question. General Lengyel, you have made progress building a 
balanced array of combat and enabling forces, increasing the National 
Guard's overall interoperability with the Joint Force; however, I'm 
concerned that recent administration budget requests have not kept pace 
with your tactical wheeled vehicle (TWV) modernization requirements. I 
note, for example, that the fiscal year 2019 President's Budget request 
contained no funding for recapped heavy TWVs for the Army National 
Guard. In fact, the fiscal year 2019 budget request zeroes out funding 
for the HEMTT recap program for fiscal year 2020-fiscal year 2023 and 
only provides funding for 19 PLS recaps for the Active component in 
fiscal year 2021. As a consequence, the Army National Guard, like all 
of the Reserve Components, increasingly relies on the National Guard 
and Reserve Equipment Appropriation to build readiness and sustain 
forces compatible and integrated with the ``Total Force.'' While NGREA 
has enabled the Army National Guard to slowly and partially fill 
critical requirements, as a planning tool, it is unpredictable as it 
falls outside normal appropriations and limits the ability to forecast. 
So we can better understand your equipping challenges, what are your 
current and anticipated TWV unfunded priorities?
    Answer. The Army National Guard's Tactical Wheeled Vehicle unfunded 
priorities are within the Palletized Load System and Heavy Expanded 
Mobility Tactical Truck fleets. The Army National Guard has modernized 
55 percent of the Palletized Load System fleet and would require $226 
million to complete modernization of the fleet. The Heavy Expanded 
Mobility Tactical Truck fleet is 59 percent modernized and would 
require $398 million to complete modernization.
    Retirement Credit for Distance Learning
    Question. It is my understanding that an ambiguity in current law 
(Section 12732(a) of Title 10) regarding the awarding of retirement 
points has resulted in inconsistencies across the Services related to 
the treatment of distance learning. The specific language in question 
entitles a service member to one retirement point for each day ``while 
attending a prescribed course of instruction at a school designated as 
a service school by law or by the Secretary concerned.''
    It is my further understanding that individual Services are 
interpreting this language differently in regard to whether distance 
learning qualifies. Adding to the confusion, I have heard that there 
may exist a 2013 DoD Instruction that prohibits the awarding of 
retirement points for distance learning. Such a prohibition 
disproportionately harms members of the reserve components who hold 
civilian jobs and cannot attend military-related educational programs 
in-residence.
    I will soon be introducing a bill to address this uneven treatment 
of distance learning and give the Secretaries of the Military 
Department clear statutory authority to award retirement points for 
distance learning.
    My multipart question for each witness is:
  --Do you support awarding retirement points for approved distance 
        learning?
  --Does your Service currently award retirement points for approved 
        distance learning?
    --If so, under what statutory authority and under what DoD and 
            Service regulatory authority?
    --If not, why not, and please include any statutory or policy 
            prohibitions against doing so?
    Answer. The National Guard is supportive of awarding retirement 
points for approved distributed learning courses as authorized in 
chapter 1223 of title 10, United States Code and in Department policy 
contained in DoDI 1215.07, most recently updated in 2016.
    The Air National Guard (ANG), in accordance with DoDI 1215.07, 
authorizes the award of retirement points for distance learning 
programs when a Guardsmen is in a pay status. Air National Guard 
Instruction (ANGI) 36-2001, Section 1.8, authorizes unit commanders to 
issue written authorization governing training, regardless of pay 
status, and Section 1.8.6. awards Extension Course Institute points for 
approved courses, including distance learning programs.
    The Army National Guard authorizes the awarding of retirement 
points for pre-approved distance learning programs only when a 
Guardsmen is in a pay status. This is in accordance with DoDI 1215.07.
                                 ______
                                 
      Questions Submitted to Lieutenant General Charles D. Luckey
             Question Submitted by Senator Patrick J. Leahy
                     training and force generation
    Question. Under the Ready Force X, concept you aim to have the 
individuals and units of the U.S. Army Reserve deployable as an 
operational reserve on a much shorter timeline than previously 
envisioned. How do you intend to prepare and support employers and 
families, such as those of Rutland's 424th Vertical Construction 
Company, for the increased operations tempo for their soldiers?
    Answer. Maintaining higher unit readiness requires additional 
participation and commitment by all unit members. This may cause 
friction and stress within the Soldier's Family, as well as uncertainty 
for civilian employers. To mitigate the friction, the Army Reserve has 
policies in place and programs to support the needs of the force. 
Employers are our partners in national security and the Army Reserve is 
making a concerted effort to inform them about the possibility of 
increased training and a reduced deployment timeline for some units in 
hopes of easing their concerns and maintain their support. For Soldiers 
and their Families, service to the Nation requires a delicate balance 
between being ready enough to be relevant, but not so ready that it 
negatively affects their ability to maintain good, rewarding civilian 
employment.
    The Army Reserve offers the following programs to promote readiness 
and prepare Soldiers and Families to deal with military separations:
  --Strong Bonds is a Chaplain-led relationships and skills training. 
        This program targets single Soldiers, couples, and Families. 
        Strong Bonds enhances unit and individual readiness by building 
        Soldier and Family relationships, readiness, and resiliency. 
        Enhancing these skills prior to Family separation provides 
        Soldiers and Families a foundation for dealing with the 
        uncertainties of shorter notice separations.
  --Yellow Ribbon Reintegration Program (YRRP) is a congressionally-
        mandated, Department of Defense-wide effort to promote the 
        well-being of National Guard and Reserve members, their 
        Families, and communities by connecting them with resources 
        throughout the deployment cycle. YRRP events connect Soldiers 
        and their Families/designated representatives to resources and 
        support before, during, and after deployments. Provisions have 
        been put into place by which these events can be hosted to meet 
        the unique timelines and needs of units identified as 
        deployable on a shorter timeline.
  --The Army established Comprehensive Soldier Family Fitness (CSF2) to 
        increase the resilience and enhance the performance of the Army 
        Family--Soldiers, Department of the Army Civilians, and their 
        Family members. The program places emphasis on ways to sustain 
        personal readiness and enhance performance by learning coping 
        skills. Instruction on ways by which these skill enhancement 
        classes can be incorporated into the unit are provided to both 
        command teams and the volunteers supporting Families.
  --Family Readiness Groups are Department of the Army authorized, 
        command sponsored organization of Soldiers, civilian employees, 
        Family members and volunteers designed to provide activities 
        and support that encourage self-sufficiency among its members 
        by providing information, referral assistance, and mutual 
        support. The formation of these grass-roots support groups 
        provide a means by which Family members of Soldiers who are 
        deployable on shorter timelines can support one another and 
        solve problems at the lowest level.
    Finally, the Army Reserve has Fort Family Outreach and Support 
Center, which is a toll-free call center that provides live, relevant 
and responsive information, as well as community-based solutions, to 
support Army Reserve Soldiers and Families. Fort Family is available at 
1-866-345-8248.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                     army reserve jltv procurement
    Question. General Luckey, I understand that you were able to use 
NGREA money from last year to purchase JLTVs that will be delivered in 
the fall. I'm glad to see that because I was concerned with the 
original Army acquisition plan that wouldn't have provided the vehicles 
to the Reserve until 2024. Can you tell me why it's important for the 
Army Reserve to field the JLTV and what your acquisition plans are 
moving forward?
    Answer. The Army Reserve appreciates continued congressional 
support for NGREA funding. The appropriation affords invaluable 
flexibility and decision space to close equipment modernization gaps 
for critical enabler capabilities.
    The ability to fully integrate with the total force to project 
power across all domains remains the primary goal from an equipment 
modernization and readiness perspective. This drives the need to 
accelerate fielding of modern platforms that offer the same standards 
of protection, lethality, mobility, and communication systems as the 
forces being supported. The JLTV provides a significant force 
protection and mobility upgrade over the legacy light tactical vehicle 
fleet that enhances global deployment to non-permissive threat 
environments. As such, the Army Reserve will continue to seek a 
modernization strategy that prioritizes concurrent fielding for our 
early entry and theater opening formations.
    The Army Reserve is scheduled to begin fielding base funded JLTVs 
in 2024. The purpose of our NGREA investment is to establish a set of 
60 platforms at Regional Training Sites to conduct individual and crew 
training of both operators and maintainers. This strategy will enhance 
the readiness posture of Army Reserve Soldiers and our ability to meet 
rapid deployment time horizons to combat situations utilizing the JLTV 
platform.
          army reserve tactical wheeled vehicle modernization
    Question. General Luckey, you have made great progress providing 
operational capability and strategic depth to the Total Army and the 
Joint Force. However, it appears that recent administration budget 
requests haven't kept pace with your tactical wheeled vehicle (TWV) 
modernization requirements. This is concerning because insufficient 
funding can widen capability gaps that in turn jeopardize the Army 
Reserve's ability to support the Joint Force. I note, for example, that 
the fiscal year 2019 President's Budget request contained no funding 
for recapped heavy TWVs for the Army Reserve. In fact, the fiscal year 
2019 budget request zeroes out funding for the HEMTT recap program for 
fiscal year 2020-fiscal year 2023 and only provides funding for 19 PLS 
recaps for the Active component in fiscal year 2021. As a consequence, 
the Army Reserve increasingly relies on the National Guard and Reserve 
Equipment Appropriation to build readiness and sustain an Operational 
Reserve Force compatible and integrated with the ``Total Force.'' NGREA 
has enabled the Army Reserve to slowly and partially fill critical 
requirements, but as a planning tool, it is unpredictable as it falls 
outside normal appropriations and limits the ability to forecast. So we 
can better understand your equipping challenges, what are your current 
and anticipated TWV unfunded priorities?
    Answer. One of my top priorities is to ensure Army Reserve Soldiers 
deploy with the most modern equipment in the Army inventory that offers 
maximum survivability, mobility, lethality, and battlefield 
sustainability. Fielding current generation platforms enables seamless 
support, while providing necessary interoperability and compatibility 
with the total force. We remain grateful for the continued 
congressional support of NGREA and other above base resources, which 
profoundly affects equipment modernization efforts across our tactical 
wheeled vehicle fleets. With that support, the Army Reserve has 
allocated $625 million in above base funding to modernize tactical 
wheeled vehicle fleets over the last 6 years, to include 100 percent of 
ground ambulance platforms.
    As an enabler centric force, tactical wheeled vehicles represent 
one of the Army Reserve's most common combat systems. In fact, over 43 
percent of the Army's transportation assets reside within the Army 
Reserve structure. Limited resources and competing priorities forced 
Army leadership to make difficult decisions leading to a 50 percent 
armor capable procurement cap for most fleets. The incremental 
application of NGREA has allowed the Army Reserve to surpass the 70 
percent armor capable mark across most heavy and medium vehicle fleets. 
However, unfunded requirements to increase armor capable variants for 
line haul tractors (40 percent), bridge transports (44 percent), and 
light tactical platforms (30 percent) exceeds $5.3 billion.

    Senator Shelby. Senator Durbin, do you have anything else?
    Senator Durbin. I really do not have any follow up 
questions.
    Senator Shelby. Okay.
    Senator Durbin. But I will think of one.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The Defense subcommittee will reconvene in 
closed session this Thursday, April 19 at 10:00 a.m., to 
receive testimony from the intelligence community.
    Until then, the subcommittee stands in recess at the call 
of the chair. Thank you very much.
    [Whereupon, at 11:41 a.m., Tuesday, April 17, the 
subcommittee was recessed, to reconvene at 10:00 a.m., 
Thursday, April 19.]
</pre></body></html>
